Audit Report




OIG-14-012
Audit of the Department of the Treasury’s Closing Package
Financial Statements for Fiscal Years 2013 and 2012
December 17, 2013




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report


Section II – Department of the Treasury’s Closing Package Financial
             Statements for Fiscal Years 2013 and 2012
THIS PAGE INTENTIONALLY LEFT BLANK
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               December 17, 2013


            MEMORANDUM FOR JAIME M. SALING, DIRECTOR
                           FINANCIAL AND BUDGET REPORTS DIRECTORATE
                           BUREAU OF THE FISCAL SERVICE

                                     DAWN SIMPSON, ASSISTANT DIRECTOR
                                     FINANCIAL MANAGEMENT AND ASSURANCE
                                     GOVERNMENT ACCOUNTABILITY OFFICE

                                     REGINA KEARNEY
                                     SENIOR ADVISOR TO THE DEPUTY CONTROLLER
                                     OFFICE OF MANAGEMENT AND BUDGET

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audit

            SUBJECT:                 Audit of the Department of the Treasury’s Closing Package
                                     Financial Statements for Fiscal Years 2013 and 2012

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) closing package financial statements for fiscal years 2013 and 2012.
            Under a contract monitored by the Office of Inspector General, KPMG LLP (KPMG),
            an independent certified public accounting firm, performed an audit of the
            Department’s closing package financial statements as of September 30, 2013 and
            2012, and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and Office of Management and Budget Bulletin No. 14-02, Audit Requirements for
            Federal Financial Statements.

            In its audit, KPMG reported:

                    •   the closing package financial statements were fairly presented, in all
                        material respects, in accordance with U.S. generally accepted accounting
                        principles.

                    •   no matters involving internal control over the financial reporting for the
                        closing package financial statements that are considered material
                        weaknesses, and

                    •   no instances of reportable noncompliance with the Treasury Financial
                        Manual Volume I, Part 2, Chapter 4700 (TFM Chapter 4700).
Page 2


In connection with the contract, we reviewed KPMG’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the closing package financial statements, or make any
conclusions with regard to the effectiveness of internal control over financial
reporting or compliance with TFM Chapter 4700. KPMG is responsible for the
attached auditors’ report dated December 17, 2013, and the conclusions expressed
therein. Our review disclosed no instances where KPMG did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audit at
(202) 927-5329.

Attachment
         SECTION I

INDEPENDENT AUDITORS’ REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

Report on the Closing Package Financial Statements

We have audited the accompanying Closing Package Financial Statement Report of the U.S. Department of
the Treasury (Department), which is comprised of the Closing Package Financial Statement Report –
Balance Sheet as of September 30, 2013 and 2012, and the related Closing Package Financial Statement
Reports – Statement of Net Cost and Statement of Changes in Net Position for the years then ended, and
the related Financial Report (FR) Notes Reports (except for the information in the FR Notes Reports
entitled “Threshold”, Sections E and F in FR Notes Report No. 16, Section B in FR Notes Report No. 18,
Text Data Line No. 2 in FR Notes Report No. 25, and Text Data Line No. 3 in FR Notes Report No. 26);
the accompanying Additional Note No. 31; the accompanying Trading Partner Summary Note Report –
Balance Sheet as of September 30, 2013 and 2012; and the related Trading Partner Summary Note Reports
– Statement of Net Cost and Statement of Changes in Net Position for the years then ended (hereinafter
referred to as the “closing package financial statements”).

Management’s Responsibility for the Closing Package Financial Statements

Management is responsible for the preparation and fair presentation of these closing package financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of the
closing package financial statements that are free from material misstatement, whether due to fraud or
error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these closing package financial statements based on our
audits. We did not audit the financial statements of the Internal Revenue Service (IRS), a component
entity of the Department, which statements reflect total assets of $42.2 and $46.8 billion, net cost of
operations of $12.3 and $12.8 billion before applicable eliminating entries, budgetary resources of $12.7
and $13.2 billion, and custodial activity of $2,851 and $2,528 billion, as of and for the years ended
September 30, 2013 and September 30, 2012, respectively. Those statements were audited by another
auditor, whose report has been furnished to us, and our opinion, insofar as it relates to the amounts
included for IRS, is based solely on the report of the other auditor.
We did not audit the financial statements of the Office of Financial Stability (OFS), a component entity of
the Department, which statements reflect total assets of $71.2 and $116.7 billion, net income from
operations of $7.7 and $7.7 billion before applicable eliminating entries, and budgetary resources of $37.9
and $67.8 billion, as of and for the years ended September 30, 2013 and September 30, 2012, respectively.
Those statements were audited by another auditor, whose report has been furnished to us, and our opinion,
insofar as it relates to the amounts included for OFS, is based solely on the report of the other auditor.


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the closing
package financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
closing package financial statements. The procedures selected depend on the auditors’ judgment, including
the assessment of the risks of material misstatement of the closing package financial statements, whether
due to fraud or error. In making those risk assessments, the auditor considers internal control relevant to
the entity’s preparation and fair presentation of the closing package financial statements in order to design
audit procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion
on the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the closing
package financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Closing Package Financial Statements

In our opinion, based on our audits and the reports of the other auditor, the closing package financial
statements referred to above present fairly, in all material respects, the financial position of the U.S.
Department of the Treasury as of September 30, 2013 and 2012, and its net costs and changes in net
position for the years then ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matter

We draw attention to Additional Note No. 31 to the closing package financial statements, which describes
that the accompanying closing package financial statements were prepared to comply with requirements of
the U.S. Department of the Treasury’s Treasury Financial Manual (TFM) Volume I, Part 2, Chapter 4700
(TFM Chapter 4700) for the purpose of providing financial information to the U.S. Department of the
Treasury’s Bureau of the Fiscal Service (Fiscal Service) and the U.S. Government Accountability Office
(GAO) to use in preparing and auditing the Financial Report of the U.S. Government, and are not intended
to be a complete presentation of the consolidated balance sheets of the Department as of September 30,
2013 and 2012, and the related consolidated statements of net cost, consolidated statements of changes in
net position, combined statements of budgetary resources, and statements of custodial activity for the years
then ended (hereinafter referred to as the “general-purpose financial statements”). Our opinion is not
modified with respect to this matter.

As discussed in FR Notes Report Nos. 4A, 20, 28A, 28B and Additional Note 31, the Department is a
participant in significant legislation and transactions whose purpose is to assist in stabilizing the financial
markets. Also as discussed in Additional Note 31, the closing package financial statements do not include
the assets, liabilities, or results of operations of commercial entities in which the Department has a
significant equity interest as it has determined that none of these entities meet the criteria for inclusion as a
federal entity and are therefore not included in the closing package financial statements. Furthermore, as
discussed in Additional Note 31, the value of certain investments, loans, commitments, and asset
guarantees is based on estimates. These estimates are inherently subject to substantial uncertainty arising
from the likelihood of future changes in general economic, regulatory, and market conditions. In addition,
there are significant uncertainties related to the amounts that the Department will realize from its
investments. As such, there will likely be differences between the estimated value of these investments,
loans, commitments, and asset guarantees as of September 30, 2013 and 2012, and the amounts that may
ultimately be realized from these assets or may be required to settle these commitments and asset
guarantees. Such differences may be material and will also affect the ultimate cost of these programs. Our
opinion is not modified with respect to these matters.

As discussed in Additional Note 31 to the closing package financial statements, in 2013 the Department
adopted Statement of Federal Financial Accounting Standards No. 43, Funds from Dedicated Collections:
Amending Statement of Federal Financial Accounting Standards No. 27, Identifying and Reporting
Earmarked Funds. The 2012 closing package financial statements have been adjusted for the retrospective
application of the new accounting guidance. Our opinion is not modified with respect to this matter.

Other Matters

Opinion on the General-Purpose Financial Statements

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and OMB Bulletin No. 14-02, the general-purpose
financial statements of the U.S. Department of the Treasury as of and for the years ended September 30,
2013 and 2012, and our report thereon, dated December 16, 2013, expressed an unmodified opinion on
those financial statements.

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in Section E in FR Notes Report
No. 16, Text Data Line No. 2 in FR Notes Report No. 25, Text Data Line No. 3 in FR Notes Report No. 26
and Other Data Report Nos. 1, 8, 9, 14 and 17, except for the information included in the Other Text Data
of Other Data Report No. 1 (which is discussed below), be presented to supplement the basic closing
package financial statements. Such information, although not a part of the basic closing package financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to be an
essential part of financial reporting for placing the basic closing package financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to the
required supplementary information in accordance with auditing standards generally accepted in the United
States of America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to our inquiries,
the closing package financial statements, and other knowledge we obtained during our audits of the closing
package financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or provide
any assurance.
Management has omitted the Combining Statements of Budgetary Resources and Management’s
Discussion and Analysis that U.S. generally accepted accounting principles require to be presented to
supplement the closing package financial statements. Such missing information, although not a part of the
closing package financial statements, is required by the Federal Accounting Standards Advisory Board
who considers it to be an essential part of financial reporting for placing the closing package financial
statements in an appropriate operational, economic, or historical context. Our opinion on the closing
package financial statements is not affected by this missing information.
Other Information

Our audits were conducted for the purpose of forming an opinion on the closing package financial
statements as a whole. The information included in Section F in FR Notes Report No. 16; Section B in FR
Notes Report No. 18; the Other Data Report Nos. 2, 11, 12, 15, and 16; the information included in the
Other Text Data of Other Data Report No. 1; and the information entitled “Threshold” in FR Notes Report
Nos. 2 through 11, 15, 19, 20, and 28A; the information in the Closing Package Line Reclassification
Summary Report – Balance Sheet; the information in the Closing Package Line Reclassification Summary
Reports – Statement of Net Cost and Statement of Changes in Net Position; and the information in the
Closing Package Line Reclassification Summary Report – Custodial Activity are presented for purposes of
additional analysis in accordance with TFM Chapter 4700 and are not a required part of the closing
package financial statements. Such information has not been subjected to the auditing procedures applied
in the audits of the closing package financial statements, and accordingly, we do not express an opinion or
provide any assurance on it.
Restriction on Use of the Report on the Closing Package Financial Statements

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of the Inspector General, the Fiscal Service, OMB, and GAO in connection with the
preparation and audit of the Financial Report of the U.S. Government and is not intended to be and should
not be used by anyone other than these specified parties.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards and OMB Bulletin No. 14-02, we have also issued a
combined auditors’ report dated December 16, 2013 which presents our opinion on the Department’s
general-purpose financial statements; our consideration of the Department’s internal control over financial
reporting; and the results of our tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements and other matters that are required to be reported under Government
Auditing Standards. That report should be read in conjunction with this report in considering the results of
our audits of the closing package financial statements. Our audit of the general-purpose financial
statements of the Department as of and for the year ended September 30, 2013 disclosed the following
material weakness, significant deficiency, other matter and noncompliance:

A. Material Weakness in Internal Control Over Financial Reporting at the IRS (Repeat Condition)
B. Significant Deficiency in Internal Control in Information Systems Controls at the Bureau of the Fiscal
   Service (Repeat Condition)
C. Other Matter of Potential Violation of the Anti-Deficiency Act (Repeat Condition).
D. Noncompliance with Federal Financial Management Improvement Act of 1996 (Repeat Condition)

Internal Control Over Financial Reporting Specific to the Closing Package Financial Statements

In planning and performing our audit of the closing package financial statements, we also considered the
Department’s internal control over financial reporting (internal control) to determine the audit procedures
that are appropriate in the circumstances for the purpose of expressing our opinion on the closing package
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control. Accordingly, we do not express an opinion on the effectiveness of the
Department’s internal control.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control for the closing package financial statements was for the limited
purpose described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control that might be material weaknesses or significant deficiencies. Given these limitations,
during our audit we did not identify any deficiencies in internal control that we consider to be material
weaknesses. However, material weaknesses may exist that have not been identified.

Compliance and Other Matters Specific to the Closing Package Financial Statements
As part of obtaining reasonable assurance about whether the Department’s closing package financial
statements are free from material misstatement, we also performed tests of its compliance with certain
provisions of TFM Chapter 4700. However, providing an opinion on compliance with those provisions was
not an objective of our audit of the closing package financial statements, and accordingly, we do not
express such an opinion. The results of our tests of compliance with TFM Chapter 4700 disclosed no
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 14-02.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
results of that testing, and not to provide an opinion on the effectiveness of the Department’s internal
control or compliance. Accordingly, this communication is not suitable for any other purpose.




December 17, 2013
THIS PAGE INTENTIONALLY LEFT BLANK
             SECTION II

    DEPARTMENT OF THE TREASURY’S
CLOSING PACKAGE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2013 AND 2012
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                       U.S Department of the Treasury                                         12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2013                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                     Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                              177,483                             178,186                            178,186
Accounts and Taxes Receivable                                                38,602                              41,463                             41,463
Loans Receivable and mortgage                                                27,670                              30,222                             30,222
backed securities
TARP Direct Loans and Equity                                                 17,869                              40,231                              40,231
Investments
Inventory and Related Property                                                  750                                 630                                630
Property, Plant and Equipment                                                 2,646                               2,435                              2,435
Debt and Equity Securities                                                   14,114                              18,047                             18,047
Investment in Government sponsored                                          140,221                             109,342                            109,342
enterprises (GSEs)
Derivative Assets                          I                                      0                                   0                                  0
Other Assets                                                                  6,402                               6,050                              6,050
Total Non-Federal Assets                                                    425,757                             426,606                            426,606

Federal
Fund Balance with Treasury                                                  367,820                             344,346                            344,346
Federal Investments                                                               0                                 968                                968
Accounts Receivable                                                             433                                 525                                525
Accounts Receivable, capital transfers                                            0                                   0                                  0
Interest Receivable                                                             282                                 531                                531
Loans Receivable                                                          1,122,973                             946,705                            946,705
Transfers Receivable                                                              0                                   0                                  0
Benefit Program Contributions                                                     0                                   0                                  0
Receivable




                                                                                              -1-
                                                                       U.S Department of the Treasury                                         12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:        2013                              Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                        2012-SEPTEMBER                    Previously Reported
Advances to Others and Prepayments                                                2                                  2                                    2
Other Assets (without reciprocals)                                       17,123,357                         16,202,179                           16,202,179
Total Federal Assets                                                     18,614,867                         17,495,256                           17,495,256
Total Assets                                                             19,040,624                         17,921,862                           17,921,862

Liabilities
Non-Federal
Accounts Payable                                                             (3,897)                             (4,922)                             (4,922)
Federal Debt Securities Held by the                                     (12,003,030)                        (11,307,583)                        (11,307,583)
Public
Federal Employee and Veteran                                                   (685)                              (655)                               (655)
Benefits Payable
Environmental and Disposal                                                          0                                 0                                      0
Liabilities
Benefits Due and Payable                                                            0                                 0                                   0
Loan Guarantee Liabilities                                                         (9)                               (7)                                 (7)
Liabilities to Government Sponsored                                                 0                            (9,003)                             (9,003)
Enterprises
Insurance and Guarantee Program                                                     0                                 0                                      0
Liabilities
Derivative Liabilities                     I                                      0                                   0                                   0
Other Liabilities                                                          (202,491)                            (83,804)                            (83,804)
Total Non-Federal Liabilities                                           (12,210,112)                        (11,405,974)                        (11,405,974)

Federal
Accounts Payable                                                           (128,489)                              (256)                               (256)
Accounts Payable, capital transfers                                               0                                  0                                   0




                                                                                               -2-
                                                                       U.S Department of the Treasury                                       12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2013                             Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:   ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                   Previously Reported
Federal Debt                                                             (4,800,041)                         (4,822,607)                       (4,822,607)
Interest Payable                                                            (43,157)                            (45,592)                          (45,592)
Loans Payable                                                                     0                                   0                                 0
Transfers Payable                                                               (28)                                  0                                 0
Benefit Program Contributions                                                  (181)                               (247)                             (247)
Payable
Advances from Others and Deferred                                                (47)                                (57)                             (57)
Credits
Liability to the General Fund for                                        (1,417,423)                         (1,257,752)                       (1,257,752)
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                          (3)                                 19                                19
Total Federal Liabilities                                                (6,389,369)                         (6,126,492)                       (6,126,492)
Total Liabilities                                                       (18,599,481)                        (17,532,466)                      (17,532,466)


Net Position-All Other Funds                                               (392,466)                            (340,149)                        (346,173)
Net Position- Funds From Dedicated                                          (48,677)                             (49,247)                         (43,223)
Collections

Total Net Position                                                         (441,143)                           (389,396)                         (389,396)
Total Liabilities and Net Position                                      (19,040,624)                        (17,921,862)                      (17,921,862)




                                                                                              -3-
                                                                       U.S Department of the Treasury                                         12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2013                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:     ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                     Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                       16,313                             (261,197)                          (261,197)
Interest on Debt Held by the Public                                         247,582                              245,707                            245,707
Gain/Loss from changes in actuarial                                               0                                    0                                  0
assumptions
Total Non-Federal Gross Cost                                                263,895                              (15,490)                           (15,490)

Federal Gross Cost
Benefit Program Costs                                                         1,734                               1,756                              1,756
Imputed Costs                                                                   776                                 813                                813
Buy/Sell Costs                                                                3,798                               2,044                              2,044
Federal Securities Interest Expense                                         177,831                             187,285                            187,285
Borrowing and Other Interest                                                  8,211                               8,746                              8,746
Expense
Borrowing Losses                                                                  0                                   0                                  0
Other Expenses (without reciprocals)                                            469                                 489                                489
Total Federal Gross Cost                                                    192,819                             201,133                            201,133
Department Total Gross Cost                                                 456,714                             185,643                            185,643

Earned Revenue
Non-Federal Earned Revenue                                                 (134,405)                              (3,822)                            (3,822)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                   0                                  0
Buy/Sell Revenue                                                              (1,039)                             (1,083)                            (1,083)
Federal Securities Interest Revenue                                                0                                   0                                  0
(exchange)




                                                                                              -4-
                                                                       U.S Department of the Treasury                                         12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2013                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                     Previously Reported
Borrowing and Other Interest                                                (37,614)                            (35,511)                            (35,511)
Revenue (Exchange)
Borrowings Gains                                                                (32)                                (46)                                (46)
Other Revenue (without reciprocals)                                               0                                   0                                   0
Total Federal Earned Revenue                                                (38,685)                            (36,640)                            (36,640)

Department Total Earned Revenue                                            (173,090)                            (40,462)                            (40,462)

Net Cost                                                                    283,624                             145,181                            145,181




                                                                                              -5-
                                                                       U.S Department of the Treasury                                          12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2013                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                      Previously Reported
Beginning Net Position                                                     (389,396)                             (80,138)                            (80,138)
Non-Federal Prior-Period
Adjustments
Changes in Accounting Principles -                                                 0                                   0                                      0
Non Federal
Corrections of Errors - Non Federal                                                0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year - Non
Federal
Federal Prior-Period Adjustments
Change in Accounting Principles -                                                  0                                   0                                      0
Federal
Corrections of Errors - Federal                                                    0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year - Federal
Adjusted Beginning Net Position                                            (389,396)                             (80,138)                            (80,138)
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                            (2,128,111)                        (1,836,315)                           (1,836,315)
Witholdings
Corporation Income Taxes                                                   (270,425)                            (237,492)                           (237,492)
Unemployment Taxes                                                           (7,749)                              (7,053)                             (7,053)
Excise Taxes                                                                (82,449)                             (78,067)                            (78,067)
Estate and Gift Taxes                                                       (18,783)                             (13,945)                            (13,945)
Custom Duties                                                                     0                                    0                                   0
Other Taxes and Receipts                                                    (84,968)                             (87,805)                            (87,805)




                                                                                              -6-
                                                                       U.S Department of the Treasury                                          12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2013                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                      Previously Reported
Miscellaneous Earned Revenue                                                     23                             (4,741)                               (4,741)
Total Non-Federal Nonexchange                                            (2,592,462)                        (2,265,418)                           (2,265,418)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                0                                   0                                      0
(nonexchange)
Borrowing and other interest revenue                                               0                                   0                                      0
(nonexchange)
Benefit Program Revenue                                                            0                                   0                                      0
(nonexchange)
Other taxes and receipts                                                           0                                   0                                      0
Total Federal Nonexchange Revenue                                                  0                                   0                                      0

Budgetary Financing Sources:
Appropriations received as adjusted                                        (498,977)                            (402,868)                           (402,868)
(rescissions and other adjustments)
Appropriation of unavailable special                                               0                                   0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                               0                                   0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                   (25)                              (185)                               (185)
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                    0                                  43                                  43
unexpended appropriations and
financing sources




                                                                                              -7-
                                                                       U.S Department of the Treasury                                          12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2013                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                        2012-SEPTEMBER                     Previously Reported
Expenditure transfers-in of financing                                               0                                  0                                      0
sources
Expenditure Transfers-out of                                                       83                               128                                 128
financing sources
Nonexpenditure Transfers-In of                                                      0                                  0                                      0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                  0                                      0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                  0                                      0
the General Fund
Accrual for Amounts to be Collected                                                 0                                  0                                      0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                           (11,922)                             (95,879)                            (95,879)
Total Budgetary Financing Sources                                          (510,841)                            (498,761)                           (498,761)

Other Financing Sources:
Transfers-in Without Reimbursement                                                  0                                  0                                   0
Transfers-out Without                                                              42                                 47                                  47
Reimbursement
Imputed Financing Source                                                       (776)                             (812)                                  (812)
Non-Entity Collections Transferred                                        2,770,760                         2,308,533                              2,308,533
to the General Fund
Accrual for Non-entity Amounts to                                             (2,857)                              1,972                               1,972
be Collected and Transferred to the
General Fund
Other non-budgetary financing                                                   763                                    0                                      0




                                                                                               -8-
                                                                       U.S Department of the Treasury                                         12-16-2013 15:10:21
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2013                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:     ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2013-SEPTEMBER                       2012-SEPTEMBER                     Previously Reported
sources
Total Other Financing Sources                                             2,767,932                         2,309,740                             2,309,740


Net Cost                                                                    283,624                             145,181                            145,181

Ending Net Position Balance                                                (441,143)                            (389,396)                          (389,396)




                                                                                              -9-
                                                                                                                                                                                          12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                  Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        Notes 16 and 23

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Federal Reserve Earnings                                                               Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Treasury securities Credit                    1,930,247                  1,646,809                   1,646,809                          0
                including those
                held by the Federal
                Reserve Bank
                (FRB)
 2              FRB earnings on     Credit                       75,767                     81,957                      81,957                          0
                Treasury securities
                that exceed the
                statutory amount.

       Section: B             Section Name: Related Parties, External to the Reporting Entity for       No Data Flag: YES          Line Attributes: Dollars
                                            the Financial Report                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                    Fiscal Year: 2013                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:      Notes 16 and 23

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe any significant events or transactions that occurred after the date of the Balance      See CP Note 31, Part 3H
                   Sheet but before the issuance of agency¿s audited financial statements that have a material
                   effect on the financial statements and, therefore, require adjustments or disclosure in the
                   statements.
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).               N/A
3                  When applying the general rule of the Statements of Federal Financial Accounting Standards       In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing
                   (SFFAS) No. 7, par.                                                                              Sources and Concepts for Reconciling Budgetary and Financial Accounting, some
                   48, describe the specific potential accruals that are not made and the practical and inherent    unpaid tax assessments do not meet the criteria for financial statement recognition.
                   limitations affecting the                                                                        Under Internal Revenue Code Section 6201, the Department is authorized and required
                   accrual of taxes and duties.                                                                     to make inquiries, determinations, and assessments of all taxes which have not been
                                                                                                                    duly paid (including interest, additions to the tax, and assessable penalties) under the
                                                                                                                    law. Unpaid assessments result from taxpayers filing returns without sufficient
                                                                                                                    payment, as well as from tax compliance programs such as examination, under-
                                                                                                                    reporter, substitute for return, and combined annual wage reporting. The Department
                                                                                                                    also has authority to abate the paid or unpaid portion of an assessed tax, interest, and
                                                                                                                    penalty. Abatements occur for a number of reasons and are a normal part of the tax
                                                                                                                    administration process. Abatements may result in claims for refunds or a reduction of
                                                                                                                    the unpaid assessed amount .
                                                                                                                    Under federal accounting standards, unpaid assessments require taxpayer or court
                                                                                                                    agreement to be considered federal taxes receivable. Assessments not agreed to by
                                                                                                                    taxpayers or the courts are considered compliance assessments and are not
                                                                                                                    considered federal taxes receivable. Due to the lack of agreement, these compliance
                                                                                                                    assessments are less likely to have future collection potential than those unpaid
                                                                                                                    assessments that are considered federal taxes receivable.

4                  Describe any change in accounting if a collecting entity adopts accounting standards that        N/A
                   embody a fuller
                   application of accrual accounting concepts that differ from that prescribed by SFFAS No. 7,
                   par. 48.
5                  List all of the agency's components for which balances and activities are not combined into      N/A
                   the agency's financial statements, and, therefore, are represented in the GFRS data.
6                  List all of the agency's components for which balances and activities are combined into the      See CP Note31 Part 2 A
                   agency's financial
                   statements, and, therefore, are represented in the GFRS data.
7                  Describe any additional significant accounting policies specific to the agency not included in   See CP Note 31, Part 2
                   GFRS Module
                   GF006 - FR Notes.
8                  Provide any other relevant information pertaining to the Federal Reserve Earnings.               See CP Note 31 Part 2 AB
9                  Describe the nature of the related party relationship and transactions pertaining to the         See CP Note 31 Part 2 AB
                   amount in the ,Other
                   Notes Info, tab, Related party receivables' line.
10                 Describe the nature of the related party relationship and transactions pertaining to the         N/A
                   amount in the "Other



                                                                                                            -2-
                                                                                                                                                                                        12/16/2013 15:09:47

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 01       Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                  Fiscal Year: 2013               Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                   Agency Notes:      Notes 16 and 23

 Status: Complete                       The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
                 Notes Info " tab," Related party payables" line.
11               Describe the "Other Notes Info" tab, "Related party operating revenue" transactions along       N/A
                 with the related party
                 relationship and include transactions with zero or nominal balances, guarantees, and other
                 terms. Also, describe
                 changes in related party terms.
12               Describe the ''Other Notes Info" tab, "Related party net cost of operations" transactions       N/A
                 along with the related party relationship and include transactions with zero or nominal
                 balances, guarantees, and other terms. Also, describe changes in related party terms.
13               Describe related party economic dependency (that is, major customers, suppliers,                See Note 31 Part 2 AB
                 franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                 and transactions included in the "Other Notes Info" tab, "Related party economic
                 dependency transactions" section.
14               Provide details on the investments in related parties.                                          N/A
15               Provide details on related party leases.                                                        N/A
16               Describe control relationships with entities under common ownership, management control,        The Secretary serves on the FHFA Oversight Board, and consults with the Director of
                 and conservatorship if the operating results or financial position could be significantly       FHFA on matters involving Fannie Mae and Freddie Mac. This provides the Department
                 impacted as a result of the relationship. Include control relationships with and without        a voice in the FHFA's actions as the conservator for Fannie Mae and Freddie Mac. The
                 transactions.                                                                                   Department has no transactions with FHFA.
17               Provide any other useful information on related parties.                                        See Note 31 Part 2 AB




                                                                                                         -3-
                                                                                                                                                                                                12/16/2013 15:09:47

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                 Fiscal Year: 2013                      Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                    Agency Notes:        1, 5, 6, and 12

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                  Type
Cash and Other Monetary Assets                                             D        A                   177,483                 178,186
                                                                               Variance:                      0                       0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description             2013 - SEPTEMBER            2012 - SEPTEMBER               Previously Rptd            Line Item Changes
 1           Operating Cash- not                           82,742                      79,195                      79,195                               0
             restricted
 2           Operating Cash-
             restricted
 3           Other cash - not                                 207                          149                           149                            0
             restricted
 4           Other cash - restricted                          399                         379                         379                               0
 5           International monetary                        72,888                      76,812                      76,812                               0
             assets
 6           Gold                                           11,062                     11,062                      11,062                               0
 7           Foreign currency                               10,185                     10,589                      10,589                               0
             Total                                         177,483                    178,186                     178,186                               0
Threshold

 Line Description                                               Question                                                            Answer
 Line Item Notes - Other cash - not restricted (2013 -          Please provide explanations for any amounts that have               This variance is not material to the Department's financial statements.
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -4-
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                                 Fiscal Year: 2013                      Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:        1, 5, 6, and 12

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                               Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              IMF Letter of Credit Debit                       44,649                     41,328                     41,328                             0
                - available balance
 2              Reserve Position in Debit                        19,838                     23,496                     23,496                             0
                the IMF
 3              SDR Holdings-        Debit                       54,972                     55,240                     55,240                             0
                Exchange
                Stabilization Fund
 4              SDR Certificates     Credit                       5,200                      5,200                         5,200                          0
                outstanding with
                the FRB
 5              Interest bearing     Credit                      54,177                     54,463                     54,463                             0
                liability to the IMF
                for SDR Allocations
 6              Gold certificates    Credit                      11,037                     11,037                     11,037                             0
       Section: B              Section Name: Gold                                                                                    Line Attributes: Units


Line Status Line Description           NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              Number of fine troy    N/A             261,498,927.0000          261,498,927.0000           261,498,927.0000                         .0000
                ounces of gold
 2              Statutory price of 1   N/A                     42.2222                     42.2222                    42.2222                        .0000
                fine troy ounce of
                gold
 3              Market value of 1      N/A                   1,326.5000                 1,776.0000                 1,776.0000                        .0000
                fine troy ounce of
                gold




                                                                                                         -5-
                                                                                                                                                                                      12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                          Fiscal Year: 2013                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                              Agency Notes:    1, 5, 6, and 12

  Status: Complete                             The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C              Section Name: Analysis of Cash Held Outside Treasury                    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER
 1              Total Cash Held       Credit
                Outside Treasury
                (reported to Treas
                central account
                thru the statement
                of Transac/ Stat of
                Accountbilit
 2                                    Credit
 3                                    Credit
 4                                    Credit
 5                                    Credit
 6                                    Credit
 7              Total cash reported    N/A
                in Note 2.




                                                                                                          -6-
                                                                                                                                                                                                    12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 02          Cash and Other Monetary Assets                                                                                    Fiscal Year: 2013                     Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                         Agency Notes:      1, 5, 6, and 12

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."                   This is mainly comprised of cash reported by the Fiscal Service as Miscellaneous Cash
                                                                                                                       listed in Note 5 of the Department's AFR. It is mainly cash expected to be included in
                                                                                                                       Operating Cash in the near future and it fluctuates daily.
2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and       This is mainly non-entity, includes seized cash reported by the Treasury Forfeiture
                   any statutory authority (law, regulation, or agreement).                                            Fund and international reserve assests created by the International Monetary Fund.
3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being    Internal Revenue Service that is held for taxpayers. Treasury Forfeiture Fund -
                   held.                                                                                               individuals or entities who own the seized cash. International Monetary Fund -
                                                                                                                       domestic currency available as needed through non-interest-bearing letter of credit.
                                                                                                                       Office of Financial Stability - cash on deposit to facilitate the payments of claims under
                                                                                                                       the FHA-Refinance Program.
4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury     The Office of International Affairs maintains funds at the Federal Reserve Bank in New
                   designated bank?                                                                                    York that are restricted for use by the IMF. The articles of agreement with the IMF
                                                                                                                       provide for return of these funds should the U.S. withdraw from the IMF. Other
                                                                                                                       restricted assets are held at Treasury designated financial institutions.
5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the   Invested cash is displayed on the balance sheet as investments rather than cash.
                   Bureau of the Fiscal Service (BFS)security, agency security, and/or non-Federal security?           Investments in BPD securities are eliminated from the Department's balance sheet.
6                  Describe the nature of the amount in the line item "Foreign currency."                              Foreign currency is held by the Exchange Stabilization Fund. All operations of the ESF
                                                                                                                       require the explicit authority of the Secretary of the Treasury. FMS Operating Cash
                                                                                                                       also hold foreign currency in a custodial capacity for the use of the entire U.S.
                                                                                                                       Government.
7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the         N/A
                   amount in the line item "Foreign Currency."
8                  Disclose the method of exchange rate used on the financial statement date (Treasury                 Treasury exchange rate.
                   exchange rate or prevailing market rate).
9                  Provide additional details describibg the nature and cause of reconciling items reported in         N/A
                   Section C, lines 2 through 6.
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      See Note 31. Part 2.F
                   the significant accounting policies pertaining to this note.
                                                                                                                       IMF Letter of Credit and the Reserve Position include amounts subject to Federal
                                                                                                                       Credit Reform Act.




                                                                                                                -7-
                                                                                                                                                                                                12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                  Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                     Agency Notes:        1 and 13

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2013 - SEPTEMBER        2012 - SEPTEMBER
                                                                                    Type
Accounts and Taxes Receivable                                                D        A                    38,602                 41,463
                                                                                 Variance:                      0                      0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description            2013 - SEPTEMBER               2012 - SEPTEMBER               Previously Rptd          Line Item Changes
 1           Accounts receivable,                                500                         162                         162                            0
             gross
 2           Related interest                                  3,087                      2,287                        2,287                            0
             receivable - accounts
             receivable
 3           Penalties, fines, and                                33                          18                          18                            0
             administrative fees
             receivable
 4           Less: allowance for                                  -2                          -1                          -1                            0
             loss on accounts
             receivable
 5           Less: allowance for                                  -7                          -5                          -5                            0
             loss on interest
             receivable
 6           Less: allowance for                                 -22                         -12                         -12                            0
             loss on penalties,
             fines, and admin. fees
             rec.
 7           Taxes receivable,                               159,087                    152,060                      152,060                            0
             gross
 8           Less: allowance for                            -124,074                  -113,046                      -113,046                            0
             loss on taxes
             receivable
             Total                                            38,602                     41,463                       41,463                            0
Threshold

 Line Description                                                 Question                                                          Answer
 Line Item Notes - Accounts receivable, gross (2013 -             Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Related interest receivable - accounts         Please provide explanations for any amounts that have             Variance presented is not material to the Department's consolidated
 receivable (2013 - SEPTEMBER)                                    changed by 10% or more and or greater than 500,000 between        financial statements.
                                                                  the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                         -8-
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                       Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        1 and 13

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Taxes (To be completed by the Depts. of Treasury,                                            Line Attributes: Dollars
                                           Labor and Homeland Security)                                                               Rounding Method: Millions                          Decimal: Zero
Line Status Line Description         NB       2013 - SEPTEMBER                2012 - SEPTEMBER                   Previously Rptd        Line Item Changes
 1              Interest on         Debit                                                           5                           5                            0
                uncollectible
                accounts (SFFAS
                No. 1, par. 55)




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the method(s) used to calculate the allowances on accounts receivable.                       Allowances are calculated differently by each Treasury bureau depending on the nature
                                                                                                                           of the balances. Treasury cannot reasonably estimate interest on uncollectible
                                                                                                                           accounts.
 2                   Describe the method(s) used to calculate the allowance on taxes receivable.                           2. IRS- Uses a sophisticated model to estimate both taxes receivable and the
                                                                                                                           allowance. TTB uses aging, analysis of individual accounts, analysis of offers in
                                                                                                                           compromise, etc.
 3                   Explain any material difference between the balance of accounts receivable and the                    No known material differences.
                     amounts reported on the Treasury Report on Receivables.
 4                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31 Part 2.I
                     the significant accounting policies pertainnig to this note.




                                                                                                             -9-
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                      Agency Notes:     1, 11, and 12

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                             NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                     Type
Loans Receivable and mortgage backed securities                               D        A                    27,670                30,222
                                                                                  Variance:                      0                     0          Rounding Method: Millions               Decimal: Zero
Line Status Line Description              CY Face Value of loans          CY Long-term cost of      CY Net loans receivable     PY Face Value of loans       PY Long-term cost of         PY Net loans receivable
                                               outstanding               loans outstanding                                           outstanding            loans outstanding
 13      I   GSE Mortgage Backed
             Securities Purchase
             Program
 15          International Monetary                             1,995                          99                     1,896                       1,995                          137                        1,858
             Fund -- Quota
 16          International Monetary                             3,653                         -15                     3,668                       1,490                          -21                        1,511
             Fund -- New
             Arrangements to
             Borrow
 17          SBLF Small Business                                3,633                          28                     3,605                       3,980                           50                        3,930
             Lending
 18          IMF - NAB (Non-                                  10,110                          156                     9,954                      10,382                          142                       10,240
             Credit Reform)
 19          HFA Initiative                                     9,335                         915                     8,420                      13,684                        1,128                       12,556
 20
 21
 22          All other loans                                      143                          16                       127                         139                           12                         127
             receivable
             Total                                              28,869                     1,199                      27,670                     31,670                         1,448                      30,222
Threshold

 Line Description                                                  Question                                                           Answer
 Line Item Notes - SBLF Small Business Lending (CY Long-           Please provide explanations for any amounts that have             Variance presented is not material to the Department's consolidated
 term cost of loans outstanding)                                   changed by 10% or more and or greater than 500,000 between        financial statements.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - HFA Initiative (CY Face Value of loans          Please provide explanations for any amounts that have             The decrease is from the normal course of business reflecting prepayments
 outstanding)                                                      changed by 10% or more and or greater than 500,000 between        during the year.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - HFA Initiative (CY Long-term cost of loans      Please provide explanations for any amounts that have             Variance presented is not material to the Department's consolidated
 outstanding)                                                      changed by 10% or more and or greater than 500,000 between        financial statements.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - All other loans receivable (CY Long-term        Please provide explanations for any amounts that have             Variance presented is not material to the Department's consolidated
 cost of loans outstanding)                                        changed by 10% or more and or greater than 500,000 between        financial statements.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)



                                                                                                         - 10 -
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                         Fiscal Year: 2013                      Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                     Agency Notes:          1, 11, and 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Other Notes Info.

      Section: A                Section Name: Subsidy Expense/(Income)                                                             Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                             Decimal: Zero
Line Status Line Description          NB       2013 - SEPTEMBER             2012 - SEPTEMBER                  Previously Rptd     Line Item Changes
13      I     GSE Mortgage           Debit                                                                                -705                          705
              Backed Securities
              Purchase Program
15            International          Debit                           5                          67                                                       67
              Monetary Fund --
              Quota
16            Internation            Debit                           6                         -20                                                      -20
              Monetary Fund --
              New Arrangements
              to Borrow
17            SBLF Small             Debit                          34                         105                         105                            0
              Business Lending
              Fund
18                                   Debit
19            HFA Initiative         Debit                         -74                         515                         515                            0
20            IMF Quota              Debit                                                                                  67                          -67
21            IMF NAB                Debit                                                                                 -20                           20
22            All other loans        Debit                           6                          -3                          -3                            0
              receivable
23            Total                N/A                             -23                         664                         -41                          705
Threshold
 Line Description                                                Question                                                           Answer
 Other Notes Info - SBLF Small Business Lending Fund (2013       Please provide explanations for any amounts that have              The 2013 performance assumptions anticipate an increased cost due to
 - SEPTEMBER)                                                    changed by 10% or more and or greater than 500,000                 lower dividend rates, both actual and projected, paid by participating
                                                                 between the current fiscal year and prior fiscal year.             institutions relative to the dividend rates projected as of September 30,
                                                                 (Unaudited)                                                        2012. These lower dividend rates are the result of continuing success by
                                                                                                                                    participating banks in increasing small business lending.
 Other Notes Info - All other loans receivable (2013 -           Please provide explanations for any amounts that have              Variance presented is not material to the Department's consolidated
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000                 financial statements.
                                                                 between the current fiscal year and prior fiscal year.
                                                                 (Unaudited)




                                                                                                          - 11 -
                                                                                                                                                                                             12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                             Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                         Agency Notes:    1, 11, and 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: B             Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.             No Data Flag: YES             Line Attributes: Dollars
                                            91)                                                                                     Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB       2013 - SEPTEMBER              2012 - SEPTEMBER                   Previously Rptd       Line Item Changes
 1             Balances for          Debit
               property held Pre-
               1992
 2             Balances for          Debit
               property held Post-
               1991




Tab: Text Data
 Line               Question                                                                                              Answer
 1                  Provide a broad description of foreclosed property.                                                   N/A
 2                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31.Part 2.H
                    the significant accounting policies pertaining to this note.




                                                                                                           - 12 -
                                                                                                                                                                                          12/16/2013 15:09:47

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                            Fiscal Year: 2013                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                 Agency Notes:        1 and 7

  Status: Complete                        The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          9                    7
                                                                             Variance:                       0                    0            Rounding Method: Millions             Decimal: Zero
Line Status Line Description          2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd          Line Item Changes
 9       I   Air Transportation
             Stabilization Board
 13          FHA -Refinance                                    9                          7                            7                            0
             Program
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total                                             9                           7                           7                            0
Threshold

 Line Description                                             Question                                                           Answer
 Line Item Notes - FHA -Refinance Program (2013 -             Please provide explanations for any amounts that have             Variance presented is not material to the Department's consolidated
 SEPTEMBER)                                                   changed by 10% or more and or greater than 500,000 between        financial statements.
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 13 -
                                                                                                                                                                                                     12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 04B           Loan Guarantees                                                                                                    Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:          1 and 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                                 Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB         CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D      PY Face Value of Loans PY Amount Guaranteed by              PY Subsidy Expense D
                                              Loans Outstanding D             by the Government D                                          Outstanding D        the Government D
 9        I    Air Transportation      N/A
               Stabilization Board
13             FHA -Refinance          N/A                          489                            59                           2                            307                         41                              6
               Program
14                                     N/A
15                                     N/A
16                                     N/A
17                                     N/A
18             All other loans         N/A
               guarantee liabilities
 19            Total:               N/A                             489                            59                           2                            307                         41                              6
Threshold
 Line Description                                                 Question                                                               Answer
 Other Notes Info - FHA -Refinance Program (CY Face Value         Please provide explanations for any amounts that have                  During fiscal year 2013, $182 million of loans were disbursed by the FHA
 of Loans Outstanding)                                            changed by 10% or more and or greater than 500,000
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (Unaudited)
 Other Notes Info - FHA -Refinance Program (CY Amount             Please provide explanations for any amounts that have                  The increase is directly related to the increase in loans that were disbursed
 Guaranteed by the Government)                                    changed by 10% or more and or greater than 500,000                     by the FHA
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (Unaudited)
 Other Notes Info - FHA -Refinance Program (CY Subsidy            Please provide explanations for any amounts that have                  Variance presented is not material to the Department's consolidated
 Expense)                                                         changed by 10% or more and or greater than 500,000                     financial statements.
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (Unaudited)
Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31.Part 2.H
                     the significant accounting policies pertaining to this note.




                                                                                                             - 14 -
                                                                                                                                                                                             12/16/2013 15:09:47

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                             Fiscal Year: 2013                  Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        Immaterial to the Dept no separate note disclosure

  Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2013 - SEPTEMBER         2012 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          750                  630
                                                                            Variance:                         0                    0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description          2013 - SEPTEMBER            2012 - SEPTEMBER               Previously Rptd            Line Item Changes
 1          Gross Inventory -                              640                          757                           757                            0
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized                                    904                          787                           787                            0
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used                        -779                        -904                         -904                              0
 6          Total allowance for                            -15                         -10                          -10                              0
            inventories and related
            property
            Total                                           750                         630                           630                            0




                                                                                                   - 15 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                                Fiscal Year: 2013                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        Immaterial to the Dept no separate note disclosure

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                                             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating materials
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit                           14                         18                          18                          0
                and supplies held
                for use
 6              Operating materials     Debit                           34                         26                          26                          0
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit                           75                         89                          89                          0
11              Other related           Debit                          642                        507                         507                          0
                property
12              Total allowance for     Credit                          15                         10                          10                          0
                inventories and
                related property
13              Total inventories        N/A                           750                        630                         630                          0
                and related
                property, net




                                                                                                           - 16 -
                                                                                                                                                                                              12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                            Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                  Agency Notes:      Immaterial to the Dept no separate note disclosure

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: A             Section Name: Inventory Yearend Balances by Category Type                                          Line Attributes: Dollars
                                                                                                                               Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                               Question                                                          Answer
 Other Notes Info - Operating materials and supplies held for   Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 use (2013 - SEPTEMBER)                                         changed by 10% or more and or greater than 500,000
                                                                between the current fiscal year and prior fiscal year.
                                                                (Unaudited)
 Other Notes Info - Operating materials and supplies held in    Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 reserve for future use (2013 - SEPTEMBER)                      changed by 10% or more and or greater than 500,000
                                                                between the current fiscal year and prior fiscal year.
                                                                (Unaudited)

       Section: B             Section Name: Capitalized Acquitions From Government Agencies           No Data Flag: YES          Line Attributes: Dollars
                                            by Trading Patrner                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB       2013 - SEPTEMBER             2012 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              General Services    Debit
                Administration
 2              Department of       Debit
                Defense
 3              Department of       Debit
                Justice
 4              National            Debit
                Aeronautics and
                Space
                Administration
 5              All other           Debit
                departments
 6              Total Capitalized    N/A
                Assets from
                Federal Agencies




                                                                                                         - 17 -
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                           Fiscal Year: 2013                    Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:          Immaterial to the Dept no separate note disclosure

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C              Section Name: Other Information - Dollar Value                                                   Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                              Decimal: Zero
Line Status Line Description          NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd     Line Item Changes
 1              Seized property      Debit                         646                        571                         0                          571
 2              Forfeited property   Debit                          60                         84                         0                           84
 3              Goods held under     Debit
                price support and
                stabilization
                programs




       Section: D              Section Name: Other Information - Number of Items/Volume                                         Line Attributes: Units


Line Status Line Description          NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd     Line Item Changes
 1              Seized property       N/A                   34,559.0000              30,702.0000                30,702.0000                     .0000
 2              Forfeited property    N/A                   16,311.0000              16,343.0000                16,343.0000                     .0000
 3              Goods held under      N/A
                price support and
                stabilization
                programs




                                                                                                       - 18 -
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 05          Inventories and Related Property                                                                                Fiscal Year: 2013                 Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                      Agency Notes:       Immaterial to the Dept no separate note disclosure

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Method used to calculate allowance for each category of inventory.                               All inventories that is not for sale has an allowance of 100% of the original value.
2                  Significant accounting principles and methods of applying those principles.                      Inventory and related property includes inventory, operating materials and supplies and
                                                                                                                    forfeited property held by Treasury. Treasury's operating materials and supplies are
                                                                                                                    maintained for the production of bureau products. Treasury maintains inventory
                                                                                                                    accounts or balances for use in manufacturing currency and coins. The cost of these
                                                                                                                    items is included in inventory costs and is recorded as cost of goods sold upon delivery
                                                                                                                    to customers. Inventory for check processing activities is also maintained.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   The Treasury values inventories at either standard cost, or lower of cost or latest
                   the significant accounting policies pertaining to this note.                                     acquisition cost, except for finished goods inventories, which are valued at weighted-
                                                                                                                    average unit cost. These inventories were categorized based on the Department's
                                                                                                                    major activities and the services the Department provides to the Federal Government
                                                                                                                    and the public. All operating materials and supplies are recorded as an expense when
                                                                                                                    consumed in operations.

                                                                                                                    Forfeited property and currency is recorded in the respective seized property and
                                                                                                                    forfeited asset tracking systems at the estimated fair value at the time of seizure.
                                                                                                                    However, based on historical sales experiences for the year, properties are adjusted to
                                                                                                                    reflect the market value at the end of the fiscal year for financial statement reporting
                                                                                                                    purposes. Direct and indirect holding costs are not capitalized for individual forfeited
                                                                                                                    asset. Forfeited currency not deposited into the Fund is included as part of Entity
                                                                                                                    Assets - Cash and Other Monetary Assets.

                                                                                                                    Further, mortgages and claims on forfeited assets are recognized as a valuation
                                                                                                                    allowance and a reduction of deferred revenue from forfeited assets when the asset is
                                                                                                                    forfeited. The allowance includes mortgages and claims on forfeited property held for
                                                                                                                    sale and a minimal amount of claims on forfeited property previously sold. Mortgages
                                                                                                                    and claims expenses are recognized when the related asset is sold and is reflected as
                                                                                                                    a reduction of sales of forfeited property.




                                                                                                          - 19 -
                                                                                                                                                                                     12/16/2013 15:09:47

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                           Fiscal Year: 2013                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                               Agency Notes:        1 and 14

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                     2,646                2,435
                                                                            Variance:                      0                    0            Rounding Method: Millions           Decimal: Zero
Line Status Line Description                     CY PP&E                      CY Accum.             CY Net PP&E                    PY PP&E                       PY Accum.            PY Net PP&E
                                                                   Depr./Amortization                                                                 Depr./Amortization
 1          PP&E - balance                               6,184                       3,749                       2,435                    6,334                         4,068                    2,266
            beginning of year
 2          Prior-period
            adjustments (not
            restated)
 3          Capitalized                                     619                                                       619                     574                                                   574
            acquisitions from the
            public
 4          Capitalized                                      45                           1                            44                     114                          20                        94
            acquisitions from
            Government agencies
 5          Deletions from the                             -476                       -452                            -24                    -838                        -783                       -55
            Balance Sheet
 6          Revaluations                                    -25                         -22                            -3
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     425                       -425                                                    444                     -444
            on
            Total                                          6,347                      3,701                       2,646                      6,184                       3,749                    2,435




                                                                                                   - 20 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                  Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                      Agency Notes:        1 and 14

  Status: Complete                              The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Cost of PP&E for each category                                                          Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB       2013 - SEPTEMBER             2012 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1              Buildings,              Debit                         737                         739                         739                           0
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                       2,867                       3,012                        3,012                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit                         133                         172                         172                           0
                progress
 4              Land and Land           Debit                          18                          17                          17                           0
                Rights
 5              Internal use            Debit                       2,180                       1,824                        1,824                          0
                software
 6              Assets under            Debit                           9                            9                          9                           0
                capital lease
 7              Leasehold               Debit                         403                         411                         411                           0
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                         6,347                       6,184                        6,184                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                            Answer
 Other Notes Info - Construction in progress (2013 -                Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Internal use software (2013 -                   Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 21 -
                                                                                                                                                                                             12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                    Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                        Agency Notes:        1 and 14

  Status: Complete                               The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: B               Section Name: Accumulated Depreciation/Amortization                                                     Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              Buildings,              Credit                         383                        382                          382                           0
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                       2,005                      2,164                         2,164                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                       1,143                      1,002                         1,002                          0
                software
 4              Assets under            Credit                           3                          2                            2                           0
                capital lease
 5              Leasehold               Credit                         167                        199                          199                           0
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                        -3,701                     -3,749                     -3,749                             0
                depreciation/amorti
                zation
       Section: C               Section Name: Intragovernmental Capitalized acquisition amounts                                         Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              General Services        Debit                           33                         47                           47                           0
                Administration
 2              Department of           Debit                            0                          1                            1                           0
                Defense
 3              Department of the       Debit                            6                         16                           16                           0
                Interior
 4              Department of           Debit
                Justice
 5              National                Debit
                Aeronautics and
                Space
                Administration



                                                                                                           - 22 -
                                                                                                                                                                                                12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                   Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        1 and 14

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd        Line Item Changes
 6              All other             Debit                            6                          50                         50                            0
                departments
 7              Total capitalized      N/A                            45                        114                         114                            0
                assets from
                Federal agencies




       Section: D              Section Name: Gain/Loss on Sale/Disposition                                                            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd        Line Item Changes
 1              Gain/loss on          Credit                         -19                        -31                         -31                            0
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are         Treasury complex (Main Treasury Building and Annex) and Mint has 4 buildings.
                     included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).
 2                   Provide any other relevant information pertaining to this note and any material changes from        CP Note 31 Part 2 J
                     the prior fiscal years' depreciation methods and capitalization thresholds. In addition,
                     describe briefly the significant accounting policies pertaining to this note.




                                                                                                           - 23 -
                                                                                                                                                                                       12/16/2013 15:09:47

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                 Agency Notes:        Notes 1, 10, and 26

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    14,114                 18,047
                                                                               Variance:                      0                      0           Rounding Method: Millions         Decimal: Zero
Line Status Line Description              2013 - SEPTEMBER           2012 - SEPTEMBER               Previously Rptd          Line Item Changes
 1              Fixed/Debt Securities                      14,096                      15,415                      15,415                             0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                                  2                          4                            4                            0
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                              14                       2,625                       2,625                             0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                                2                          3                            3                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 24 -
                                                                                                                                                                                              12/16/2013 15:09:47

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                 Agency Notes:        Notes 1, 10, and 26

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2013 - SEPTEMBER            2012 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other
             Total                                          14,114                     18,047                      18,047                             0
Threshold

 Line Description                                               Question                                                          Answer
 Line Item Notes - All other Fixed Income/Debt Securities       Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 (FASB ASC 320-10-50-1 and 320-10-50-9) All:Other               changed by 10% or more and or greater than 500,000 between
 fixed/debt securities (2013 - SEPTEMBER)                       the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             The variance is due to the final sale on AIG stocks, which took place in
 1 and 320-10-50-9): Common Stocks (2013 -                      changed by 10% or more and or greater than 500,000 between        December 2012, leaving no remaining balance as of 9/30/13.
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 1 and 320-10-50-9): All Other Equity Securities (2013 -        changed by 10% or more and or greater than 500,000 between
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      - 25 -
                                                                                                                                                                                            12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2013                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:         Notes 1, 10, and 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities                                   Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment       PY Basis (Costs) D                 PY Unamortized        PY Net Investment
                                                                             Premium/Discount D                                                                  Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                           4                           -2                        2                           6                          -2                          4
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A                          18                           -4                       14                          19                          -5                       14
                Common stocks
 7              Equity Securities:      N/A                           6                           -4                        2                           6                          -3                          3
                Unit trusts
 8              Equity Securities:      N/A
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A                          28                        -10                         18                          31                         -10                       21
                Maturity Securities




                                                                                                        - 26 -
                                                                                                                                                                                           12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:       Notes 1, 10, and 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities                                 Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                          Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value       PY Basis (Costs) D        PY Unrealized Gain/Loss         PY Market Value
                                                                                               D                                                                                 D
 1              Fixed/Debt              N/A                      14,205                       -109                     14,096                    15,151                          264                   15,415
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A                           0                             0                      0                      3,603                         -992                    2,611
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A                      14,205                       -109                     14,096                    18,754                         -728                   18,026
                for-Sale Securities




                                                                                                        - 27 -
                                                                                                                                                                                     12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:    Notes 1, 10, and 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Trading           N/A
                Securities




                                                                                                        - 28 -
                                                                                                                                                                                       12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                    Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    Notes 1, 10, and 26

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: D              Section Name: Other Information                                                                      Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                    Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit                        -109                         264                         264
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 29 -
                                                                                                                                                                                      12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    Notes 1, 10, and 26

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D               Section Name: Other Information                                                                    Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                    Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 30 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                       Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                      Agency Notes:       Notes 1, 10, and 26

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     CDF - Line 5 represents $.5M in convertible subordinated debt securities and $1.5M in
                   9.                                                                                                secondary capital investments in federal credit unions. Line 8 represents $2M of other
                                                                                                                     equity securities with limited partnership interests.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       CDF - Line 5 represents $2M in convertible subordinated debt securities (and the
                   and 9 in Sections A through C.                                                                    related $1.8M discount on imputed interest) and $2M in secondary capital investments
                                                                                                                     in federal credit unions. Line 8 represents $5.5M of other equity securities with limited
                                                                                                                     partnership interests. All of CDFI securities are ¿Held to Maturity.¿
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of          ESF - Any long term held by ESF maturing in FY13 was reclassified to earning by
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-                taking the fair value less the amortized cost.
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-   N/A
                   maturity securities (FASB ASC 320-10-50-10).
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    See Note 31 part 2 G
                   the significant accounting policies pertaining to this note.




                                                                                                           - 31 -
                                                                                                                                                                                                        12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08           Other Assets                                                                                                           Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                            Agency Notes:        1 and 9

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2013 - SEPTEMBER        2012 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                        6,402                   6,050
                                                                                    Variance:                         0                       0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description             2013 - SEPTEMBER               2012 - SEPTEMBER                   Previously Rptd           Line Item Changes
 1             Advances and                                        6                              7                             7                               0
               prepayments
 4             Regulatory assets
 5             Derivative assets
 6             Other assets                                    6,396                          6,043                       6,043                                 0
               Total                                           6,402                          6,050                       6,050                                 0
Threshold

 Line Description                                                  Question                                                                  Answer
 Line Item Notes - Advances and prepayments (2012 -                Please provide explanations for any amounts that have                    Most of this balance relates to the Internal Revenue Service (IRS) and
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between               fluctuation of this amount is not significant.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Advances and prepayments (2013 -                Please provide explanations for any amounts that have                    Most of this balance relates to the Internal Revenue Service (IRS) and
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between               fluctuation of this amount is not significant.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.              Advances to the public consist of cash outlays for criminal investigations (IRS) and
                                                                                                                             employee travel.
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled        $6.396 billion relates to Treasury participation in Multilateral Development Banks
                     "Other Assets" on the "Line Item Notes" tab.                                                            (MDB). See AFR Note 9.
 3                   Provide the amounts that are designated as either non-hedging or hedging instruments.                   N/A
 4                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly          See Note 31 Part 2.G. Investments in International Financial Institutions paragraph 1
                     the significant accounting policies pertaining to this note.                                            only.




                                                                                                              - 32 -
                                                                                                                                                                                           12/16/2013 15:09:47

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                            Fiscal Year: 2013                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                  Agency Notes:        19

  Status: Complete                        The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                     3,897                  4,922
                                                                             Variance:                      0                      0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description         2013 - SEPTEMBER             2012 - SEPTEMBER                Previously Rptd          Line Item Changes
 1          Accounts Payable                              3,897                       4,922                       4,922                             0
            Total                                         3,897                       4,922                       4,922                             0
Threshold

 Line Description                                             Question                                                           Answer
 Line Item Notes - Accounts Payable (2013 - SEPTEMBER)        Please provide explanations for any amounts that have             Decrease in Accounts Payable is primarily due to: 1) Claims paid out to
                                                              changed by 10% or more and or greater than 500,000 between        Indian Tribes totaling $409 million, 2) $199 million decrease in Suspense
                                                              the current fiscal year and prior fiscal year. (Unaudited)        (Budget Clearing) Accounts, 3) $261 million paid in Grants for Specified
                                                                                                                                Energy in Lieu of Tax Credits and 4) $236 million decrease for the accrual of
                                                                                                                                Funded Payroll, which changed from 15 accrual days in FY12 to 6 accrual
                                                                                                                                days in FY13.




                                                                                                    - 33 -
                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 09            Accounts Payable                                                                                                  Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                        Agency Notes:    19

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Interest                                                      No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions             Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER C                 Previously Rptd C    Line Item Changes D
                                                               C
 1              Interest accrued      N/A
                and owed to others




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       See Note 31 Part 2.N.
                     the significant accounting policies pertaining to this note.




                                                                                                             - 34 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 10A        Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        1 and 16

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2013 - SEPTEMBER         2012 - SEPTEMBER
                                                                                   Type
Federal Debt Securities Held by the Public                                  C        L                12,003,030               11,307,583
                                                                                Variance:                      0                        0          Rounding Method: Millions                Decimal: Zero
Line Status Line Description           2013 - SEPTEMBER               2012 - SEPTEMBER               Previously Rptd           Line Item Changes
 1            Marketable Securities                      1,527,909                   1,613,026                     1,613,026                             0
             - Treasury bills
 2            Marketable Securities                      7,750,336                   7,114,961                     7,114,961                             0
             - Treasury notes
 3            Marketable Securities                      1,363,114                   1,194,715                     1,194,715                             0
             - Treasury bonds
 4            Marketable Securities                         936,041                    807,469                      807,469                              0
             - Treasury inflation
             protected securities
 5            Non-marketable                                398,879                    539,415                      539,415                              0
             securities
 6            Unamortized premium                            36,090                     32,381                       32,381                              0
             on Treasury securities
 7            Unamortized discount                          -60,534                    -51,606                      -51,606                              0
             on Treasury securities
 8           Accrued interest                                51,195                     57,222                       57,222                              0
             payable on debt
             issued by Treasury
  9          Securities at par
 10           Unamortized premium
             on securities
 11           Unamortized discount
             on securities
 12           Accrued interest
             payable on agency
             securities
             Total                                       12,003,030                 11,307,583                  11,307,583                               0
Threshold

 Line Description                                                Question                                                             Answer
 Line Item Notes - Marketable Securities - Treasury bonds        Please provide explanations for any amounts that have               Treasury primarily used the existing suite of securities to meet the borrowing
 (2013 - SEPTEMBER)                                              changed by 10% or more and or greater than 500,000 between          needs of the Federal Government while increasing its offerings of longer
                                                                 the current fiscal year and prior fiscal year. (Unaudited)          term securities to extend the average length of maturity. As a result,
                                                                                                                                     Treasury Bonds increased by $169 million.




                                                                                                       - 35 -
                                                                                                                                                                                        12/16/2013 15:09:47

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

   Note: 10A          Federal Debt Securities Held by the Public                                                               Fiscal Year: 2013                 Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                              Agency Notes:      1 and 16

 Status: Complete                        The accompanying notes are an integral part of these financial statements.         I = Inactive Line



Threshold

Line Description                                               Question                                                      Answer
Line Item Notes - Accrued interest payable on debt issued by   Please provide explanations for any amounts that have        Decrease of Interest Payable was due to a decrease in new borrowings
Treasury (2013 - SEPTEMBER)                                    changed by 10% or more and or greater than 500,000 between   (debt held by the public) for FY13, $706,693 million vs. $1,142,555 million
                                                               the current fiscal year and prior fiscal year. (Unaudited)   for FY12.




                                                                                                     - 36 -
                                                                                                                                                                                           12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 10A           Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                       Agency Notes:        1 and 16

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Federal Debt Held By the Public: Other Related                                           Line Attributes: Dollars
                                             Information                                                                            Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Changes
 1             Debt subject to        Credit                  16,699,396                 16,027,021                 16,027,021                             0
               statutory limit
 2             Statutory debt limit   Credit                  16,699,421                 16,394,000                 16,394,000                             0
 3             Loss or gain for       Credit
               difference between
               the reacquisition
               price and the net
               carrying value of
               the extinguished
               debt
       Section: B              Section Name: Federal Debt Held By The Public: Average Interest                                        Line Attributes: Percent
                                             Rate
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Changes
 1             Marketable              N/A                         .1000                      .1000                         .1000                     .0000
               securities -
               Treasury bills
 2             Marketable              N/A                        1.8000                     2.0000                     2.0000                        .0000
               securities - Tresury
               notes
 3             Marketable              N/A                        5.1000                     5.4000                     5.4000                        .0000
               securities -
               Treasury bonds
 4             Marketable              N/A                        1.1000                     1.4000                     1.4000                        .0000
               securities -
               Treasury inflation
               protected securities
 5             Non-marketable          N/A                        2.4000                     2.1000                     2.1000                        .0000
               securities




                                                                                                         - 37 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 10A         Federal Debt Securities Held by the Public                                                                        Fiscal Year: 2013                  Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:       1 and 16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Pursuant to Federal law, are old currencies issued by the Federal Government and not yet          Fiscal Service (legacy BPD) does not write off debt. The Matured Unredeemed (old)
                   redeemed or written off                                                                           debt is recorded at par value and is also fully amortized. Therefore, yes, it is recorded at
                   identified as a Federal debt liabitlity at face value?                                            face value in the debt liability.
2                  Provide the losses or gains for the difference between the reacquistion price and the net         Currently Marketable Treasury Securities and most non-marketable Treasury securities
                   carrying value of the extinguished                                                                are not early redeemable. Therefore, there are no gains or losses to record. These
                   debt recognized currently in the period of the extinguishment for those securities that are       securities are redeemed at par value.
                   retired before the maturity date
                   because of a call feature of the security, or because they are eligible for redemption by the     The only Treasury securities that are early redeemable are Government Account Series
                   holder on demand.                                                                                 securities (GAS), which are non-marketable. However, the intent of the GAS program
                                                                                                                     is to hold to maturity, and because of this intent the information found in SFFAS 1 and
                                                                                                                     5, Fiscal Service (legacy BPD) records these securities at amortized cost, not the
                                                                                                                     market value. Gains and losses are not broken out and reported separately because
                                                                                                                     they are not material.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    See Note 31 Part 2.K.
                   the significant accounting policies pertaining to this note.




                                                                                                            - 38 -
                                                                                                                                                                                           12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                              Fiscal Year: 2013                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                  Agency Notes:          26 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Investments in Federal Debt securities                                              Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                            Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium        CY Net Investment                PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                             investment D                         C
19             Department of         N/A                       22,669                                                                          22,669                       22,680
               Treasury,
               Exchange
               Stabilization Fund
23             Hope Bond             N/A                           494                                                                               494                         493
24                                   N/A
25                                   N/A
26             All other programs    N/A                         9,150                          374                     242                     9,018                        8,344                        220
               and funds
27             Total                 N/A                       32,313                          -374                     242                    32,181                       31,517                      -220

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
19             Department of         N/A                                                     22,680
               Treasury,
               Exchange
               Stabilization Fund
23             Hope Bond             N/A                                                        493
24                                   N/A
25                                   N/A
26             All other programs    N/A                           283                        8,407
               and funds
27             Total                 N/A                           283                       31,580
       Section: B             Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                                Line Attributes: Dollars
                                            Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                            Decimal: Zero
                                            Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium         CY Net Investment                PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                              investment D                         C
 1             Fiduciary             N/A                            17                                                    1                           18                          16
               Investments
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A



                                                                                                         - 39 -
                                                                                                                                                                                      12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                Agency Notes:         26 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                              Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                  Rounding Method: Millions                          Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium       CY Net Investment               PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                           investment D                         C
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                            17                                                  1                          18                         16

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1             Fiduciary            N/A                             1                           17
               Investments
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                             1                           17




                                                                                                        - 40 -
                                                                                                                                                                                  12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2013            Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                 Agency Notes:    26 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                    Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 41 -
                                                                                                                                                                                           12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                      Agency Notes:        26 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C            Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES          Line Attributes: Dollars
                                           Other Agency Funds with Fiduciary Activity                                             Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB            PY Unamortized            PY Net Investment
                                                       premium C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A
16             Total                 N/A
       Section: D            Section Name: Programs and Funds (to be completed only by                                              Line Attributes: Dollars
                                           Treasury)                                                                              Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB       2013 - SEPTEMBER              2012 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Social Security       Debit                   2,655,599                    2,586,697                   2,586,697                          0
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2             Office of Personnel   Debit                     713,761                      819,444                     819,444                          0
               Management, Civil
               Service Retirement
               and Disability
 3             Office of Personnel   Debit                      23,427                       21,259                      21,259                          0
               Management,
               Employees¿ Health
               Benefits
 4             Department of         Debit                     206,010                      228,292                     228,292                          0
               Health and Human
               Services, Federal


                                                                                                           - 42 -
                                                                                                                                                                                           12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                      Agency Notes:        26 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D            Section Name: Programs and Funds (to be completed only by                                              Line Attributes: Dollars
                                           Treasury)                                                                              Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB       2013 - SEPTEMBER              2012 - SEPTEMBER                Previously Rptd       Line Item Changes
               Hospital Insurance
 5             Department of         Debit                     421,327                      376,439                  376,439                             0
               Defense, Military
               Retirement Fund
 6             Department of         Debit                     188,664                      176,113                  176,113                             0
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7             Social Security       Debit                     100,791                      132,345                  132,345                             0
               Administration,
               Federal Disability
               Insurance
 8             Department of         Debit                      29,478                       20,673                   20,673                             0
               Labor,
               Unemployment
 9             Federal Deposit       Debit                      36,864                       36,498                   36,498                             0
               Insurance
               Corporation Funds
10             Office of Personnel   Debit                      41,951                       41,250                   41,250                             0
               Management,
               Employees¿ Life
               Insurance
11             Department of         Debit                      50,598                       49,552                   49,552                             0
               Energy, Nuclear
               Waste Disposal
12             Department of         Debit                      67,385                       69,324                   69,324                             0
               Health and Human
               Services, Federal
               Supplementary
13             Housing and Urban     Debit
               Development,
               Federal Housing
               Administration
14             Department of         Debit
               Veterans Affairs,
               National Service
               Life Insurance
               Fund
15             Department of         Debit                           0                            0                       9,970                    -9,970


                                                                                                         - 43 -
                                                                                                                                                                                       12/16/2013 15:09:47

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                                Fiscal Year: 2013                Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        26 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: D           Section Name: Programs and Funds (to be completed only by                                            Line Attributes: Dollars
                                         Treasury)                                                                            Rounding Method: Millions                        Decimal: Zero
Line Status Line Description        NB       2013 - SEPTEMBER              2012 - SEPTEMBER                Previously Rptd     Line Item Changes
             Transportation,
             Highway Trust
             Fund
16           Department of         Debit                      11,808                       10,425                   10,425                           0
             Transportation,
             Airport and Airway
             Trust Fund
17           Pension Benefit       Debit                      22,575                       21,114                   21,114                           0
             Guaranty
             Corporation Fund
18           Department of         Debit                      17,364                       16,893                   16,893                           0
             State, Foreign
             Services
             Retirement and
             Disability Fund
19           Department of the     Debit                      22,669                       22,680                   22,680                           0
             Treasury,
             Exchange
             Stabilization Fund
20           Railroad              Debit
             Retirement Board
21           Office of Personnel   Debit                      42,324                       45,347                   45,347                           0
             Management,
             Postal Service
             Retiree Health
22           Housing and Urban     Debit
             Development,
             Ginnie Mae
23           Federal Financing     Debit                         494                          493                       493                          0
             Bank - Hope Bond
24           National Credit       Debit                      10,643                       10,297                   10,297                           0
             Union Share
             Insurance Fund
25                                 Debit
26           All other programs    Debit                      92,477                      104,409                   94,439                      9,970
             and funds
27           Subtotal              N/A                     4,756,209                    4,789,544                 4,789,544                          0
             Intragovernmental
             Debt Holdings



                                                                                                       - 44 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        26 and BPD Schedule

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: D             Section Name: Programs and Funds (to be completed only by                                              Line Attributes: Dollars
                                           Treasury)                                                                              Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB       2013 - SEPTEMBER               2012 - SEPTEMBER                Previously Rptd       Line Item Changes
28            Total Net             Debit                       69,447                       56,250                      56,250                          0
              Unamortized
              Premiums/Discount
              s for
              Intragovernmental
29            Total                  N/A                      4,825,656                   4,845,794                  4,845,794                           0
              Intragovernmental
              Debt Holdings
Threshold
 Line Description                                                Question                                                            Answer
 Other Notes Info - Office of Personnel Management, Civil        Please provide explanations for any amounts that have               Direct further variance analysis back to the agency referenced in the line
 Service Retirement and Disability (2013 - SEPTEMBER)            changed by 10% or more and or greater than $500,000                 description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Health and Human               Please provide explanations for any amounts that have               Direct further variance analysis back to the agency referenced in the line
 Services, Federal Hospital Insurance (2013 - SEPTEMBER)         changed by 10% or more and or greater than $500,000                 description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Defense, Military              Please provide explanations for any amounts that have               Direct further variance analysis back to the agency referenced in the line
 Retirement Fund (2013 - SEPTEMBER)                              changed by 10% or more and or greater than $500,000                 description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Social Security Administration, Federal      Please provide explanations for any amounts that have               Direct further variance analysis back to the agency referenced in the line
 Disability Insurance (2013 - SEPTEMBER)                         changed by 10% or more and or greater than $500,000                 description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Labor, Unemployment            Please provide explanations for any amounts that have               Direct further variance analysis back to the agency referenced in the line
 (2013 - SEPTEMBER)                                              changed by 10% or more and or greater than $500,000                 description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Transportation, Airport and    Please provide explanations for any amounts that have               Direct further variance analysis back to the agency referenced in the line
 Airway Trust Fund (2013 - SEPTEMBER)                            changed by 10% or more and or greater than $500,000                 description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - All other programs and funds (2013 -         Please provide explanations for any amounts that have               Direct further variance analysis back to the agency referenced in the line
 SEPTEMBER)                                                      changed by 10% or more and or greater than $500,000                 description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).




                                                                                                         - 45 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

   Note: 10B           Treasury securities held by the Government trust, revolving, and special funds                                     Fiscal Year: 2013                 Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                                         Agency Notes:      26 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


     Section: D             Section Name: Programs and Funds (to be completed only by                                                 Line Attributes: Dollars
                                          Treasury)                                                                                 Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                               Question                                                               Answer
 Other Notes Info - Total Net Unamortized                       Please provide explanations for any amounts that have                  Variance is spread throught variance agency activity. Direct further variance
 Premiums/Discounts for Intragovernmental (2013 -               changed by 10% or more and or greater than $500,000                    analysis back to the agency referenced in the line descriptions above.
 SEPTEMBER)                                                     between the current fiscal year and prior fiscal year
                                                                (unaudited).




Tab: Text Data
 Line              Question                                                                                             Answer
 1                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly       No significant accounting policy.
                   the significant accounting policies pertaining to this note.




                                                                                                           - 46 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                                  Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                     Agency Notes:        1

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2013 - SEPTEMBER          2012 - SEPTEMBER
                                                                                   Type
Federal Employee and Veteran Benefits Payable                               C        L                           685                 655
                                                                                Variance:                          0                   0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description              2013 - SEPTEMBER            2012 - SEPTEMBER                Previously Rptd           Line Item Changes
 1            Pension and accrued
              benefits
 2            Post-retirement health
              and accrued benefits
 3            Veteran's
              compensation and
              burial benefits
 4            Life Insurance and
              accrued benefits
 5            FECA Benefits                                    619                          577                           577                            0
 6            Liability for other                               66                           78                            78                            0
              retirement and
              postemployment
              benefits
              Total                                             685                         655                           655                            0
Threshold

 Line Description                                                Question                                                            Answer
 Line Item Notes - Liability for other retirement and            Please provide explanations for any amounts thathave changed        This variance is not material to the Department's financial statements.
 postemployment benefits (2013 - SEPTEMBER)                      by 10% or more and or greater than 500,000 between the
                                                                 current fiscal year and prior fiscal year (unaudited).




                                                                                                        - 47 -
                                                                                                                                                                               12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    1

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions             Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 5              Interest on pension     Credit
                liability during the
                period
 6              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
                (SFFAS No. 33,
                par. 22)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes) (SFFAS
                No. 33, par. 22)
 9              Other                   Credit
10              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
11              Less Benefits Paid      Debit



                                                                                                           - 48 -
                                                                                                                                                                               12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    1

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions             Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
12              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




       Section: B               Section Name: Pension Liability Long-Term Significant Assumptions        No Data Flag: YES         Line Attributes: Percent
                                              Used in the Current FY and Prior FY Valuation
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
                (except OPM)
 2              Rate of inflation        N/A
                (except OPM)
 3              Projected salary         N/A
                increases (except
                OPM)



       Section: C               Section Name: Postretirement Health and Accrued Benefits                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 49 -
                                                                                                                                                                               12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    1

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6              Actuarial            Credit
                (gains)/losses (from
                experience)
 7              Actuarial            Credit
                (gains)/losses (from
                assumption
                changes)
 8              Other                Credit
 9              Total                    N/A
                postretirement
                health benefits
                expense
10              Less claims paid        Debit
11              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the Current FY
                                               and Prior FY Valuation
Line Status Line Description             NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                medical trend
 3              Single equivalent        N/A
                rate of medical
                trend




                                                                                                           - 50 -
                                                                                                                                                                                12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2013          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:     1

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: F             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description           NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: K             Section Name: Workers' Compensation Benefits (to be completed by        No Data Flag: YES         Line Attributes: Percent
                                            DOL)
Line Status Line Description           NB                     COLA                          CPIM
 5        I     2017+                 N/A




                                                                                                        - 51 -
                                                                                                                                                                             12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                                    Fiscal Year: 2013    Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:    1

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable    N/A
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal         N/A
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in                   N/A
                   determining pension liability and
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining            N/A
                   pension liability and the
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in                   N/A
                   determining the postretirement
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the        N/A
                   postretirement health
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for Line Item Notes tab lines 4, 5, and 6.        Bureau's trial balance
11                 Provide the source(s) for the components of pension expense entered in Section A.                  N/A
12                 Provide the source(s) for the interest rate for pension expense entered in Section B.              N/A
13                 Provide the source(s) for the components of postretirement expense entered in Section C.           N/A
14                 Provide the source(s) for the interest rate for pension expense entered in Section D.              N/A
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly     See Note 31 Part 2.O
                   the significant
                   accounting policies pertaining to this note.




                                                                                                             - 52 -
                                                                                                                                                                                  12/16/2013 15:09:47

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2013 - SEPTEMBER          2012 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 53 -
                                                                                                                                                                                      12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2013          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2013 - SEPTEMBER               2012 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 54 -
                                                                                                                                                                                          12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2013 - SEPTEMBER          2012 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2013 - SEPTEMBER              2012 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 55 -
                                                                                                                                                                                              12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                                          Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                          Agency Notes:      N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2013 - SEPTEMBER         2012 - SEPTEMBER
                                                                                       Type
Insurance and Guarantee Program Liabilities                                     C        L                             0                     0
                                                                                    Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2013 - SEPTEMBER              2012 - SEPTEMBER                   Previously Rptd            Line Item Changes
 7              Other Insurance
                Programs
 8
 9
              Total

Tab: Text Data                           No Data Flag: YES
 Line                 Question                                                                                               Answer
 1                    Provide a description for the type of insurance or guarantee programs identified in the "Line
                      Item Notes" tab.
 2                    Provide the name, description, and the related amounts of the insurance or guarantee
                      programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
 3                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                      the significant
                      accounting policies pertaining to this note.




                                                                                                              - 56 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

      Note: 15              Other Liabilities                                                                                                Fiscal Year: 2013                   Period: SEPTEMBER
   Entity: 2000             Department of the Treasury                                                                                       Agency Notes:        1, 5, 6, 18, and 19

  Status: Complete                                The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                                NB    Account     2013 - SEPTEMBER       2012 - SEPTEMBER
                                                                                        Type
Other Liabilities                                                                C        L                   202,491                   83,804
                                                                                     Variance:                      0                        0           Rounding Method: Millions           Decimal: Zero
Line Status Line Description                    2013 - SEPTEMBER           2012 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                   299                          326                           326                            0
 2               Accrued wages and                                  269                          558                           558                            0
                 benefits
 3               Gold certificates                               11,037                      11,037                      11,037                               0
 4               Other debt
 5               Exchange Stabilization                          54,177                      54,463                      54,463                               0
                 Fund
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability                            9,164                     10,059                      10,059                               0
 11              Custodial liabilities
 12              Accrued annual leave                               560                          582                           582                            0
 14              Advances and                                         4                            2                             2                            0
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds                                     1,030                      1,317                       1,317                               0
 17              Bonneville Power
                 Administration non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18              Derivative liabilities
 19
 20              Ceritificates Issued to                           5,200                      5,200                       5,200                               0
                 FRB - ESF
 21
 22              Other Liabilities                              120,751                          260                           260                            0


                                                                                                            - 57 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 15           Other Liabilities                                                                                                Fiscal Year: 2013                   Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                       Agency Notes:        1, 5, 6, 18, and 19

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line


Line Status Line Description               2013 - SEPTEMBER          2012 - SEPTEMBER                   Previously Rptd         Line Item Changes
            Total                                         202,491                    83,804                           83,804                             0
Threshold

 Line Description                                                Question                                                            Answer
 Line Item Notes - Accrued wages and benefits (2013 -            Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Advances and prepayments (2013 -              Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Deposit funds (2013 - SEPTEMBER)              Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
                                                                 changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other Liabilities (2013 - SEPTEMBER)          Please enter a description for any amounts over $50 million.        The $120.4 billion year-to-year increase is the result of the DISP crossing
                                                                                                                                     fiscal years. This liability is to restore the uninvested principal (including
                                                                                                                                     early redeemed Treasury securities) and related foregone interest owed to
                                                                                                                                     TSP.




                                                                                                           - 58 -
                                                                                                                                                                                                        12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 15             Other Liabilities                                                                                                   Fiscal Year: 2013                  Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                         Agency Notes:       1, 5, 6, 18, and 19

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Other Information                                                                          Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                             Decimal: Zero
Line Status Line Description            NB       2013 - SEPTEMBER               2012 - SEPTEMBER             Previously Reported
 6              D.C. pension          Credit                       9,164                        10,059
                liability (Treasury
                only)




Tab: Text Data
 Line                 Question                                                                                             Answer
 1                    Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1        Line 3 - Note 6, Line 5 - Note 5, Line 10 - Note 18, and Line 20 - Note 5 of the
                      through 21 by including a description of the significant related amounts and providing the           Department's AFR.
                      page number and the documentation support by email to FRD's central mailbox at
                      financial.reports@fms.treas.gov if amounts identified cannot be directly traced to the
                      agency's financial report.
 2                    Provide a description and related amounts for balances that exceed $50 million on the Line           The $120.4 billion year-to-year increase is the result of the DISP crossing fiscal years.
                      Item Notes tab, line 21, "Other liabilities," and provide the page number of the agency's            This liability is to restore the uninvested principal (including early redeemed Treasury
                      financial report where the amount is identified.                                                     securities) and related foregone interest owed to TSP.
 3                    Provide the amounts that are designated as either non-hedging or hedging instruments.                N/A.
 4                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly       See Note 31 Part 2.M paragraph 1-3 and Part 2.P.
                      the significant
                      accounting policies pertaining to this note.




                                                                                                              - 59 -
                                                                                                                                                                                                  12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                     Fiscal Year: 2013                      Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                     Agency Notes:          1, 23, and OI

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Collections of Federal Revenue                                                           Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB                       2013                         2012                       2011                 Prior Years
 1              Individual income     Credit                   1,580,379                    821,555                     22,270                       24,342
                and tax
                withholdings
 2              Corporation income    Credit                     217,602                     83,575                         2,005                     8,812
                taxes
 3              Unemployment          Credit                       3,974                      3,786                           51                            85
                taxes
 4              Excise taxes          Credit                      60,880                     22,912                           50                           128
 5              Estate and gift       Credit                           27                    10,243                          625                      8,935
                taxes
 6              Railroad retirement   Credit                       4,192                      1,317                            1                             1
                taxes
 7              Fines, penalties,     Credit                       1,155                        113                            0                             0
                interest, and other
                revenue
 8              Custom duties         Credit
 9              Subtotal               N/A                    -1,868,209                  -943,501                     -25,002                     -42,303
10              Amounts collected     Credit                       -358
                for Non-Federal
                entities
11              Total                  N/A                    -1,867,851                  -943,501                     -25,002                     -42,303
       Section: B              Section Name: PP Collections of Federal Revenue                                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB                       2012                         2011                       2010                 Prior Years
 1              Individual income     Credit                   1,415,326                    699,498                     20,718                       24,448
                and tax
                withholdings
 2              Corporation income    Credit                     197,244                     73,126                          739                     10,353
                taxes
 3              Unemployment          Credit                       3,886                      3,162                           28                            83
                taxes
 4              Excise taxes          Credit                      59,105                     20,244                           42                           163
 5              Estate and gift       Credit                           77                     6,753                          167                      7,453
                taxes
 6              Railroad retirement   Credit                       3,609                      1,163                            0                             1



                                                                                                         - 60 -
                                                                                                                                                                                                  12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                     Fiscal Year: 2013                      Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                     Agency Notes:          1, 23, and OI

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: B              Section Name: PP Collections of Federal Revenue                                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB                       2012                         2011                       2010                 Prior Years
                taxes
 7              Fines, penalties,     Credit                           351                          0                          0                             0
                interest, and other
                revenue
 8              Customs duties        Credit
 9              Subtotal               N/A                    -1,679,598                  -803,946                     -21,694                     -42,501
10              Amounts collected     Credit                       -386
                for non-Federal
                entities
11              Total                  N/A                    -1,679,212                  -803,946                     -21,694                     -42,501
       Section: C              Section Name: Federal Tax Refunds Disbursed                                                            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB                       2013                         2012                       2011                 Prior Years
 1              Individual income     Debit                            702                  287,132                     21,861                       10,740
                and tax
                withholdings
 2              Corporation income    Debit                        5,358                     12,893                         6,717                    16,601
                taxes
 3              Unemployment          Debit                              1                      112                           20                            14
                taxes
 4              Excise taxes          Debit                            512                      797                           91                           118
 5              Estate and gift       Debit                              0                      188                          298                           561
                taxes
 6              Railroad retirement   Debit                              0                          2                          0                            70
                taxes
 7              Fines, penalties,     Debit                              0                          0                          0                             0
                interest, and other
                revenue
 8              Customs Duties        Debit
 9              Total                  N/A                         6,573                    301,124                     28,987                       28,104




                                                                                                         - 61 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                      Fiscal Year: 2013                      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:          1, 23, and OI

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D             Section Name: PP Fed Tax Refunds Disbursed for the FY                                                  Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB                      2012                         2011                       2010                 Prior Years
 1              Individual income     Debit                           514                  293,434                     23,719                       10,008
                and tax
                withholdings
 2              Corporation income    Debit                       5,093                     10,567                         7,356                    20,954
                taxes
 3              Unemployment          Debit                             1                       78                           11                            16
                taxes
 4              Excise taxes          Debit                           433                      839                           79                           136
 5              Estate and gift       Debit                             0                      180                           80                           245
                taxes
 6              Railroad retirement   Debit                             0                          4                          0                             4
                taxes
 7              Fines, penalties,     Debit                             1                          0                          0                             0
                interest, and other
                revenue
 8              Customs duties        Debit
 9              Total                 N/A                         6,042                    305,102                     31,245                       31,363
       Section: E             Section Name: Miscellaneous                                                                            Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                             Decimal: Zero
Line Status Line Description           NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              Portion due from      Debit                      85,000
                identified non-
                compliance
                assessments
 2              Portion due from      Debit
                pre-assessment
                work in process




                                                                                                        - 62 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                        Fiscal Year: 2013                   Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      1, 23, and OI

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: F             Section Name: Tax Gap                                                                                    Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB      CY Low end of range            CY High end of range           PY Low end of range     PY High end of range
 1              Tax gap estimate     Debit                            0                      450,000                           0                     450,000




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Disclose the basis of accounting related to Collections and Disbursements of Non-Federal             See Note 31 Part 2.S
                     nonexchange revenue.
 2                   Are all trust fund revenues recorded in accordance with applicable law (SFFAS No. 7, par.            Trust fund revenues are recorded in accordance with applicable law.
                     66). If "no", provide the reasons.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       See Note 31 Part 2.S
                     the significant accounting policies pertaining to this note.




                                                                                                            - 63 -
                                                                                                                                                                     12/16/2013 15:09:47

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 64 -
                                                                                                                                                                     12/16/2013 15:09:47

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors                       No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors                           No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 65 -
                                                                                                                                                                     12/16/2013 15:09:47

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 66 -
                                                                                                                                                                               12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 17          Prior-Period Adjustments                                                                                        Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:    N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: G            Section Name: Closing Package Adjustments                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB                  Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11          Total                   N/A
Tab: Text Data                        No Data Flag: YES
 Line               Question                                                                                            Answer
 1                  Describe the restatements to the prior year that resulted from correcting errors that occurred
                    in the prior year (data reported in Sections A and B).
 2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-
                    year beginning net position (data reported in Sections C and D).
 3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected
                    against the current-year operations (data reported in Sections E and F).
 4                  Describe any adjustments of the previous year (2011) reclassification in this year's (2012)
                    Closing Package prior-year (2011) reporting (data reported in Section G), excluding
                    amounts reported as restatements in Section A and B.
 5                  Describe the adjustments to the current-year or prior-year beginning net position that
                    resulted from changes in accounting principles as reported on the Reclassified Statement of
                    Changes in Net Position, line 2.1 and/or line 3.1.
 6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                           - 67 -
                                                                                                                                                                                       12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2013             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                 Agency Notes:    27

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Insurance Contingencies (Reasonably Possible Only)        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Changes
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                  N/A
       Section: B              Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES          Line Attributes: Dollars
                                             Dividends Paid)                                                                    Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd      Line Item Changes
 3        I                          Credit
 4        I                          Credit
 5        I                          Credit
 6        I                          Credit
 7        I                          Credit
 8        I     Other insurance in   Credit
                force
 9        I     Total                 Debit
       Section: C              Section Name: Civil Litigation, Claims and Assessments                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable         PYAccrued/Estimated PY Estimated Range(Low
                                                           amount                          end)                   (High end)      to determine loss)        amount rued/Estimated                 end)
                                                                                                                                                                        amount
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range        PY Claim amunt (unable
                                                          (High end)                to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible


                                                                                                         - 68 -
                                                                                                                                                                                                       12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                                 Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                          Agency Notes:      27

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: D              Section Name: Environmental Litigation, Claims, and Assessments             No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                        Rounding Method: User-Defined                        Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated             CY Estimated Range            CY Estimated Range      CY Claim amunt(unable           PY Accrued/Estimated          PY Estimated Range
                                                           amount                        (Low end)                    (High end)               to determine)                      amount                     (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range       PY Claim amount (unable
                                                       (High Range)                  to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible
       Section: E              Section Name: Other Contingencies                                           No Data Flag: YES              Line Attributes: Dollars
                                                                                                                                        Rounding Method: User-Defined                        Decimal: User-Defined
Line Status Line Description           NB               CY Probable         CY Reasonably Possible                     PY Probable    PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide the nature of the isurance contingencies.                                                       See Note 31 Part 3A
 2                   Provide the nature of the litigation contingencies, including the range of loss for probable            See Note 31 Part 3A
                     liabilities.
 3                   Provide the nature of the litigation contingencies including the range of loss for reasonably           Treasury cannot reasonably estimate the range of losses associated with litigation
                     possible contingencies.                                                                                 contingencies that are reasonably possible. See Note 31, Part 3A for a description of
                                                                                                                             these cases.
 4                   Provide the total claim amount for cases assessed as "unable to determine" if significant.              See Note 31 Part 3A
                     Also, provide a statement on whether this materiality affects the financial statements.
 5                   Describe the other claims that may derive from treaties or international agreements.                    The Department does not have any treaties or international agreements to report for
                                                                                                                             fiscal year 2013.
 6                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly          N/A
                     the significant accounting policies pertaining to this note.




                                                                                                              - 69 -
                                                                                                                                                                                                  12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                    Agency Notes:        1,19,22 and 27

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                                                   Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit                                                         8                                                    8
 4              Software license       Debit
 5              Other                  Debit
 6              Accumulated            Credit                                                        3                                                    2
                depreciation/amorti
                zation
 7              Net assets under        N/A                                                          5                                                    6
                capital leases
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Accumulated depreciation/amortization           Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 (CY Non-Federal)                                                   changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY             Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 Non-Federal)                                                       changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
       Section: B               Section Name: Capital leases - Liability                                                             Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit                                                        0                                                    0
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A                                                          0                                                    0
                liability




                                                                                                             - 70 -
                                                                                                                                                                                                     12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 19            Commitments                                                                                                        Fiscal Year: 2013                   Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:          1,19,22 and 27

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                  I = Inactive Line


       Section: C             Section Name: Commitments: Operating leases and undelivered                                               Line Attributes: Dollars
                                            orders                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB                CY Federal                CY Non-Federal                      PY Federal          PY Non-Federal
 1              Operating leases    Credit                           283                          656                        310                             690
 2            Undelivered orders Credit                           1,550                       171,254                       3,393                     186,859
Threshold
 Line Description                                                 Question                                                                Answer
 Other Notes Info - Undelivered orders (CY Federal)               Please provide explanations for any amounts that have                   The main driver is the $1.7 billion change related to the TALF Negative
                                                                  changed by 10% or more and or greater than $500,000                     Subsidy De-obligations in fiscal year 2013 compare to fiscal year 2012.
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (unaudited)

       Section: D             Section Name: Other Commitments                                                                           Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB                CY Federal                CY Non-Federal                      PY Federal          PY Non-Federal
 1              Callable capital  Credit                                                       90,657                                                  82,316
                subscriptions for
                multilateral
                development banks
 8              Senior GSE        Credit                                                      258,100                                                 273,248
                Preferred Stock
                Purchase
                Agreement
 9                                Credit
10                                  Credit
11                                  Credit
12                                  Credit
13                                  Credit
14          Total                     N/A                                                   -348,757                                                 -355,564
Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the lessee's leasing arrangements including the basis on which contingent rental             The Department's leases are operating leases with GSA for office space which can be
                     payments are determined, the existence and terms of renewal or purchase options,                      cancelled upon notice.
                     escalation clauses and restrictions imposed by lease agreements.
 2                   Explain any amounts listed in Section D in detail and reference the note, and/or location, in         See Note 31 Part 3.B
                     the agency¿s Performance and Accountability Report (PAR).
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31 Part 2. L
                     the significant accounting policies pertaining to this note.




                                                                                                             - 71 -
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

      Note: 20             Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                     Fiscal Year: 2013                Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                                   Agency Notes:     1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2013 - SEPTEMBER      2012 - SEPTEMBER
                                                                                    Type
TARP Direct Loans and Equity Investments                                     D        A                   17,869                  40,231
                                                                                 Variance:                     0                       0          Rounding Method: Millions               Decimal: Zero
Line Status Line Description                 CY Direct Loans and              CY Subsidy Cost CY Net Dir Loans & Equity           PY Direct Loans and               PY Subsidy Cost PY Net Dir Loans & Equity
                                          Equity Investments                   Allowance                      Invs             Equity Investments                    Allowance                      Invs
 1               Capital Purchase                           3,143                        1,350                    1,793                           8,664                        2,930                    5,734
                 Program
 2               American International                           0                            0                           0                      6,727                        1,658                        5,069
                 Group, Inc. (AIG),
                 Investment Program
 3       I       Targeted Investment
                 Program
 4               Automotive Industry                         19,878                       4,281                    15,597                        37,252                       19,706                       17,546
                 Financing Program
 5       I       Consumer and
                 Business Lending
                 Initiative
 6               Public-private                                   0                          -10                          10                      9,763                       -1,015                       10,778
                 investment Program
 7       I       Asset Guarantee
                 Program
  8
  9
 10
 11          All other TARP                                     475                            6                         469                        667                         -437                        1,104
             programs
             Total                                           23,496                        5,627                    17,869                       63,073                       22,842                        40,231
Threshold

 Line Description                                                Question                                                            Answer
 Line Item Notes - Capital Purchase Program (CY Direct           Please provide explanations for any amounts that have               The variance is primary due to repayments and sales of investments of $4.8
 Loans and Equity Investments)                                   changed by 10% or more and or greater than 500,000 between          billion.
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Capital Purchase Program (CY Subsidy          Please provide explanations for any amounts that have               The $1.1 billion downward reestimate for CPP for the year ended
 Cost Allowance)                                                 changed by 10% or more and or greater than 500,000 between          September 30, 2013 was the result of a reduction in the projected number of
                                                                 the current fiscal year and prior fiscal year. (Unaudited)          institutions that would be sold via asset sales, repayments and improved
                                                                                                                                     market values of the outstanding investments.
 Line Item Notes - Automotive Industry Financing Program         Please provide explanations for any amounts that have               The variance is primarily due to the sale of 399 million shares of the New
 (CY Direct Loans and Equity Investments)                        changed by 10% or more and or greater than 500,000 between          GM common stock for $12.0 billion, which resulted in net proceeds less than
                                                                 the current fiscal year and prior fiscal year. (Unaudited)          cost of $5.4 billion.


                                                                                                       - 72 -
                                                                                                                                                                                        12/16/2013 15:09:47

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

   Note: 20           Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                               Fiscal Year: 2013                  Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                             Agency Notes:       1 and 7

 Status: Complete                       The accompanying notes are an integral part of these financial statements.        I = Inactive Line



Threshold

Line Description                                             Question                                                      Answer
Line Item Notes - Automotive Industry Financing Program      Please provide explanations for any amounts that have        The decrease is primarily due to downward reestimates. Improvements in
(CY Subsidy Cost Allowance)                                  changed by 10% or more and or greater than 500,000 between   the common stock share price for New GM accounted for $4.4 billion of the
                                                             the current fiscal year and prior fiscal year. (Unaudited)   $10.2 billion in downward reestimates for AIFP as of September 30, 2013.
                                                                                                                          The price improved throughout fiscal year 2013, from $22.75 per share at
                                                                                                                          September 30, 2012 to $35.97 per share at September 30, 2013. The
                                                                                                                          remaining $5.8 billion in downward reestimates for AIFP was due to
                                                                                                                          increases in the valuation of the outstanding investment in Ally, reflecting the
                                                                                                                          November 2013 repurchase of the Series F-2 mandatorily convertible
                                                                                                                          preferred securities per the August 2013 agreement and the valuation of
                                                                                                                          remaining shares at an observable market value.
Line Item Notes - All other TARP programs (CY Direct Loans   Please provide explanations for any amounts that have        The variance is primarily due to the Department receiving $86 million in
and Equity Investments)                                      changed by 10% or more and or greater than 500,000 between   repayments from institutions under the CDCI program, and a modification to
                                                             the current fiscal year and prior fiscal year. (Unaudited)   the terms of the legal agreement in the TALF program which allowed the
                                                                                                                          Department to receive $100 million in repayments.
Line Item Notes - All other TARP programs (CY Subsidy        Please provide explanations for any amounts that have        The CDCI program continued to experience improved investment
Cost Allowance)                                              changed by 10% or more and or greater than 500,000 between   performance with several institutions repaying in full, resulting in a $32
                                                             the current fiscal year and prior fiscal year. (Unaudited)   million downward reestimate for the year ended September 30, 2013.

                                                                                                                          The investments in the TALF continued to experience improved market
                                                                                                                          conditions and accelerated repayments, resulting in a $33 million downward
                                                                                                                          reestimate for the year ended September 30, 2013. The $55 million
                                                                                                                          downward modification reflects principal and interest repayments occurring
                                                                                                                          in February 2013, with contingent interest paid over time beginning in
                                                                                                                          February 2013. Prior to the modification, principal, interest and contingent
                                                                                                                          interest would have occurred in March 2015.




                                                                                                   - 73 -
                                                                                                                                                                                        12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                       Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                     Agency Notes:        1 and 7

  Status: Complete                            The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                             Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                     Decimal: Zero
Line Status Line Description           NB       2013 - SEPTEMBER             2012 - SEPTEMBER               Previously Rptd        Line Item Changes
 1              Capital Purchase      Debit                      -1,140                     -1,924                     -1,924                            0
                Program
 2              American              Debit                          32                     -9,166                     -9,166                            0
                International
                Group, Inc. (AIG),
                Investment
                Program
 3        I     Targeted              Debit
                Investment
                Program
 4              Automotive            Debit                     -10,186                        230                          230                          0
                Industry Financing
                Program
 5        I     Consumer and          Debit
                Business Lending
                Initiative
 6              Public-private        Debit                       -380                         209                          209                          0
                investment
                Program
 7        I     Asset Guarantee       Debit
                Program
 8              Asset Guarantee       Debit                       -118
                Program
 9                                    Debit
10        I                           Debit
11              All other TARP        Debit                       -120                       -127                          -127                          0
                programs
12              Total                  N/A                      -11,912                    -10,778                    -10,778                            0




                                                                                                        - 74 -
                                                                                                                                                                          12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 20             Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                            Fiscal Year: 2013           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                          Agency Notes:     1 and 7

  Status: Complete                            The accompanying notes are an integral part of these financial statements.   I = Inactive Line


       Section: B               Section Name: Interests for TARP Programs                                                  Line Attributes: Percent


Line Status Line Description            NB         % of interest rates
                                                       TARP stock
 1              Senior preferred        N/A                      5.0000
                stock stated
                dividend rate - first
                5 years - CPP
 2              Increasing senior       N/A                      9.0000
                preferred stock
                stated dividend rate
                subsequesnt years
                - CPP
 3              30 years of             N/A                      7.7000
                subordinate
                debentures interest
                rate of 30 years
                (first 5 years) -
                CPP
 4              30 years of             N/A                    13.8000
                subordinate
                debentures interest
                rate for the
                remaining years -
                CPP
 5              Dividend rate           N/A                    10.0000
                compunded
                annually - AIGs
                Series D
 6              Rate of Series E        N/A
                stock - AIG




                                                                                                        - 75 -
                                                                                                                                                                                       12/16/2013 15:09:47

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                      Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C             Section Name: Repayments, Dividends, Interest Collections, and                                       Line Attributes: Dollars
                                            Payments                                                                             Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB       2013 - SEPTEMBER          2012 - SEPTEMBER D              Previously Rptd D       Line Item Changes D
                                                              D
 1              Repayments -          N/A                       4,800                      8,200                         8,200                          0
                CPP
 2              Common stock          N/A                           0                          191                        191                           0
                dividend payments
                - AIG
 3              Payments -            N/A                       3,900                      3,100                         3,100                          0
                Housing


       Section: D             Section Name: Investments                                                                            Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                     Decimal: Zero
Line Status Line Description          NB         Amounts for TARP
                                                      Program D
 1              Amount of             N/A                      40,000
                investment - AIGs
                Series D perpetual
                cumulative
                preferred stock
 2              Amount of AIGs        N/A
                exchange of Series
                D to Series E
 3              Agreed amount         N/A
                made available for
                capital facility of
                AIGs Series F
 4              Amount funded to      N/A                      27,800
                AIG for additional
                capital facility
 5              Amount invested -     N/A
                TIP program for
                preferred stock
 6              Amount for            N/A                     301,000
                Treasury, FDIC,
                and FRBNY asset
                pool for AGP
 7              Amount for            N/A                       5,000
                Treasury's
                guarantee limit
                under AGP


                                                                                                      - 76 -
                                                                                                                                                                                             12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                      Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:      1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D             Section Name: Investments                                                                            Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB          Amounts for TARP
                                                       Program D
 8              Amount for the        N/A                        38,500
                commitment for the
                Housing Program




Tab: Text Data
 Line                Question                                                                                         Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly   As of December 31, 2012, the Asset Guarantee Program switched from an
                     the significant accounting policies pertaining to this note.                                     intragovernmental receivable from FDIC to an investment held by the Department. For
                                                                                                                      the current year there was $118 million of subsidy income. Since the program was
                                                                                                                      inter-governmental in FY 2012, no subsidy income is reported.

                                                                                                                      See Note 31.Part 2.H




                                                                                                             - 77 -
                                                                                                                                                                                            12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                               Fiscal Year: 2013                Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                    Agency Notes:         1 and 24

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Assets - Current Year                                                                  Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB           Cash and other             Fund balance with           Inv in U. S. Treas.    Interest Receivable D            Other Federal Assets   Other Federal Assets
                                                 monetary assets D                  Treasury D       Sec.(net of prem. & disc)                                   (Funds from Dedicated (Funds not From Dedicat
                                                                                                                            D                                                Collec) D                Coll) D
13              Exchange               N/A                      65,097                                                22,669                             79
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                          12                      1,543                         4,516                           4                                                 67
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                      65,109                      1,543                     27,185                             83                                                 67




                                                                                                        - 78 -
                                                                                                                                                                                              12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                               Fiscal Year: 2013                 Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                    Agency Notes:         1 and 24

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: A               Section Name: Assets - Current Year                                                                  Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB         Other non-Federal                 Total assets
                                                          Assets D
13              Exchange               N/A                      14,018                    101,863
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                       1,602                      7,744
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                      15,620                    109,607
      Section: B               Section Name: Assets - Prior Year                                                                    Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D            Other Federal assets      Other Federal Assets
                                                 monetary assets D                  Treasury D       (net of prem. & disc.) D                                    (Funds From Dedicated    (Funds not from Dedicat
                                                                                                                                                                             Collec) D                   Coll) D
13              Exchange               N/A                      65,764                                                 22,680                            90
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                          18                      1,842                         3,009                           4                                                   65
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts


                                                                                                       - 79 -
                                                                                                                                                                                                     12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                               Fiscal Year: 2013                   Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                    Agency Notes:         1 and 24

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: B               Section Name: Assets - Prior Year                                                                    Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                                  Decimal: Zero
Line Status Line Description           NB           Cash and other              Fund balance with      Inv. in U.S. Treas. Sec.   Interest Receivable D            Other Federal assets             Other Federal Assets
                                                 monetary assets D                   Treasury D      (net of prem. & disc.) D                                    (Funds From Dedicated           (Funds not from Dedicat
                                                                                                                                                                             Collec) D                          Coll) D
33              Total                  N/A                      65,782                       1,842                     25,689                            94                                                          65

Line Status Line Description           NB         Other non-Federal                  Total assets
                                                          assets D
13              Exchange               N/A                      15,326                     103,860
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                       1,425                       6,363
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                      16,751                     110,223
      Section: C               Section Name: Liabilities and Net Position - Current Year                                            Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                                  Decimal: Zero
Line Status Line Description           NB           Benefits due and       Other Fed. Liab. (Funds   Other Fed. Liab. (Funds         Other non-Federal                   Total liabilities        Ending net position C
                                                         payable C                From Dedicated         not from Dedicated                liabilities C
                                                                                    Collection) C                 Collec) C
13              Exchange               N/A                                                                                                         59,383                         -59,383                        42,480
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                                                                                532                       1,015                          -1,547                         6,197
                dedicated
                collections


                                                                                                       - 80 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                              Fiscal Year: 2013                Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                   Agency Notes:      1 and 24

  Status: Complete                           The accompanying notes are an integral part of these financial statements.             I = Inactive Line


      Section: C               Section Name: Liabilities and Net Position - Current Year                                           Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                               Decimal: Zero
Line Status Line Description           NB           Benefits due and       Other Fed. Liab. (Funds   Other Fed. Liab. (Funds        Other non-Federal                Total liabilities        Ending net position C
                                                         payable C                From Dedicated         not from Dedicated               liabilities C
                                                                                    Collection) C                 Collec) C
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                                                                                -532                  -60,398                       -60,930                      -48,677

Line Status Line Description           NB     Total liabilities and net
                                                             position
13              Exchange               N/A                     -101,863
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                       -7,744
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                     -109,607




                                                                                                       - 81 -
                                                                                                                                                                                                     12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                              Fiscal Year: 2013                    Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                   Agency Notes:          1 and 24

  Status: Complete                           The accompanying notes are an integral part of these financial statements.             I = Inactive Line


      Section: D               Section Name: Liabilities and Net Position - Prior Year                                             Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                                   Decimal: Zero
Line Status Line Description           NB           Benefits due and       Other Fed. Liab. (Funds   Other Fed. Liab. (Funds        Other non-Federal                    Total liabilities        Ending net position C
                                                         payable C                From Dedicated         not from Dedicated               liabilities C
                                                                                    Collection) C                 Collec) C
13              Exchange               N/A                                                                                                        59,670                          -59,670                        44,190
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                                                                                 432                          874                        -1,306                         5,057
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                                                                                -432                  -60,544                           -60,976                      -49,247

Line Status Line Description           NB     Total liabilities and net
                                                             position
13              Exchange               N/A                     -103,860
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                       -6,363
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                     -110,223



                                                                                                       - 82 -
                                                                                                                                                                                            12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                                Fiscal Year: 2013               Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                     Agency Notes:       1 and 24

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current                                       Line Attributes: Dollars
                                             Year                                                                                  Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB              Net position,     Prior-period adjustment     Investment revenue from      Individual income taxes Unemployment and excise      Other taxes and receipts
                                              beginning of period C                            C       Treasury Securities C      and payroll tax withhold               taxes C                             C
                                                                                                                                                        C
13              Exchange               N/A                      44,190                                                      12
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                       5,057                                                      20                                                                           1,865
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                     -49,247                                                     -32                                                                          -1,865

Line Status Line Description           NB        Royalties and other           All other financing     Program gross cost or             Program earned         Non-program expenses       Net position, end of
                                                 special revenue C                    sources C          benefit payments D                 revenues D                             D                   period
13              Exchange               N/A                                                                                2,163                      -441                                              -42,480
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                                                   -321                         6,275                     -5,851                                              -6,197
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                                                    321                         8,438                     -6,292                                             -48,677



                                                                                                        - 83 -
                                                                                                                                                                                            12/16/2013 15:09:47

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                                Fiscal Year: 2013               Period: SEPTEMBER
  Entity: 2000            Department of the Treasury                                                                                     Agency Notes:       1 and 24

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: F               Section Name: Revenue, Financing, Expenses, and Other - Prior                                         Line Attributes: Dollars
                                             Year                                                                                  Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB              Net position,     Prior-period adjustment     Investment revenue from      Individual income taxes Unemployment and excise      Other taxes and receipts
                                              beginning of period C                            C       Treasury Securities C      and payroll tax withhold               taxes C                             C
                                                                                                                                                        C
13              Exchange               N/A                      44,791                                                      11
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                       -980                       5,669                           21                                                                             781
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                     -43,811                     -5,669                          -32                                                                           -781

Line Status Line Description           NB        Royalties and other           All other financing     Program gross cost or             Program earned         Non-program expenses       Net position, end of
                                                 special revenue C                    sources C          benefit payments D                 revenues D                             D                   period
13              Exchange               N/A                                                                                1,557                      -945                                              -44,190
                Stabilization Fund
26                                     N/A
27                                     N/A
28                                     N/A
29                                     N/A
30                                     N/A
31              All other funds from   N/A                                                     -36                        5,411                     -5,013                                              -5,057
                dedicated
                collections
32              Intra-agency funds     N/A
                from dedicated
                collections
                elimination
                amounts
33              Total                  N/A                                                      36                        6,968                     -5,958                                             -49,247



                                                                                                        - 84 -
                                                                                                                                                                                              12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 22            Funds From Dedicated Collections                                                                                      Fiscal Year: 2013              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                            Agency Notes:       1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line


       Section: G             Section Name: Number of Agency Funds From Dedicated                                                          Line Attributes: Units
                                            Collections
Line Status Line Description          NB       2013 - SEPTEMBER                2012 - SEPTEMBER                    Previously Rptd         Line Item Changes
 1              Total number of       N/A                       24.0000                        29.0000                     29.0000                         .0000
                funds from
                dedicated
                collections




Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide a general description of the individual funds from dedicated collections reported in
                     the Other Notes Info tab (SFFAS No. 27, par. 33, as amended by SFFAS No. 43). Also                      See Note 31 Part 3.D.
                     describe how the entity accounts for and reports the fund (SFFAS No. 27, par. 23.1, as
                     amended by SFFAS No. 43).
 2                   State the legal authority for the administrative entity of each fund to use the revenues and            See Note 31 Part 3.D.
                     other financing sources based on SFFAS No. 27, par. 23.1, as amended by SFFAS No. 43.
 3                   Explain any change in legislation during or subsequent to the reporting period and before the
                     issuance of the financial statements that significantly change the purpose of the fund or that          N/A
                     redirect a material portion of the accumulated balance (SFFAS No. 27, par. 23.3, as
                     amended by SFFAS No. 43).
 4                   Provide the sources of revenue and other financing for amounts reported in columns 3
                     through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2, as                  See 2 above
                     amended by SFFAS No. 43).
 5                   Provide any other relevant information pertaining to this note, including explanation for prior-
                     period adjustments, if any. At a minimum, describe briefly the significant accounting policies          See Note 31 Part 2.Y.
                     pertaining to this note.




                                                                                                              - 85 -
                                                                                                                                                                             12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                             Fiscal Year: 2013      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)                   No Data Flag: YES         Line Attributes: Units


Line Status Line Description         NB       2013 - SEPTEMBER               2012 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Public Land          N/A
 2              National Forest      N/A
                System
 3              National Wildlife    N/A
                Refuge System
 4              National Park        N/A
                System
 5              Withdrawn public     N/A
                land
 6              Mission Land         N/A
 7              Water, power,and     N/A
                recreation
 8              Geographic           N/A
                management areas
 9              National fish        N/A
                hatcheries
10              Conservation areas   N/A
11          National marine          N/A
            monuments
12          All other                N/A
Tab: Text Data                         No Data Flag: YES
 Line                Question                                                                                            Answer
 1                   Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                   Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                   Provide a brief statement explainng how the stewardship land relates to the mission of the
                     agency (SFFAS No. 29, par. 40a).
 4                   Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                     No. 29, par. 40b).
 5                   Provide any other information relevant information pertaining to this note. At a minimum,
                     describe briefly the significant accounting policies pertaining to this note.




                                                                                                           - 86 -
                                                                                                                                                                                            12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 26               Heritage Assets                                                                                              Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000           Department of the Treasury                                                                                   Agency Notes:      1 and 14

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: A                Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.                                   Line Attributes: Units
                                               25d)
Line Status Line Description            NB       Physical units at the      Physical units at the end
                                                end of the Current FY               of the Prior FY
 1              Other Heritage          N/A                     10.0000                       10.0000
                Assets
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A


       Section: B                Section Name: Non-Collection Type Heritage Assets (SFFAS No.                                        Line Attributes: Units
                                               29, par. 25d)
Line Status Line Description            NB       Physical units at the      Physical units at the end
                                                end of the Current FY               of the Prior FY
 1              Buildings               N/A                      5.0000                        5.0000
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A


Tab: Text Data
 Line                Question                                                                                          Answer
 1                   Provide a brief statement explaining how heritage assets relate to the mission of the agency      The buildings are multi-use assets and house administrative staff.
                     (SFFAS No. 29, par. 25a).
 2                   Provide a brief description of the agency's stewardship policies for each major category of       N/A
                     the heritage assets (SFFAS No. 29, par. 25b).
 3                   Provide a brief description of the condition of each category of the heritage assets (SFFAS       Good
                     29, par. 26).
 4                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly    See Note 31 Part 3.E
                     the significant accounting policies pertaining to this note.




                                                                                                             - 87 -
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        1 and 26

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                                        551
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                              18                        144                                                                                                             1
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                                                                    551
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                                                          8                         155
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                                        509
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                              17                        328
 9                                   N/A
10                                   N/A



                                                                                                          - 88 -
                                                                                                                                                                                               12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        1 and 26

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                                                                    509
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                                                          2                         343
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: C            Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                           Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A




                                                                                                          - 89 -
                                                                                                                                                                                                 12/16/2013 15:09:47

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 27            Fiduciary Activities                                                                                                 Fiscal Year: 2013               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                           Agency Notes:        1 and 26

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: D             Section Name: Schedule of Fiduciary Net Assets - All Other Agency          No Data Flag: YES               Line Attributes: Dollars
                                            Funds - Prior Year                                                                         Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL          Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                  net of unam. prems &         account 1010 only) D        Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                               discs. D                                                                                       D
 3                                    N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A

Line Status Line Description           NB        Liability due & payable           Other liabilities C   Total fiduciary net assets
                                                     to beneficiaries C
 3                                    N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
       Section: E             Section Name: Number of Agency Fiduciary Activities                                                         Line Attributes: Units


Line Status Line Description           NB           CY Total number of             PY Total number of
                                                    fiduciary funds- all    fiduciary funds- all funds
                                                                funds
 1              Number of             N/A                         23.0000                    24.0000
                Treasury Fiduciary
                Activities
 2                                    N/A
 3                                    N/A
 4                                    N/A




                                                                                                            - 90 -
                                                                                                                                                                                            12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                                Fiscal Year: 2013                Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                          Agency Notes:         1 and 26

 Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                             Answer
1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives
                   of the fiduciary activity, and a general description of the beneficial owners or class of owners     See Note 31 3.F.
                   of each fiduciary fund (SFFAS No. 31, par. 18(a)).
2                  Provide information on any significant changes in fiduciary net assets from the prior period
                   (SFFAS No. 31, par. 18(c)).                                                                          N/A
3                  Provide the TAS for all funds with fiduciary activities.
                                                                                                                        See 1
4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is
                   represented by balances on deposit with either the U.S. Treasury or with a commercial                N/A
                   banking institution (SSFAS No. 31, par. 12).
5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net
                   Assets.                                                                                              Withholding for the U.S. Virgin Island
6                  If separate audited financial statements are issued for an individual fiduciary activity with a
                   fiscal yearend other than September 30, indicate the fiduciary activity's FY (SFFAS No. 31,          N/A
                   par. 18(e)).
7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose
                   the basis of accounting used and the auditor's opinion on the current or most recent financial       N/A
                   statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                   auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                   22(a)).
8                  If separate audited financial statements are issued for an individual fiduciary activity, provide
                   information on how the reader can obtain a copy of the financial statements and the audit            N/A
                   opinion thereon (SFFAS No. 31, par. 22(b)).
9                  If more than one agency is responsible for administering a fiduciary activity, and the separate
                   portions of the activity can be clearly identified with another responsible agency, identify the     N/A
                   other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.                                         See Note 31 Part 2.AA.




                                                                                                              - 91 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                   Fiscal Year: 2013                 Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                          Agency Notes:      1 and 8

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2013 - SEPTEMBER          2012 - SEPTEMBER
                                                                                    Type
Investment in Government sponsored enterprises (GSEs)                       D         A                      140,221                 109,342
                                                                                 Variance:                         0                       0         Rounding Method: Millions                Decimal: Zero
Line Status Line Description         CY Gross investment as of        CY Cumulative valuation           CY September 30 fair PY Gross investment as of        PY Cumulative valuation PY September 30 fair value
                                            September 30                     (gain/loss)                         value              September 30                     (gain/loss)
 1           Fannie Mae senior                        116,989                         -40,429                        76,560                   116,989                         -51,331                    65,658
             preferred stock
 2           Freddie Mac senior                             72,160                      -16,295                          55,865                     72,160                       -30,224                        41,936
             preferred stock
 3           Fannie Mae warrants                             3,104                         1,978                          5,082                      3,104                        -1,956                          1,148
             common stock
 4           Freddie Mac warrants                            2,264                           450                          2,714                      2,264                        -1,664                              600
             common stock
 5
 6
 7
 8           Total GSE investment
             Total                                          194,517                      -54,296                        140,221                    194,517                       -85,175                        109,342
Threshold

 Line Description                                               Question                                                                 Answer
 Line Item Notes - Fannie Mae senior preferred stock (CY        Please provide explanations for any amounts that have                   The fair value of the senior preferred stock considers the amount of
 September 30 fair value)                                       changed by 10% or more and or greater than $500,000                     forecasted dividend payments. The fair valuations assume that a
                                                                between the current fiscal year and prior fiscal year (unaudited).      hypothetical buyer would acquire the discounted dividend stream as of the
                                                                                                                                        transaction date. The fair value of the senior preferred stock increased at
                                                                                                                                        September 30, 2013 when compared to 2012 primarily due to the GSEs'
                                                                                                                                        improved financial performance.
 Line Item Notes - Freddie Mac senior preferred stock (CY       Please provide explanations for any amounts that have                   See explanation above for Freddie Mac.
 September 30 fair value)                                       changed by 10% or more and or greater than $500,000
                                                                between the current fiscal year and prior fiscal year (unaudited).
 Line Item Notes - Fannie Mae warrants common stock (CY         Please provide explanations for any amounts that have                   See explanation of Fannie Mae warrants common stock (CY Cumulative
 September 30 fair value)                                       changed by 10% or more and or greater than $500,000                     valuation (gain/loss) for Fannie Mae CY September 30 fair value.
                                                                between the current fiscal year and prior fiscal year (unaudited).




                                                                                                           - 92 -
                                                                                                                                                                                            12/16/2013 15:09:47

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)              Fiscal Year: 2013                Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                     Agency Notes:      1 and 8

 Status: Complete                      The accompanying notes are an integral part of these financial statements.                I = Inactive Line



Threshold

Line Description                                            Question                                                              Answer
Line Item Notes - Fannie Mae warrants common stock (CY      Please provide explanations for any amounts that have                The fair value of the warrants is impacted by the nominal exercise price and
Cumulative valuation (gain/loss))                           changed by 10% or more and or greater than $500,000                  the large number of potential exercise shares, the market trading of the
                                                            between the current fiscal year and prior fiscal year (unaudited).   common stock that underlies the warrants as of September 30, the principal
                                                                                                                                 market, and the market participants. Other factors impacting the fair value
                                                                                                                                 include, among other things, the holding period risk related directly to the
                                                                                                                                 amount of time that it will take to sell the exercised shares without
                                                                                                                                 depressing the market. The fair value of the warrants increased at the end of
                                                                                                                                 fiscal year 2013 when compared to 2012 primarily due to increases in the
                                                                                                                                 market price of the underlying common stock of each GSE.
Line Item Notes - Freddie Mac warrants common stock (CY     Please provide explanations for any amounts that have                See explanation of Fannie Mae warrants common stock (CY Cumulative
Cumulative valuation (gain/loss))                           changed by 10% or more and or greater than $500,000                  valuation (gain/loss) for Freddie Mac CY (CY Cumulative valuation
                                                            between the current fiscal year and prior fiscal year (unaudited).   (gain/loss).
Line Item Notes - Freddie Mac warrants common stock (CY     Please provide explanations for any amounts that have                See explanation of Fannie Mae warrants common stock (CY Cumulative
September 30 fair value)                                    changed by 10% or more and or greater than $500,000                  valuation (gain/loss) for Freddie Mac CY September 30 fair value.
                                                            between the current fiscal year and prior fiscal year (unaudited).




                                                                                                       - 93 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                 Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                        Agency Notes:        1 and 8

  Status: Complete                            The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                                                  Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd        Line Item Changes
 1             Revenue               Credit                      30,879                    -23,701                        -23,701                          0
               recognized from
               acquisition of
               preferred stocks
               and warrants and
               valuation
               (gain)/loss on GSE
               preferred stocks
 2             Revenue               Credit                      95,727                      18,379                        18,379                          0
               recognized from
               dividends
Threshold
 Line Description                                                 Question                                                             Answer
 Other Notes Info - Revenue recognized from acquisition of        Please provide explanations for any amounts that have                The increase in fiscal year 2013 is due to the valuation increase of $30.9
 preferred stocks and warrants and valuation (gain)/loss on       changed by 10% or more and or greater than $500,000                  billion, due to the GSEs' improved financial performance, increase in
 GSE preferred stocks (2013 - SEPTEMBER)                          between the current fiscal year and prior fiscal year                common stock market price, and no draws by the GSEs in 2013.
                                                                  (unaudited).
 Other Notes Info - Revenue recognized from dividends (2013       Please provide explanations for any amounts that have                The significant increase in dividends received in fiscal year 2013 compared
 - SEPTEMBER)                                                     changed by 10% or more and or greater than $500,000                  to 2012 was attributable to the GSEs' improved financial performance and a
                                                                  between the current fiscal year and prior fiscal year                federal income tax benefit that was recognized in the 2013 earnings of one
                                                                  (unaudited).                                                         of the GSEs resulting in improved net worth and, thus, increased dividends
                                                                                                                                       remitted to the Department.
       Section: B            Section Name: Other Related Information (in Percentages)                                                 Line Attributes: Percent


Line Status Line Description          NB        2013 - SEPTEMBER             2012 - SEPTEMBER                 Previously Rptd        Line Item Changes
 1             Nominal cost           N/A                      79.9000                     79.9000                        79.9000                     .0000
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends      N/A                                                  10.0000                        10.0000                     .0000




                                                                                                          - 94 -
                                                                                                                                                                                                     12/16/2013 15:09:47

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                     Fiscal Year: 2013                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                            Agency Notes:       1 and 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line


       Section: C             Section Name: Other Related Information in Units                                                              Line Attributes: Units


Line Status Line Description          NB      2013 - SEPTEMBER                 2012 - SEPTEMBER                  Previously Rptd           Line Item Changes
 1             Number of non-         N/A               2,000,000.0000                2,000,000.0000                  2,000,000.0000                       .0000
               voting senior
               preferred stock -
               shares




Tab: Text Data
 Line                Question                                                                                                 Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly           FMS Services - PLEASE record JV to eliminate amount reported in Other Notes Info -
                     the significant                                                                                          Section A, Line 1 of $30,879 million as this is net expense at the government-wide
                     accounting policies pertaining to this note.                                                             level.

                                                                                                                              See Note 31.Part2.G




                                                                                                             - 95 -
                                                                                                                                                                                          12/16/2013 15:09:47

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)               Fiscal Year: 2013               Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                       Agency Notes:        1 and 8

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2013 - SEPTEMBER        2012 - SEPTEMBER
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                            0                  9,003
                                                                                 Variance:                         0                      0           Rounding Method: Millions       Decimal: Zero
Line Status Line Description            2013 - SEPTEMBER              2012 - SEPTEMBER                  Previously Rptd           Line Item Changes
 1           GSE accrued liability
 2           GSE contingent                                       0                        9,003                        9,003                              0
             liability
 3      I
 4      I
 5      I
 6           All other liabilities
             Total                                                0                        9,003                          9,003                            0




                                                                                                          - 96 -
                                                                                                                                                                                                   12/16/2013 15:09:47

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28B          Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)                 Fiscal Year: 2013                 Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:       1 and 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                                                   Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB       2013 - SEPTEMBER                2012 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1             Actual payment       Debit                             0                       18,519                     18,519                             0
               made to the GSE




       Section: B            Section Name: Case Scenarios                                                No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB        2013 - SEPTEMBER             2012 - SEPTEMBER D                 Previously Rptd D      Line Item Changes D
                                                              D
 1             Optimistic case       N/A
               scenario
 2             Extreme case          N/A
               scenario




Tab: Text Data
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31.Part 2.V
                    the significant accounting policies pertaining to this note.                                          See Note 31.Part 3.G

                                                                                                                          Note: The Department did not disclose the ranges related to the "Case Scenarios" for
                                                                                                                          the contingent liability for fiscal years 2013 and 2012 in the current year AFR.




                                                                                                            - 97 -
NOTE 31 - SIGNIFICANT ACCOUNTING INFORMATION
PART 1. BASIS OF PRESENTATION
The Government Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356), which requires the Secretary of
the Treasury (Secretary) to prepare and submit annual audited financial statement of the executive branch, amended
the Budget and Accounting Procedures Act of 1950, which allows the Secretary to stipulate the format and
requirements of executive agencies to furnish financial and operational information to the President and Congress.
The Secretary developed guidance in the U.S. Department of the Treasury’s Treasury Financial Manual (TFM)
Volume 1, Part 2, Chapter 4700 to provide agencies with instructions to meet the requirements of GMRA. The TFM
Chapter 4700 requires agencies to:

    1.   Reclassify all items and amounts on the audited consolidated, department-level balance sheet, statement of
         net cost, changes in net position/income statement, and the statement or note on custodial activity, if
         applicable to the Department’s Closing Package financial statements (hereinafter referred to in this note as
         the “financial statements”).
    2.   Disclose financial statement line item amounts identified as Federal by trading partner and amount
         (amounts should be the net of intra-bureau and intra-departmental eliminations).
    3.   Disclose notes required by the financial statement line items and other notes required in the Financial
         Report of the U.S. Government (FR); and
    4.   Disclose other data not contained in the primary FR financial statements and notes required to meet
         requirements of the U.S. generally accepted accounting principles.

The TFM Chapter 4700 requires agencies to use the Government-wide Financial Report System (GFRS) to input the
above information in the following GFRS Modules:

    1.   Closing Package Financial Statement Report (GF003F)
             a.   Closing Package Financial Statement Report – Balance Sheet (Balance Sheet)
             b.   Closing Package Financial Statement Report – Statement of Net Cost (Statement of Net Cost)
             c.   Closing Package Financial Statement Report – Statement of Changes in Net Position (Statement of
                  Changes in Net Position)
    2.   Trading Partner Summary Note Report (GF004F)
    3.   Closing Package Line Reclassification Summary Report (GF003G)
    4.   FR Notes Report (GF006)
    5.   Other Data Report (GF007)

The financial statements are based on the U.S. Standard General Ledger (USSGL) crosswalk to the FR financial
statements and notes.

PART 2. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A. REPORTING ENTITY
The accompanying financial statements include the operations of the U.S. Department of the Treasury (Department),
one of 24 CFO Act agencies of the Executive Branch of the U.S. government, and certain custodial activities the
Department manages on behalf of the entire U.S. government. The following paragraphs describe the activities of the
reporting entity.

The Department was established by an Act of Congress approved on September 2, 1789. Many subsequent acts
affected the development of the Department, delegating new duties to its charge and establishing the numerous
bureaus and divisions that now comprise the Department. As a major policy advisor to the President, the Secretary of
the Treasury (Secretary) has primary responsibility for formulating and managing the domestic and international tax
and financial policies of the U.S. government.

Further, the Secretary is responsible for recommending and implementing U.S. domestic and international economic
and fiscal policy; governing the fiscal operations of the U.S. government; maintaining foreign assets control;
managing the federal debt; collecting income and excise taxes; representing the United States on international
monetary, trade, and investment issues; overseeing Departmental overseas operations; and directing the manufacture
of coins, currency, and other products for customer agencies and the public.

The Department’s reporting entities include Departmental Offices (DO) and seven operating bureaus. For financial
reporting purposes, DO is composed of: Community Development Financial Institutions (CDFI) Fund, Office of D.C.
Pensions (ODCP), Exchange Stabilization Fund (ESF), Federal Financing Bank (FFB), Government Sponsored
Enterprises (GSE) Program, International Assistance Programs (IAP), Office of Financial Research (OFR), Office of
Financial Stability (OFS), Office of Inspector General (OIG), Small Business Lending Fund (SBLF), Special Office of
Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury Forfeiture Fund (TFF), Treasury
Inspector General for Tax Administration (TIGTA), and the DO policy offices.

As of September 30, 2013, the Department’s seven operating bureaus were: Bureau of Engraving and Printing (BEP);
Bureau of the Fiscal Service (Fiscal Service); Financial Crimes Enforcement Network (FinCEN); Internal Revenue
Service (IRS); United States Mint (Mint); Office of the Comptroller of the Currency (OCC); and Alcohol and Tobacco
Tax and Trade Bureau (TTB). Effective in October 2012, the Bureau of the Public Debt (BPD) and Financial
Management Service (FMS) operating bureaus merged to form the new Fiscal Service operating bureau. Financial
information of the legacy BPD and FMS operating bureaus were combined for purposes of disclosure within the notes
to the financial statements. The administrative accounts of the legacy BPD and FMS bureaus will continue to be
managed separately until Congress enacts legislation for a single appropriation to fund the newly consolidated Fiscal
Service.

The Department’s financial statements reflect the reporting of its own entity activities comprising both the
Department’s operating bureaus and DO that are consolidated with the Department, which include appropriations
received to conduct its operations and revenue generated from those operations. They also reflect the reporting of
certain custodial functions it performs on behalf of the U.S. government and others. Activities include collecting
certain federal revenue, servicing the federal debt, disbursing certain federal funds, and maintaining certain assets
and liabilities for the U.S. government, as well as for other federal entities. The Department’s reporting entity does
not include the General Fund of the U.S. government (General Fund), which maintains receipt, disbursement, and
appropriation accounts for all federal agencies.

Following generally accepted accounting principles (GAAP) for federal entities, the Department does not consolidate
into its financial statements the assets, liabilities, or results of operations of any financial organization or commercial
entity in which it holds either a direct, indirect, or beneficial majority equity investment, unless they constitute a part
of the reporting entity per GAAP. Even though some of the equity investments are significant, these entities meet the
criteria of “bailed out” entities under paragraph 50 of Statement of Federal Financial Accounting Concepts (SFFAC)
No. 2, Entity and Display, which directs that such “bailout” investments should not be consolidated into the FR,
either in part or as a whole.

In addition, the Department made loans and investments in certain special purpose vehicles (SPV) under the
American International Group, Inc. Investment Program, Public-Private Investment Program, and the Term Asset-
Backed Securities Loan Facility. SFFAC No. 2, paragraphs 43 and 44, reference indicative criteria such as ownership
and control over an SPV to carry out government powers and missions as criteria in the determination about whether
the SPV should be classified as a federal entity. The Department has concluded that the lack of control over the SPVs
is the primary basis for determining that none of the SPVs meet the criteria to be classified as a federal entity. As a
result, the assets, liabilities, and results of operations of the SPVs are not included in the Department’s financial
statements. The Department has recorded the loans and investments in private entities and investments in SPVs in
accordance with credit reform accounting, as discussed below. Additional disclosures regarding these SPV
investments are included in Part 3(C) of this note.

B. BASIS OF ACCOUNTING AND PRESENTATION
The financial statements have been prepared from the accounting records of the Department in conformity with
accounting principles generally accepted in the United States for federal entities, and the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as revised. Accounting principles generally
accepted for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board
(FASAB). FASAB is recognized by the American Institute of Certified Public Accountants as the official accounting
standards-setting body for the U.S. government.

Transactions and balances among the Department’s entities have been eliminated from the Balance Sheet, the
Statement of Net Cost, and the Statement of Changes in Net Position. While these financial statements have been
prepared from the accounting records of the Department in accordance with the formats prescribed by Treasury,
these financial statements are in addition to the financial reports used to monitor and control budgetary resources
which are prepared from the same accounting records.

Federal assets and liabilities are those due from or to other federal entities. Federal earned revenues are collections
or accruals of revenue from other federal entities, and Federal costs are payments or accruals of expenditures to other
federal entities.

The financial statements should be read with the realization that the Department is a component of the U.S.
government, a sovereign entity and, accordingly, its liabilities not covered by budgetary resources cannot be
liquidated without the legislative enactment of an appropriation, and that the payment of all liabilities other than for
contracts can be abrogated by the sovereign entity. Liabilities represent the probable and measurable future outflow
or other sacrifice of resources as a result of past transactions or events. Liabilities covered by budgetary resources are
those liabilities for which Congress has appropriated funds or funding is otherwise available to pay amounts due.
Liabilities not covered by budgetary or other resources represent amounts owed in excess of available, congressionally
appropriated funds or other amounts, and there is no certainty that the appropriations will be enacted.

Certain fiscal year 2012 activity and balances presented on the financial statements have been reclassified to conform
to the presentation in the current year, the effects of which are immaterial.
C. FUND BALANCE WITH TREASURY
The Fund Balance with Treasury is the aggregate amount of the Department’s accounts with the U.S. government’s
central accounts from which the Department is authorized to make expenditures and pay liabilities. It is an asset
because it represents the Department’s claim to the U.S. government’s resources. Fund balance with Treasury is not
equivalent to unexpended appropriations because it also includes non-appropriated revolving and enterprise funds,
suspense accounts, and custodial funds such as deposit funds, special funds, and trust funds.

D. FEDERAL LOANS RECEIVABLE AND FEDERAL INTEREST RECEIVABLE
Federal loans and interest receivable from other federal agencies represent the principal and related interest
receivable on loans issued by the Department, through FFB. No loan loss allowance or credit reform subsidy costs are
recorded for loans purchased from federal agencies or for guaranteed loans made to non-federal borrowers because
the outstanding balances (interest and principal) are guaranteed by those agencies.

Federal loans and interest receivable from other federal agencies represent the principal and related interest
receivable on loans issued by the Department, through the Fiscal Service. The Department acts as an intermediary
issuing these loans because the agencies receiving these loans lend these funds to third parties to carry out various
programs of the U.S. government. Because of the Department’s intermediary role in issuing these loans, the
Department does not record a loan loss allowance related to these federal loans. Instead, loan loss allowances and
subsidy costs are recognized by the ultimate lender, the federal agency that issued the loans to the public.

E. ADVANCES TO THE UNEMPLOYMENT TRUST FUND
Advances are issued to the Department of Labor’s (DOL) Unemployment Trust Fund from the General Fund for states
to pay unemployment benefits. The Fiscal Service accounts for the advances issued on behalf of the General Fund. As
outlined in the United States Code (USC) 42 USC §1323, these advances bear an interest rate that is computed as the
average interest rate as of the end of the calendar month preceding the issuance date of the advance for all interest-
bearing obligations of the United States that form the public debt, to the nearest lower 1/8 of 1.0 percent. Interest on
the advances is due on September 30th of each year. Advances are repaid by transfers from the Unemployment Trust
Fund to the General Fund when the Secretary, in consultation with the Secretary of the DOL, determines that the
balance in the Unemployment Trust Fund is adequate to allow repayment. Advances to the Unemployment Trust
Fund are reported as part of Federal Loans Receivable on the Balance Sheet.

F. CASH AND OTHER MONETARY ASSETS
Substantially all of the Department’s operating cash is government-wide cash held in depository institutions and
Federal Reserve Bank (FRB) accounts. Agencies can deposit funds that are submitted to them directly into either a
Federal Reserve Treasury General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are
transferred into the Federal Reserve Bank of New York’s (FRBNY) TGA at the end of each day.

Operating cash of the U.S. government represents balances from tax collections, customs duties, other revenue,
federal debt receipts, and other various receipts, net of cash outflows for budget outlays and other payments held in
the FRBs and in foreign and domestic financial institutions. Outstanding checks net against operating cash until they
clear the Federal Reserve System.

The FRBNY maintains the TGA which functions as the U.S. government’s checking account for deposits and
disbursements of public funds. Cash in the TGA is restricted for government-wide operations.
The Department’s foreign currency investments having original maturities of three months or less are classified as
cash equivalents. Special Drawing Rights (SDRs) holdings comprise most of the other monetary assets (refer to the
accounting policy below entitled “Special Drawing Rights”).

G. INVESTMENTS
Investment in GSEs

The Department holds senior preferred stock and warrants for the purchase of common stock of two GSEs, the
Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie
Mac). These investment holdings are presented at their fair value. Changes in the valuation of these investments are
recorded as exchange transactions on the Statement of Net Cost. Dividends related to these investments are also
recorded as exchange transactions, and accrued when declared.

The GSE Senior Preferred Stock Purchase Agreements (SPSPAs), entered into by the Department with each GSE
when the GSEs were placed under conservatorship, require the Department to increase its investment in the GSEs’
senior preferred stock if, at the end of any quarter, the Federal Housing Finance Agency (FHFA), acting as the
conservator, determines that the liabilities of either GSE exceed its respective assets. As funding to the GSEs to pay
their excess liabilities is appropriated directly to the Department, such payments are reported as expenses within the
Department’s Statement of Net Cost. These payments also result in an increase to the investment in the GSEs’ senior
preferred stock, with a corresponding increase in Liability to the General Fund for Custodial and Other Non-Entity
Assets as the Department holds the investment on behalf of the General Fund.

Investments in International Financial Institutions

The Department, on behalf of the United States, invests in Multilateral Development Banks (MDBs) to support
poverty reduction, private sector development, transitions to market economies, and sustainable economic growth
and development, thereby advancing U.S. economic, political, and commercial interests abroad. As a participating
member country, the Department, on behalf of the United States, provides a portion of the capital base of the MDBs,
through subscriptions to capital, which allows the MDBs to issue loans at market-based rates to middle-income
developing countries. These paid-in capital investments are non-marketable equity investments valued at cost on the
Department’s Balance Sheet.

In addition, the Department, on behalf of the United States, contributes funding to MDBs to finance grants and
extend credit to poor countries at below market-based interest rates. These U.S. contributions, also referred to as
“concessional window” contributions, are reported as an expense on the Statement of Net Cost. Investments in
International Financial Institutions are reported as part of Other Assets on the Balance Sheet.

Non-TARP Investment in American International Group, Inc.

The Department held American International Group, Inc. (AIG) common stock, a non-federal investment, on behalf
of the General Fund until December 2012 when the remaining common stock held was sold. The AIG common stock
was recorded at fair value. Changes in the valuation of these investments held represented non-exchange
transactions reported as Miscellaneous Earned Revenue on the Statement of Changes in Net Position. The increase or
decrease in previously recognized revenue that resulted from gains or losses on sales of these investments
represented, exchange transactions also reported as Miscellaneous Earned Revenue on the Statement of Changes in
Net Position rather than on the Statement of Net Cost as the Department did not incur any costs related to these
investments. The Non-TARP Investment in American International Group, Inc. is reported as part of the Debt and
Equity Securities on the Balance Sheet.

Other Investments and Related Interest

ESF holds most of the Department’s foreign currency investments. Other foreign currency denominated assets and
investment securities are available-for-sale securities recorded at fair value. These holdings are normally invested in
interest-bearing securities issued or held through foreign governments or monetary authorities. Interest on
investments, amortization of premiums, and accretion of discounts are recognized on an accrual basis. Premiums and
discounts are amortized or accreted over the life of the related investment security as an adjustment to yield using the
effective interest method. Other Investments and Related Interest are reported as part of the Debt and Equity
Securities on the Balance Sheet.

H. CREDIT PROGRAM RECEIVABLES
The Department accounts for all of its TARP credit program receivables, including investments in common and
preferred stock and warrants of public companies, loans, and loan guarantees or guaranty-like insurance activities,
under the provisions of credit reform accounting pursuant to the Federal Credit Reform Act (FCRA). All TARP credit
program receivables are reported as TARP Direct Loans and Equity Investments on the Balance Sheet. In addition to
its TARP programs, the Department accounts for all other of its credit program receivables under the provisions of
credit reform accounting, including the loans or equity securities associated with the Department’s state and local
Housing Finance Agency (HFA) initiative programs, SBLF program, CDFI program, and certain portions of the
Department’s participation in the IMF. These programs are reported as part of Loans Receivable and Mortgage
Backed Securities on the Balance Sheet.

To account for the Department’s TARP and other credit program receivables, the Department applies the accounting
provisions of SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting Standards for Direct Loans and Loan Guarantees. SFFAS No. 2, as amended, which
was promulgated as a result of FCRA, requires measurement of the asset or liability at the net present value of the
estimated future cash flows. The cash flow estimates for each credit program transaction reflect the actual structure
of the instruments. For each of these instruments, the Department estimates cash inflows and outflows related to the
program over the estimated term of the instrument. Further, each cash-flow estimate reflects the specific terms and
conditions of the program, technical assumptions regarding the underlying assets, risk of default or other losses, and
other factors as appropriate. The measurement of assets within these programs is primarily derived from inputs
which generally represent market data and, when such data is not available, management’s best estimate of how a
market participant would assess the risk inherent in the asset.

The primary purpose of the FCRA is to measure the cost of federal credit programs, and to place the cost of such
credit programs on a basis equivalent with other federal spending. FCRA requires that the ultimate costs of a credit
program be calculated and the budgetary resources be obtained before incurring the direct loan obligations. To
accomplish this, the Department first predicts or estimates the future performance of direct and guaranteed loans
when preparing its annual budget. The data used for these budgetary estimates are re-estimated at the fiscal year-end
to reflect changes in actual loan performance and actual interest rates in effect when the loans were issued. The re-
estimated data reflect adjustments for market risks, asset performance, and other key variables and economic factors.
The re-estimated data is then used to report the cost of the loans disbursed under the direct or guaranteed loan
program in the Department’s Statement of Net Cost.

Cash flows associated with the Department’s credit programs generally include disbursements, repayments,
repurchases, fees, recoveries, interest, dividends, proceeds from sales of instruments, borrowings from Treasury,
negative subsidy, and the subsidy cost received from the program accounts. Security-level data and assumptions used
as the basis for cash flow model forecasts and program performance are drawn from widely available market sources,
as well as information published by investees. Key inputs to the cash flow forecasts include:

•   Security characteristics such as unpaid principal balance, coupon rate, weighted-average loan age, issued bond
    balance, credit rating, maturity date, principal and interest payment schedules, priority of payments, and
    performance of underlying collateral
•   Department actions as well as changes in legislation
•   Forecast prepayment rates and default rates
•   Forecast dividend payments
•   Expected escrow conversion and return rates
•   Default and recovery reports published by Moody’s and Standard and Poor’s
•   Other third-party market sources

The recorded subsidy cost associated with each of the Department’s credit programs represents the difference
between the Department’s projected costs of the program and the future cash flows anticipated to be received by the
Department. The subsidy allowance specifically takes into consideration projected repayments and defaults and the
projected cost of borrowings. The allowance is amortized to reflect the difference between projected and actual
financing costs.

The Department’s actions, as well as changes in legislation, may impact estimated future cash flows and related
subsidy costs. The cost or cost savings of a modification is recognized in subsidy costs when the terms of a program
are modified. Workouts are actions taken to maximize repayments of existing credit programs, and the expected
effects on cash flows are included in the original estimate and re-estimates of the subsidy cost. Subsidy costs are also
impacted by re-estimates which may occur as a result of updates to the original program subsidy cost estimates to
reflect actual cash flows experience, as well as changes in forecasts of estimated future cash flows associated with the
credit program.

I. ACCOUNTS AND TAXES RECEIVABLE
Federal taxes receivables are not accrued until related tax returns are filed or assessments are made by the IRS and
agreed to by either the taxpayer or the court. Additionally, the prepayments are netted against liabilities. Accruals
are made to reflect penalties and interest on taxes receivable through the balance sheet date.

Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers. The
existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient
payment, or a court ruling in favor of the IRS. An allowance for doubtful accounts is recorded to reflect an estimate of
the portion of total taxes receivable deemed to be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer
owes to the U.S. government. Examples include assessments resulting from an IRS audit or examination in which the
taxpayer does not agree with the results. Compliance assessment write-offs consist of unpaid assessments for which
the IRS does not expect further collections due to factors such as taxpayers’ bankruptcy, insolvency, or death.
Compliance assessments and related write-offs are not reported on the balance sheet. Statutory provisions require
the accounts to be maintained until the statute for collection expires.

J. PROPERTY, PLANT, AND EQUIPMENT
General

Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also
includes assets acquired through capital leases, which are initially recorded at the amount recognized as a liability for
the capital lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and
installation, less accumulated depreciation. Major alterations and renovations, including leasehold and land
improvements, are capitalized, while maintenance and repair costs are charged to expense as incurred. Costs for
construction projects are recorded as construction-in-progress until completed, and are valued at actual (direct) cost
plus applied overhead and other indirect costs.

Internal-use software encompasses software design, development, and testing of projects adding significant new
functionality and long-term benefits. Costs for developing internal-use software are accumulated in work-in-
development until a project is placed into service, and testing and final acceptance are successfully completed. Once
completed, the costs are transferred to depreciable property.

The Department leases land and buildings from the General Services Administration (GSA) to conduct most of its
operations. Such leases do not meet capital lease requirements for financial reporting purposes. GSA charges a
standard level user fee which approximates commercial rental rates for similar properties.

The Department’s bureaus are diverse both in size and in operating environment. Accordingly, the Department’s
capitalization policy provides minimum capitalization thresholds which generally range from $25,000 to $50,000 for
all property categories except for internal-use software thresholds which generally range from $50,000 to $250,000.
The Department also uses a capitalization threshold for bulk purchases which generally ranges from $250,000 to
$500,000 for non-manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus determine
the individual items that comprise bulk purchases based on Departmental guidance. In addition, the Department’s
bureaus may expense individual and/or bulk purchases if they conclude that total period costs would not be
materially distorted and the cost of capitalization is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements and capital leases. Leasehold improvements are depreciated over the term of the lease or the
useful life of the improvement, whichever is shorter. Capital leases are depreciated over the estimated life of the asset
or term of the lease, whichever is shorter. Service life ranges (2 to 50 years) are wide due to the Department’s
diversity of PP&E. Land and land improvements, construction-in-progress, and internal-use software in development
are not depreciated.

Heritage Assets

Heritage assets are assets of historical significance. Multi-use heritage assets are those heritage assets for which the
predominant use is general government operations. All acquisition, reconstruction, and betterment costs for the
Treasury multi-use heritage asset buildings are capitalized as general PP&E and depreciated over their service life.
K. FEDERAL DEBT AND INTEREST PAYABLE
Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These
discounts and premiums are amortized over the term of the security using an interest method for all long-term
securities and the straight-line method for short-term securities.

L. COMMITMENTS AND CONTINGENCIES
The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose
loans are guaranteed by federal agencies, to extend credit for their own use (refer to the accounting policy above
entitled “Federal Loans Receivable and Federal Interest Receivable”). The Department establishes loan
commitments when the Department and other parties fully execute promissory notes in which the Department
becomes obligated to issue such loans immediately or at some future date. The Department reduces loan
commitments when it issues the loans or when the commitments expire. Most obligations of the Department give a
borrower the contractual right to a loan or loans immediately or at some point in the future within an agreed upon
timeframe.

In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, the Department recognizes
material contingent liabilities when the following criteria are met:
 •    A past event or exchange transaction has occurred
 •    A future cash outflow is probable
 •    A future cash outflow is measurable

The estimated liability recorded by the Department is either a specific amount or within a range of amounts. If some
amount within the range is a better estimate than any other amount within the range, that amount is recognized. If
no amount within the range is a better estimate than any other amount, the minimum amount in the range is
recognized, and the range and a description of the nature of the contingency are disclosed. The Department follows
this policy in recording a contingent liability, if any, related to the GSE SPSPA program, and loss contingencies that
may arise from claims, assessments, litigations, fines, penalties, and other sources.

If one or more, but not all, of the above criteria for recognition are met, and there is a reasonable possibility of loss,
the Department will disclose, if material, the nature of the contingent liability, along with a range of possible loss, if
estimable, and a description of the nature of the contingency.

M. SPECIAL DRAWING RIGHTS
The SDR is an international reserve asset created by the IMF to supplement its member countries’ official reserves.
Under its Articles of Agreement, the IMF may allocate SDRs to member countries in proportion to their IMF quotas.
Pursuant to the Special Drawing Rights Act of 1968, as amended, the ESF holds all SDRs allocated to or otherwise
acquired by the United States.

Allocations and Holdings

The Department records the SDR holdings as part of Cash and Other Monetary Assets, and the liability for IMF SDR
allocations as part of Other Liabilities on the Balance Sheet. The liabilities represent the amount that is payable in the
event of liquidation of, or withdrawal by the United States from, the SDR department of the IMF or cancellation of the
SDRs.
SDR holdings increase primarily as a result of IMF SDR allocations. SDR transactions are recorded as incurred. They
include acquisitions and sales of SDRs, interest received on SDR holdings, interest charges on SDRs allocations, and
valuation adjustments. The U.S. government receives remuneration in SDRs from the IMF based on claims on the
IMF as represented by the U.S. Reserve Position. The remuneration is credited to the ESF which transfers to either
the TGA account or a specified financing account an equivalent amount of dollars plus nominal interest. The
allocations and holdings are revalued monthly based on the SDR valuation rate as calculated by the IMF, resulting in
the recognition of unrealized gains or losses on revaluation that are reported on the Statement of Net Cost.

Certificates Issued to the Federal Reserve
The Special Drawing Rights Act of 1968 authorizes the Secretary to issue certificates, not to exceed the value of SDR
holdings, to the FRB in return for dollar amounts equal to the face value of certificates issued. The certificates may be
issued to finance the acquisition of SDRs from other countries or to provide U.S. dollar resources to finance other ESF
operations. Certificates issued are redeemed by the Department at such times and in such amounts as the Secretary
may determine, and do not bear interest. Certificates issued to the FRB are reported at their face value which
approximates their carrying value since, under the terms of the agreement, there is no set repayment date and no
interest accrued while certificates remain outstanding. The certificates issued are reported as part of Other Liabilities
on the Balance Sheet.

N. REFUNDS PAYABLE
Refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid more
than the actual taxes they owe. Amounts that the Department has concluded to be valid refunds owed to taxpayers
are recorded as a liability which is reported as part of Non-Federal Accounts Payable on the Balance Sheet.

O. FEDERAL EMPLOYEE BENEFITS PAYABLE – FECA ACTUARIAL LIABILITY
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, and employees who have incurred a work-related injury or occupational
disease. The FECA program is administered by the DOL which pays valid claims and subsequently seeks
reimbursements from the Department for these paid claims. Generally, the Department reimburses the DOL within
two to three years once funds are appropriated. The FECA liability consists of two components. The first component
is based on actual claims paid by the DOL but not yet reimbursed by the Department. The second component is the
estimated liability for future workers compensation as a result of past events. Both components are reported as part
of Federal Employee and Veteran Benefits Payable on the Balance Sheet. These future workers’ compensation
estimates are generated by applying actuarial procedures developed to estimate the liability for FECA benefits. The
actuarial liability estimates for FECA benefits include the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases.

P. ANNUAL, SICK, AND OTHER LEAVE
Annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as an accrued
liability. The accrued balance is adjusted annually to reflect current pay rates. Any portion of the accrued leave for
which funding is not available is recorded as an unfunded liability as reported in Other Liabilities on the Balance
Sheet. Sick and other leave are expensed as taken, and the Department does not record a liability for such amounts
because employees do not vest in sick and other leave benefits.
Q. PENSION COSTS, OTHER RETIREMENT BENEFITS, AND OTHER POST-EMPLOYMENT BENEFITS

Federal Pension Costs, Other Retirement Benefits, and Other Post-Employment Benefits

The Department recognizes the full costs of its employees’ pension benefits, including recognizing imputed costs for
the difference between the estimated service cost and the contributions made by the Department. However, the
assets and liabilities associated with these benefits are recognized by the Office of Personnel Management (OPM)
rather than the Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service Retirement System
(CSRS), to which the Department contributes between 7.0 percent and 7.5 percent of pay. On January 1, 1987, the
Federal Employees’ Retirement System (FERS) went into effect pursuant to Public Law (P.L.) 99-335. Employees
hired after December 31, 1983 are automatically covered by FERS and Social Security. A primary feature of FERS is
that it offers a savings plan to which the Department automatically contributes one percent of base pay and matches
any employee contributions up to an additional four percent of base pay. For most employees hired after December
31, 1983, the Department also contributes the employer’s matching share for Social Security. For the FERS basic
benefit, the Department contributes 11.9 percent for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Department, reports the assets and liability for future
payments to retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and
Federal Employees Group Life Insurance (FEGLI) Program. The Department reports the full cost of providing other
retirement benefits (ORB). The Department also recognizes an expense and a liability for other post-employment
benefits (OPEB), which includes all types of benefits, provided to former or inactive (but not retired) employees, their
beneficiaries, and covered dependents. Additionally, one of the Department’s bureaus, OCC, separately sponsors a
defined life insurance benefit plan for current and retired employees, and is the administrator for a private defined
benefit retirement plan, the Pentegra Defined Benefit Plan (PDBP), that provides certain health and life insurance
benefits for certain of its retired employees who meet eligibility requirements.

District of Columbia Pensions and Judicial Retirement Plans

Pursuant to Title XI of the Balanced Budget Act of 1997, as amended, the Department became responsible for certain
District of Columbia (D.C.) retirement plans. The actuarial cost method used to determine costs for the retirement
plans is the Individual Entry Age Normal Funding Method, which approximates the methodology specified by the
Aggregate Entry Age Normal Actuarial Cost Method. The actuarial liability is based upon long-term economic
assumptions. The pension benefit costs incurred by the plans are included on the Statement of Net Cost.

The economic assumptions used for the D.C. retirement plans differ from those used by the OPM for the following
reasons: (i) the annual rate of salary increase assumptions are based on different plan member experience; (ii) the
annual rate of inflation and cost-of-living adjustment assumptions are based on different statutory requirements
(applicable Consumer Price Index and period of calculation); and (iii) for the annual rate of investment return
assumption, OPM and the D.C. retirement plans use the same underlying yield curve but, unlike the D.C. Federal
Pension Funds, OPM converts to a single equivalent rate.

R. REVENUE AND FINANCING SOURCES
The Department’s activities are financed either through exchange revenue it receives from others or through non-
exchange revenue and financing sources (such as appropriations provided by the Congress and penalties, fines, and
certain user fees collected). User fees primarily include collections from the public for the IRS costs to process
installment agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized
when earned; i.e., goods are delivered or services are rendered. Revenue from reimbursable agreements is recognized
when the services are provided. Non-exchange revenues are recorded when received or accrued when the
Department has a legal claim through the respective collecting bureau. Appropriations used are recognized as
financing sources when related expenses are incurred or assets are purchased.

The Department also incurs certain costs that are paid in total or in part by other federal entities, such as pension
costs, the FEHBP, and any un-reimbursed payments made from the Treasury Judgment Fund on behalf of the
Department. These subsidized costs are recognized on the Statement of Net Cost, and the imputed financing for these
costs is recognized on the Statement of Changes in Net Position. As a result, there is no effect on net position. Other
non-exchange financing sources, such as donations and transfers of assets without reimbursements, are also
recognized for the period in which they occurred on the Statement of Changes in Net Position.

The Department recognizes revenue it receives from disposition of forfeited property as non-exchange revenue on the
Statement of Changes in Net Position. The costs related to the Forfeiture Fund program are reported on the
Statement of Net Cost. The Treasury Forfeiture Fund is the special fund account for depositing non-tax forfeiture
proceeds received pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. Forfeited property balances are reported in Other Assets on the Balance Sheet.

S. CUSTODIAL REVENUES AND COLLECTIONS
Custodial revenues and collections include cash collected by the Department, primarily from taxes. These revenues
are reported as Non-Federal Non-exchange Revenue on the Statement of Changes in Net Position. It does not include
revenue collected by other federal agencies, such as user fees and other receipts, which are remitted for general
operating purposes of the U.S. government or are dedicated for certain trust funds. The Statement of Changes in Net
Position are presented on the “modified accrual basis.” The Department recognizes revenues as cash is collected, and
records a “non-cash accrual adjustment” representing the net increase or decrease during the reporting period in net
revenue-related assets and liabilities, mainly taxes receivable. The Department also records as revenue cash proceeds
from the sale of stock and non-cash market valuation changes related to the U.S. government’s holdings in AIG.

T. PERMANENT AND INDEFINITE APPROPRIATIONS
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits.
Refund payment funding is recognized as appropriations are used. Permanent indefinite authority for refund activity
is available for an indefinite period of time in the amount necessary to cover the refund and/or credit. Tax refunds
and credits are reported as a custodial activity of the Department, since they are, in substance, a custodial revenue-
related activity resulting from taxpayer overpayments of their tax liabilities.

The Department also has two permanent and indefinite appropriations related to debt activity. One is used to pay
interest on the public debt securities; the other is used to redeem securities that are matured, called, or eligible for
early redemption. These accounts are not annual appropriations and do not have refunds. Debt activity
appropriations are related to the Department’s liability and are reported on the Department’s Balance Sheet.
Permanent indefinite authority for debt activity is available for an indefinite period of time.
The Department also has permanent and indefinite appropriations to fund increases in the projected subsidy costs of
credit programs as determined by the re-estimation process required by the FCRA. The Department’s renewable
energy project is also covered by permanent indefinite appropriations.

Additionally, the Department has other permanent and indefinite appropriations to make certain payments on behalf
of the U.S. government. These appropriations are provided to make payments to the FRB for fiscal services provided,
and to the financial institutions for services provided as financial agents of the U.S. government. They also include
appropriations provided to make other disbursements on behalf of the U.S. government, including payments made to
various parties as a result of certain claims and judgments rendered against the United States.

U. INCOME TAXES
As an agency of the U.S. government, the Department is exempt from all income taxes imposed by any governing
body, whether it is a federal, state, commonwealth, local, or foreign government.

V. USE OF ESTIMATES
The Department has made certain estimates and assumptions relating to the reporting of assets, liabilities, revenues,
expenses, and the disclosure of contingent liabilities to prepare its financial statements. Actual results may differ
from these estimates. It is possible that the results of operations, cash flows or the financial position of the
Department may be materially affected in future periods by adverse changes in the outlook for the key assumptions
underlying management’s estimates. Significant transactions subject to estimates include loan and credit program
receivables, credit reform subsidy costs, investments in GSEs and other non-federal securities and related
impairment, tax receivables, loan guarantees, depreciation, imputed costs, actuarial liabilities, cost and earned
revenue allocations, as well as contingencies and related recognized liabilities.

The Department accounts for all of its TARP and non-TARP credit program receivables in accordance with credit
reform accounting (refer to the accounting policy above entitled “Credit Program Receivables.” These receivables are
derived using credit reform modeling which is subject to the use of estimates and forecasts that have inherent
uncertainty. The Department recognizes the sensitivity of credit reform modeling to slight changes in certain model
assumptions such as general economic conditions, specific stock price volatility of the entities in which the
Department has an equity interest, estimates of expected default, and prepayment rates. The TARP Direct Loans and
Equity Investments line item on the Balance Sheet is reflective of relatively illiquid, troubled assets whose values are
particularly sensitive to future economic conditions and other assumptions.

The Department uses regular review of model factors, statistical modeling, and annual re-estimates to reflect the most
accurate cost of the credit programs to the U.S. government. The purpose of re-estimates is to update original
program subsidy cost estimates to reflect actual cash flow experience as well as changes in forecasts of future cash
flows. Forecasts of future cash flows are updated based on actual program performance to date, additional
information about the portfolio, additional publicly available relevant historical market data on securities
performance, revised expectations for future economic conditions, and enhancements to cash flow projection
methods.

The Liabilities to Government Sponsored Enterprises line item on the Balance Sheet related to the SPSPAs represents
the recognized contingency, if any, related to the funding commitment. It is predicated on the probable future
occurrence of an excess of liabilities and minimum capital reserve amounts, as defined, over the assets of either GSE
at the end of any reporting quarter. The Department performs annual valuations, as of September 30, on the
preferred stock and warrants in an attempt to provide a “sufficiently reliable” estimate of the outstanding
commitments in order for the Department to record the remaining liability in accordance with SFFAS No. 5. The
occurrence of future deficits, which ultimately determines the Department’s liability to the GSEs, is most sensitive to
future changes in the housing price index.

The valuation of the Investment in Government Sponsored Enterprises line item on the Balance Sheet incorporates
various forecasts, projections and cash flow analyses to develop an estimate of the asset’s fair value. Any changes in
valuation, including impairment, are recorded and disclosed in accordance with SFFAS No. 7, Accounting for
Revenue and Other Financing Sources. Since the valuation is an annual process, the change in valuation of the
preferred stock and warrants are deemed usual and recurring. The GSEs contingent liability, if any, is assessed
annually and recorded at the gross estimated amount, without considering the increase in senior preferred stock
liquidation preference, or future dividend payments, or future commitment fees, due to the uncertainties involved.

Estimation of such complex and long-duration receivables, investments, and contingencies is subject to uncertainty.
It is possible that new developments will adversely impact the value of receivables, investments, and contingencies, as
well as ultimate amounts required to be funded by the Department.

W. OTHER-THAN-TEMPORARY IMPAIRMENTS
A decline in the market value (either due to credit, price or currency) of any investment below cost that is deemed to
be other-than-temporary is accounted for as an impairment, and the carrying value is reduced to fair value for
financial reporting purposes. To determine whether an impairment is other-than-temporary, the Department
considers whether it has the ability and intent to hold the investment until a market price recovery, and considers
whether evidence indicating the cost of the investment is recoverable outweighs evidence to the contrary.

X. CREDIT, MARKET AND FOREIGN CURRENCY RISK
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to
perform in accordance with underlying contractual obligations. The Department takes on possible credit risk when it
makes direct loans or credits to foreign entities or becomes exposed to institutions which engage in financial
transactions with foreign countries. The following programs of the Department entail credit risk: monetary assets
held; committed but undisbursed direct loans; funding commitment to the GSEs; GSE obligations obtained under the
HFA initiative (the New Issue Bond Program and Temporary Credit Liquidity Program); investments, loans, and
other credit programs of the TARP; non-TARP credit programs including the CDFI Fund, SBLF, and certain portions
of the Department’s participation in the IMF; and the Terrorism Risk Insurance Program.

Except for the Terrorism Risk Insurance Program, the Department’s activities focus on the underlying problems in
the credit markets, and the ongoing instability in those markets exposes the Department to potential costs and losses.
The extent of the risk assumed by the Department is described in more detail in Part 3 (C, G, and I) of this note and,
where applicable, is factored into credit reform models and reflected in fair value measurements.

For Emergency Economic Stabilization Act (EESA) programs, the statute requires that budgetary costs of the troubled
assets and guarantees of troubled assets be calculated by adjusting the discount rate for market risks. Within the
TARP programs, the Department invested in many assets that would traditionally be held by private investors, and
their valuation would inherently include market risk. Accordingly, for all TARP direct loans, equity investments, and
other credit programs, the Department calculates a Market Risk Adjusted Discount Rate (MRADR). The
Department’s cost estimates for the TARP programs are adjusted to reflect the additional return required by the
market to compensate for variability around the expected losses reflected in the cash flows. Under SFFAS No. 2,
including market risk in the cash flow estimates is consistent with the type of assets being valued. The inclusion of
the MRADR is the mechanism for deriving a fair value of the assets. As directed by Congress, a MRADR is also used
in the credit reform model for certain portions of the Department’s participation in the IMF.

The Department faces certain risks and uncertainties as a result of holding securities denominated in foreign
currency. The price of holdings of such securities may widely fluctuate as a result of volatility in foreign currency
markets and changes in real and perceived credit of the Department’s counterparties.

Y. FUNDS FROM DEDICATED COLLECTIONS
The Department accounts for revenues and other financing sources for funds from dedicated collections (FDC)
separately from other funds. Such funds are financed by specifically identified revenues provided to the U.S.
government by non-federal sources, often supplemented by federal and other financing sources, which remain
available over time. These specifically identified revenues and other financing sources are required by statute to be
used for designated activities, benefits, or purposes. In fiscal year 2013, the Department adopted SFFAS No. 43,
Funds from Dedicated Collections: Amending SFFAS No. 27, Identifying and Reporting Earmarked Funds.
Specifically, SFFAS No. 43 specifies the following criteria for purposes of designating funds as dedicated collections:
(i) a statute committing the U.S. government to use specifically identified revenues and/or other financing sources
that are originally provided to the U.S. government by a non-federal source only for designated activities, benefits, or
purposes; (ii) explicit authority for the fund to retain revenues and/or other financing sources not used in the current
period for future use to finance the designated activities, benefits, or purposes; (iii) a requirement to account for and
report on the receipt, use, and retention of the revenues and/or other financing sources that distinguishes the fund
from the U.S. government’s general revenues; and (iv) for funds comprised of both federal and non-federal sources,
such funding is predominantly non-federal, or the non-federal funding is material to the Department’s financial
statements. As a result of adopting SFFAS No. 43, the ODCP funds are no longer classified as FDCs.

Z. ALLOCATION TRANSFERS
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to
obligate budget authority and outlay funds to another department. A separate fund account (allocation account) is
created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation
transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity
are charged to this allocation account as they execute the delegated activity on behalf of the parent. Parent federal
agencies report both the proprietary and budgetary activity and the child agency does not report any financial activity
related to budget authority allocated from the parent federal agency to the child federal agency. However, OMB
guidance (Circular No. A-136, II.4.2, question 5, for three exceptions) requires the child to report the activity in
certain situations.

The Department allocates funds, as the parent, to the Department of Energy. Also, the Department receives
allocation transfers, as the child, from the Agency for International Development, Department of Health and Human
Services, Department of Transportation, Executive Office of the President, and General Services Administration.
AA. FIDUCIARY ACTIVITIES
Fiduciary activities are the collection or receipt, and the management, protection, accounting, investment, and
disposition by the U.S. government of cash or other assets in which non-Federal individuals or entities have an
ownership interest that the U.S. government must uphold. Fiduciary cash and other assets are not assets of the U.S.
government.

AB. RELATED PARTIES AND OTHER ENTITIES
The primary “related parties” with whom the Department conducts business are other federal agencies, mainly
through the normal lending activities of the Fiscal Service and the FFB. These activities are disclosed in the financial
statements. Additionally, the Secretary serves on the FHFA Oversight Board, and consults with the Director of FHFA
on matters involving Fannie Mae and Freddie Mac. This provides the Department an advisory role in the FHFA’s
actions as the conservator for Fannie Mae and Freddie Mac. The Department has no transactions with FHFA, but
rather transacts directly with the GSEs. The Department also utilizes the services of the FRBs to execute a variety of
transactions on behalf of the Fiscal Service and the ESF. Due to the magnitude and variety of services provided, the
following provides an overview of the FRBs’ purpose, governance, and the various services provided on behalf of the
Department.

Federal Reserve System

The Federal Reserve System (FR System) was created by Congress under the Federal Reserve Act of 1913. The FR
System consists of the Federal Reserve Board of Governors (Board), the Federal Open Market Committee (FOMC),
and the FRBs. Collectively, the FR System serves as the nation’s central bank and is responsible for formulating and
conducting monetary policy, issuing and distributing currency (Federal Reserve Notes), supervising and regulating
financial institutions, providing nationwide payments systems (including large-dollar transfers of funds, automated
clearinghouse (ACH) operations, and check collection), providing certain financial services to federal agencies and
fiscal principals, and serving as the U.S. government’s bank. Monetary policy includes actions undertaken by the FR
System that influence the availability and cost of money and credit as a means of helping to promote national
economic goals. The FR System also conducts operations in foreign markets in order to counter disorderly conditions
in exchange markets or to meet other needs specified by the FOMC to carry out its central bank responsibilities. The
FR System is not included in the federal budget. It is considered an independent central bank, and its decisions are
not ratified by the executive branch of the U.S. government.

The Department interacts with the FRBs in a variety of ways, including the following:
•   The FRBs serve as the Department’s fiscal agent and depositary, executing banking and other financial
    transactions on the Department’s behalf. The Department reimburses the FRBs for these services, the cost of
    which is included on the Statement of Net Costs
•   The FRBs hold Treasury and other federal securities in the FRBs’ System Open Market Account (SOMA) for the
    purpose of conducting monetary policy
•   The FRBs hold gold certificates issued by the Department in which the certificates are collateralized by gold
•   The FRBs hold SDR certificates issued by the Department which are collateralized by SDRs
•   The FRBs are required by Board policy to transfer their excess earnings to the Department on behalf of the U.S.
    government
The Department also consults with the FR System on matters affecting the economy and certain financial stability
activities. The above financial activities involving the Department are accounted for and disclosed in the
Department’s financial statements. In accordance with SFFAC No. 2, Entity and Display, the FR Systems’ assets,
liabilities, and operations are not consolidated into the Department’s financial statements.

Federal Reserve System Structure

The Board is an independent organization governed by seven members who are appointed by the President and
confirmed by the Senate. The full term of a Board member is 14 years, and the appointments are staggered so that
one term expires on January 31 of each even-numbered year. The Board has a number of supervisory and regulatory
responsibilities for institutions including, among others, state-chartered banks that are members of the FR System,
bank holding companies, and savings and loan holding companies. In addition, the Board has general supervisory
responsibilities for the 12 FRBs, and issues currency (Federal Reserve Notes) to the FRBs for distribution.

The FOMC is comprised of the seven Board members and five of the 12 FRB presidents, and is charged with
formulating and conducting monetary policy primarily through open market operations (the purchase and sale of
certain securities in the open market), the principal tool of national monetary policy. These operations affect the
amount of reserve balances available to depository institutions, thereby influencing overall monetary and credit
conditions. The 12 FRBs are chartered under the Federal Reserve Act, which requires each member bank to own the
capital stock of its FRB. Supervision and control of each FRB is exercised by a board of directors, of which three are
appointed by the Board of Governors of the FR System, and six are elected by their member banks.

The FRBs participate in formulating and conducting monetary policy, distribute currency and coin, and serve as fiscal
agents for the Department, other federal agencies and fiscal principals. Additionally, the FRBs provide short-term
loans to depository institutions and loans to participants in programs or facilities with broad-based eligibility in
unusual and crucial circumstances when approved by the Board.

Federal Reserve System Assets and Liabilities

The FRBs hold Treasury and other securities in the SOMA for the purpose of conducting monetary policy. Treasury
securities held by the FRBs totaled $1.9 trillion and $1.6 trillion at September 30, 2013 and 2012, respectively. These
assets are generally subject to the same market (principally interest-rate) and credit risks as other financial
instruments. In the open market, the FR System purchases and sells Treasury securities as a mechanism for
controlling the money supply.

The FRBs have deposit liabilities with Treasury and depository institutions. The FRBs issue Federal Reserve Notes,
the circulating currency of the United States, which are collateralized by the Treasury securities and other assets held
by the FRBs.

Financial and other information concerning the FR System, including financial statements for the Board and the
FRBs, may be obtained at http://www.federalreserve.gov.

FRB Residual Earnings Transferred to the Department

FRBs generate income from interest earned on securities, reimbursable services provided to federal agencies, and the
provision of priced services to depository institutions as specified by the Monetary Control Act of 1980. Although the
FRBs generate earnings from carrying out open market operations, via the earnings on securities held in the SOMA
account, their execution of these operations is for the purpose of accomplishing monetary policy rather than
generating earnings. Each FRB is required by Board policy to transfer to the Department its residual (or excess)
earnings after providing for the cost of operations, payment of dividends, and reservation of an amount necessary to
equate surplus with paid-in capital. These residual earnings may vary due to, among other things, changes in the
SOMA balance levels that may occur in conducting monetary policy. In the event of losses, or a substantial increase
in capital, an FRB will suspend its payments to the U.S. Treasury until such losses or increases in capital are
recovered through subsequent earnings. The FRB residual earnings of $75.8 billion and $82.0 billion for fiscal years
ended September 30, 2013 and 2012, respectively, are reported as part of Other Taxes and Receipts on the Statement
of Changes in Net Position. They constituted 2.6 percent and 3.1 percent of the Department’s total custodial revenues
collected in fiscal years 2013 and 2012, respectively. Taxes, Interest and Other Receivables, Net includes a receivable
for FRB’s residual earnings which represents the earnings due to the U.S. Treasury as of September 30, but not
collected by the U.S. Treasury until after the end of the month.


PART 3. OTHER NOTES TO THE CLOSING PACKAGE FINANCIAL
STATEMENTS
(THE INFORMATION PROVIDED IN THIS SECTION IS DERIVED FROM THE DEPARTMENT’S AGENCY
FINANCIAL REPORT FINANCIAL STATEMENT FOOTNOTES.)

A. FR NOTES REPORT NOTE 18 – CONTINGENCIES (TEXT DATA)

LEGAL CONTINGENCIES
The Department is a party in various administrative proceedings, legal actions, and claims, which may ultimately
result in settlements or decisions adverse to the U.S. government. These contingent liabilities arise in the normal
course of operations and their ultimate disposition is unknown. The Department discloses contingent liabilities
where the conditions for liability recognition have not been met and the likelihood of unfavorable outcome is more
than remote. The Department does not accrue for possible losses related to cases where the potential loss cannot be
estimated or the likelihood of an unfavorable outcome is less than probable.

In some cases, a portion of any loss that may occur may be paid by the Department’s Judgment Fund, which is
separate from the operating resources of the Department. For cases related to the Contract Disputes Act of 1978 and
awards under federal anti-discrimination and whistle-blower protection acts, the Department must reimburse the
Judgment Fund from future appropriations.

In the opinion of the Department’s management and legal counsel, based on information currently available, the
expected outcome of other legal actions, individually or in the aggregate, will not have a materially adverse effect on
the Department’s financial statements, except for the pending legal actions described below which may have a
materially adverse impact on the financial statements depending on the outcomes of the cases.

Pending Legal Actions

• Tribal Trust Fund Cases: Numerous cases have been filed in the U.S. District Courts in which Native American
  Tribes seek a declaration that the United States has not provided the tribes with a full and complete accounting of
  their trust funds, and seek an order requiring the U.S. government to provide such an accounting. In addition,
  there are a number of other related cases seeking damages in the U.S. Court of Federal Claims, which do not name
  the Department as a defendant. During fiscal year 2013, a number of tribal trust fund case settlements were paid
  from the Judgment Fund for an aggregate amount totaling $405 million. The U.S. government is currently in
  discussion with counsel representing most of the remaining plaintiff tribes with tribal trust fund cases pending
  against the United States about the feasibility of an out-of-court settlement. Plaintiff tribes in several of the
  pending cases have chosen to pursue active litigation, rather than settlement discussion, and the U.S. government
  is vigorously litigating those cases. The Department is unable to determine the likelihood of an unfavorable
  outcome or an estimate of potential loss at this time.
• James X. Bormes v. United States of America: The complaint alleges that the U.S. government willfully violated
  certain provisions of the Fair and Accurate Credit Transaction Act P.L. 108-159 in that the transaction confirmation
  received by the complainant from Pay.gov improperly included, among other things, the expiration date of a credit
  card used in a transaction. The complaint does not state the amount of damages sought on behalf of the class
  beyond asserting that each class member would be entitled to $100 to $1,000 in statutory damages. In a letter sent
  to the Department of Justice, the plaintiff proposed a fund of $30 million for just the Illinois class members.

  In July 2009, the U.S. District Court for the Northern District of Illinois granted the U.S. government’s motion to
  dismiss this case for lack of an unequivocal waiver of sovereign immunity. In November 2010, the U.S. Court of
  Appeals for the Federal Circuit reversed the District Court’s decision and directed that the case be remanded back
  to the District Court for further proceedings. The U.S. government’s petition for a rehearing of that decision was
  denied by the Federal Circuit in March 2011. In January 2012, the U.S. Supreme Court granted the U.S.
  government’s petition for a writ of certiorari. The case was argued in October 2012 and, in November 2012, the
  U.S. Supreme Court reversed the lower court decision and remanded the case back to the U.S. Court of Appeals for
  the Seventh Circuit. The parties have completed the appellate briefing and the oral argument occurred on
  September 27, 2013. The parties are awaiting the Seventh Circuit’s decision. The Department is unable to
  determine the likelihood of an unfavorable outcome or an estimate of potential loss at this time.

• GSE Related Cases: A number of cases were filed in the U.S. Court of Federal Claims and the U.S. District Court
  for the District of Columbia in which the plaintiffs allege, among other things, that the U.S. government took their
  property and contractual rights as preferred and common stockholders when the third amendments to the SPSPAs
  between the Department and each GSE were executed in August 2012. One case also alleges that the U.S.
  government took plaintiffs’ property and contractual rights when the GSEs were placed into conservatorship and
  entered into the SPSPAs with the Department in September 2008. In the Court of Federal Claims, the plaintiffs
  seek just compensation (damages) from the U.S. government. In the District Court, the plaintiffs seek to set aside
  the third amendments to the SPSPAs as well as damages. The Department is unable to determine the likelihood of
  an unfavorable outcome or an estimate of potential loss at this time.

• IRS 501(c)(4) Cases: Two cases were filed in U.S. District Court in which the plaintiffs seek actual and punitive
  damages in connection with IRS’ alleged unlawful requests for information and unreasonable delays in processing
  the plaintiffs’ applications for tax exempt status. The Department is unable to determine the likelihood of an
  unfavorable outcome or an estimate of potential loss at this time.

• Other Legal Actions: The Department is also involved in employment related legal actions (e.g., matters alleging
  discrimination and other claims before federal courts, the Equal Employment Opportunity Commission, the Merit
  Systems Protection Board, etc.) for which an unfavorable outcome is reasonably possible, but for which an estimate
  of potential loss cannot be determined at this time. It is not expected that these cases will have a material adverse
  effect on the Department’s financial position or results.
OTHER CONTINGENCIES

Terrorism Risk Insurance Program

The Terrorism Risk Insurance Act (TRIA), signed into law in November 2002, was enacted to address market
disruptions resulting from terrorist attacks on September 11, 2001. TRIA helps to ensure available and affordable
commercial property and casualty insurance for terrorism risk, and simultaneously allows private markets to
stabilize. The authority to pay claims under the Terrorism Risk Insurance Program (TRIA Program) is activated upon
the certification of an “act of terrorism” by the Secretary in concurrence with the Secretary of State and the Attorney
General. If a certified act of terrorism occurs, insurers may be eligible to receive reimbursement from the U.S.
government for insured losses above a designated deductible amount. Insured losses above this amount will be
shared between insurance companies and the U.S. government. TRIA also gives the Department authority to recoup
federal payments made under the TRIA Program through policyholder surcharges under certain circumstances, and
contains provisions designed to manage litigation arising from or relating to a certified act of terrorism. There were
no claims under TRIA as of September 30, 2013 or 2012.

B. FR NOTES REPORT NOTE 19 – COMMITMENTS (TEXT DATA)

Loan Commitments

The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose
loans are guaranteed by federal agencies, to extend them credit for their own use (refer to Part 2.L). As of September
30, 2013 and 2012, the Department had loan commitments totaling $73.6 billion and $86.2 billion, respectively.

Multilateral Development Banks

The Department, on behalf of the United States, has subscribed to capital for certain MDBs, portions of which are
callable under certain limited circumstances to meet the obligations of the respective MDB. There has never been,
nor is there anticipated, a call on the U.S. commitment for these subscriptions.

Exchange Stabilization Agreement

The North American Framework Agreement (NAFA), signed by the Department in 1994, includes the Exchange
Stabilization Agreement (ESA) with Mexico. The Department, through the ESF, has a standing swap line for $3.0
billion with Mexico under the NAFA and its implementing ESA. The amounts and terms (including the assured
source of repayment) of any borrowing under NAFA and ESA will have to be negotiated and agreed to before any
actual drawing can occur. The ESA does provide sample clauses that state that transactions shall be exchange rate
neutral for the ESF, and shall bear interest based on a then current rate tied to U.S. Treasury bills. There were no
drawings outstanding on the ESF swap line as of September 30, 2013 and 2012. The Department renewed the ESA
through December 14, 2014.

New Arrangements to Borrow

The Supplemental Appropriations Act of 2009 (P.L. 111-32) provided the authorization and appropriations for an
increase in the United States’ participation in the New Arrangements to Borrow (NAB). Because the U.S. financial
participation in the IMF is denominated in SDRs, P.L. 111-32 authorized and appropriated up to the dollar equivalent
of SDR 75 billion to implement this commitment. The United States agreed in May 2010 that its participation in the
NAB would increase from SDR 6.6 billion to SDR 69.1 billion, pursuant to IMF Executive Board Decision No. 14577-
(10/35). Total U.S. participation in the NAB of SDR 69.1 billion was equivalent to $106.0 billion and $106.5 billion as
of September 30, 2013 and 2012, respectively. Refer to Note I of this section for more information on the NAB.

Commitment to GSEs

The SPSPA agreements between the Department and each GSE, which have no expiration date, provide for the
Department to disburse funds to the GSEs if, at the end of any quarter, the FHFA determines that the liabilities
exceed its assets. At September 30, 2013 and 2012, the Department projected a maximum remaining potential
commitment to the GSEs of $258.1 billion and $282.3 billion, respectively. Refer to Note G of this section for a full
description of the SPSPA agreements and related contingent liability.



C. FR NOTES REPORT NOTE 20 – TROUBLED ASSET RELIEF PROGRAM (TARP) DIRECT LOANS AND
    EQUITY INVESTMENTS (TEXT DATA)
The Department administers a number of programs designed to help stabilize the financial system and restore the
flow of credit to consumers and businesses. Through TARP, the Department made direct loans, equity investments,
and entered into other credit programs. TARP’s authority to make new commitments to purchase or guarantee
troubled assets expired in October 2010.


DIRECT LOAN AND EQUITY INVESTMENT PROGRAMS

Capital Purchase Program

TARP implemented the Capital Purchase Program (CPP) in fiscal year 2009 which was designed to help stabilize the
financial system by assisting in building the capital base of certain viable U.S. financial institutions to increase the
capacity of those institutions to lend to businesses and consumers and support the economy. Under this program, the
Department invested a total of $204.9 billion and purchased senior perpetual preferred stock and subordinate
debentures from qualifying U.S. controlled banks, savings associations, and certain bank and savings and loan
holding companies (Qualified Financial Institution or QFI). The senior preferred stock has a stated dividend rate
ranging from 5.0 percent to 9.0 percent. The dividends are cumulative for bank holding companies and non-
cumulative for others; they are payable when and if declared by the institution’s board of directors. QFIs that are
Sub-chapter S corporations (public and non-public) issued subordinated debentures that have a maturity of generally
30 years, and interest rates ranging from 7.7 percent to 13.8 percent.

In addition to the senior preferred stock, the Department received warrants, with a ten-year term, from public QFIs to
purchase a number of shares of common stock. Additionally, the Department exercised warrants received from non-
public QFIs resulting in additional holdings of senior preferred stock (or subordinated debentures as appropriate) of
non-public QFIs.

In fiscal years 2013 and 2012, repayments and sales of CPP investments totaled $4.8 billion and $8.2 billion,
respectively. Of these CPP investment repayments and sales in fiscal years 2013 and 2012, net proceeds of $1.5 billion
and $1.3 billion, respectively, resulted from auction sales from the Department’s decision in fiscal year 2012 to sell
certain CPP investments to the public in auction sales. Total CPP repayments and sales resulted in net proceeds less
than cost of $493 million and $285 million in fiscal year 2013 and 2012, respectively. The initial auction sales were
not considered in the formulation estimate for the CPP program and, as such, a modification was recorded, increasing
the cost of the program by $973 million in fiscal year 2012.
The estimated value of the CPP preferred equity investments is based on the net present values of the expected
dividend payments and proceeds from repurchases and sales. The model assumes a probabilistic evolution of each
institution’s asset-to-liability ratio (based on the estimated fair value of the institution’s assets against its liabilities).
Historical volatility is used to scale the likely evolution of each institution’s asset-to-liability ratio. Inputs to the
model include institution specific accounting data obtained from regulatory filings, an institution’s stock price
volatility, historical bank failure information, as well as market prices of comparable securities trading in the market.
The market risk adjustment is obtained through a calibration process to the market value of certain trading securities
of financial institutions within the TARP programs or other comparable financial institutions. The Department
estimates the values and projects the cash flows of warrants using an option-pricing approach based on the current
stock price and its volatility. Investments in common stock which are exchange traded are valued at the quoted
market price as of fiscal year end.

American International Group, Inc. Investment Program

The Department provided assistance to systemically significant financial institutions on a case by case basis to
provide stability to those institutions and protect the economy from being adversely affected by the failure of these
firms. In fiscal year 2009, the Department invested $40.0 billion in AIG in the form of AIG’s cumulative 10.0 percent
Series D preferred stock. Additionally, the Department made available to AIG an equity capital facility under which
AIG drew $27.8 billion, and the Department received additional AIG preferred stock. By January 2011, the
Department (in combination with AIG and the FRBNY) had restructured the AIG investments into a $20.3 billion
interest in AIG SPVs, and 1.1 billion shares of AIG common stock. Additionally, the credit facility between FRBNY
and AIG was terminated, and the Department on behalf of the General Fund separately received 563 million shares of
AIG common stock at no cost, reported separately on the Department’s Balance Sheet as Debt and Equity Securities.
Upon completion of the restructuring, the Department (including TARP) held a combined total of 1.7 billion shares of
AIG common stock, or 92.1 percent of AIG’s common stock equity.

During fiscal years 2011 and 2012, the Department received a total of $21.1 billion in distributions from the AIG SPVs,
fully repaying the $20.3 billion original investment balance and $204 million of capitalized dividend income, of which
$9.6 billion and $11.5 billion were received in fiscal years 2012 and 2011, respectively. The Department recorded
proceeds in excess of cost of $127 million in fiscal year 2012 (none in 2011), along with investment income of $191
million and $246 million in fiscal years 2012 and 2011, respectively.

Between fiscal years 2011 and 2013, the Department sold all of its 1.7 billion AIG common shares held by the General
Fund and TARP together, on a pro-rata basis, in the open market. In fiscal year 2011, the Department sold in the
open market 200 million shares of AIG common stock held by the General Fund and TARP (68 million and 132
million shares, respectively) for total gross cash proceeds of $5.8 billion, of which the General Fund and TARP
received $2.0 billion and $3.8 billion, respectively. Sales continued in fiscal year 2012 in which the Department sold
an additional 1.2 billion shares of AIG common stock held by the General Fund and TARP (415 million and 806
million shares, respectively) for total gross cash proceeds of $38.2 billion, of which the General Fund and TARP
received $13.0 billion and $25.2 billion, respectively. During fiscal year 2013, the Department sold the remaining 234
million shares of AIG common stock held by the General Fund and TARP (80 million and 154 million shares,
respectively) for total gross cash proceeds of $7.6 billion, of which the General Fund and TARP received $2.6 billion
and $5.0 billion, respectively. For the TARP shares sold in fiscal years 2013, 2012 and 2011, the proceeds were less
than the Department’s cost by $1.7 billion, $9.9 billion and $1.9 billion, respectively.
As of September 30, 2013, the Department no longer held any ownership interest in AIG. The remaining 234 million
shares of AIG common stock held by the Department (including TARP) as of September 30, 2012 constituted 15.9
percent of AIG’s total outstanding common shares. These common shares held had a fair value which approximated
their carrying value totaling approximately $7.7 billion at September 30, 2012, of which $2.6 billion and $5.1 billion
related to the General Fund and TARP, respectively. The fair value of the AIG common stock was based on the New
York Stock Exchange (NYSE) quoted market price as of September 30, 2012.

During fiscal year 2013, the carrying value of the AIG investments held on behalf of the General Fund declined by
$2.6 billion from the end of the prior fiscal year due to the sale of the remaining AIG common stock for $2.588 billion
which resulted in a $23 million loss from the final sale. The September 30, 2012 carrying value of these investments
had declined by $8.3 billion from September 30, 2011 due to sales of $13.0 billion during fiscal year 2012, partially
offset by a fair value gain of $4.7 billion on the remaining existing portfolio as of September 30, 2012. Accordingly,
the carrying value of the AIG common stock investment was adjusted by these amounts, and a corresponding amount
was reported as part of Miscellaneous Earned Revenue on the Statement of Changes in Net Position.

Automotive Industry Financing Program

The Automotive Industry Financing Program (AIFP) was designed to help prevent a significant disruption of the
American automotive industry, which could have had a negative effect on the economy of the United States.

General Motors Company and General Motors Corporation
In fiscal year 2009, the Department provided $51.0 billion to General Motors Corporation (Old GM) through various
loan agreements while Old GM was in bankruptcy. During fiscal year 2009, General Motors Company (New GM) was
created and, through various sales and restructurings of its investment, the Department held 500 million shares of
New GM common stock, or 31.9 percent of New GM’s total outstanding common shares, as of September 30, 2012.
During fiscal year 2013, the Department sold 399 million shares of the New GM common stock for $12.0 billion,
which resulted in net proceeds less than cost of $5.4 billion. There were no sales of common stock during fiscal year
2012. As of September 30, 2013, the Department held 101 million shares of New GM common stock, or 7.3 percent of
New GM’s total outstanding common shares. The fair value of the New GM common shares held as of September 30,
2013 and 2012 was $3.6 billion and $11.4 billion, respectively, based on the NYSE quoted market price, plus the value
of any traded but not settled shares. Traded but not settled shares were valued based on the actual trade proceeds.

Ally Financial Inc. (formerly known as GMAC Inc.)

The Department invested a total of $16.3 billion in GMAC Inc. between December 2008 and December 2009 to help
support its ability to originate new loans to GM and Chrysler dealers and consumers, and to help address GMAC’s
capital needs. In 2010, GMAC changed its corporate name to Ally Financial, Inc. (Ally). As a result of original
investments, exchanges, conversions and warrant exercises, the Department held 981,971 shares of Ally common
stock, representing 73.8 percent of Ally’s outstanding common stock, as of September 30, 2013 and 2012. The
Department also held 119 million shares of Ally Series F-2 Mandatorily Convertible Preferred Securities (Series F-2),
with a stated dividend rate of 9.0 percent, which were convertible into at least 513,000 shares of Ally common. In
both fiscal years 2013 and 2012, the Department received $534 million in dividends from Ally. The fair value of the
Ally investments held was $12.0 billion and $6.2 billion at September 30, 2013 and 2012, respectively.

Per an August 2013 agreement, Ally repurchased all of the Series F-2 from the Department for $5.2 billion in
November 2013. The Department received an additional $725 million for the elimination of certain rights under the
original agreement. This August 2013 agreement also included terms for Ally to issue a November 2013 private
offering of new common stock at a price of $6,000 per share. To value the holdings in Ally at September 30, 2013, the
Department considered observable market data from the November 2013 transactions pursuant to the August 2013
agreement. Proceeds and dividends received in November 2013 were discounted to September 30, 2013, at a risk-free
discount rate to reflect the timing of the expected cash flows. The Department’s remaining investment in Ally,
consisting of 981,971 shares of common stock, representing 63.4 percent of Ally’s common stock, was valued at the
price per share in Ally’s private offering.

Investments in Ally’s common equity and mandatorily convertible preferred stock were valued on an “if-converted”
basis at September 30, 2012, and the Department used an average of valuation multiples such as price-to-earnings,
price-to-tangible book value, and asset manager valuations to estimate the value of the shares. The multiples were
based on those of comparable publicly-traded entities. The adjustment for market risk was incorporated in the data
points the Department uses to determine the measurement for Ally as all points relied on market data.

Public-Private Investment Program

The Public-Private Investment Program (PPIP) was part of the Department’s efforts to help restart the financial
securities market and provide liquidity for legacy securities. Under this program, the Department (as a limited
partner) made equity investments in and loans to nine investment vehicles (referred to as Public-Private Investment
Funds or “PPIFs”) established by private investment managers between September and December 2009. The equity
investments were used to match private capital and equaled 49.9 percent of the total equity invested.

During fiscal year 2013, all of the remaining PPIFs fully liquidated their portfolios and repaid investors, including the
Department. At September 30, 2013, the Department had no PPIF equity investments or loans outstanding. At
September 30, 2012, the Department had investments in six PPIFs which included $4.1 billion of equity investments
outstanding and $5.7 billion of loans outstanding, for an aggregate total of $9.8 billion. At September 30, 2012, the
fair value of these loans outstanding was $10.8 billion. These portfolios were comprised of 74.0 percent non-agency
residential mortgage-backed securities (RMBS) and 26.0 percent commercial mortgage-backed securities (CMBS).
The Department made no disbursements to the PPIFs during fiscal year 2013, compared to fiscal year 2012 in which
the Department disbursed $245 million as equity investments and $803 million as loans to the PPIFs. In both fiscal
years 2013 and 2012, the Department received $5.7 billion, in loan principal and interest repayments from the PPIFs.
Also during fiscal year 2013, the Department received $5.5 billion in equity distributions, comprised of $254 million
of investment income, $1.2 billion of net proceeds in excess of cost, and $4.1 billion reduction of the gross investment
outstanding. In fiscal year 2012, the Department received $3.2 billion in equity distributions, comprised of $1.3
billion of investment income, $223 million of net proceeds in excess of cost, and $1.7 billion reduction of the gross
investment outstanding.

The $10 million positive subsidy allowance at September 30, 2013 represents additional proceeds expected upon final
liquidation of remaining partnerships at the net present value. As of September 30, 2013, the Department had legal
commitments to disburse up to $984 million in additional equity to PPIFs which will remain until all distributions
have been received from PPIFs and all PPIF liabilities have been settled.

For the valuation at September 30, 2012, the Department estimated cash flows to the PPIFs by simulating the
performance of the collateral supporting the assets held by the PPIF. Inputs used to simulate the cash flows, which
considered market risks, included unemployment forecasts, home price appreciation/depreciation forecasts, the
current term structure of interest rates, historical pool performance, and estimates of the net income and value of
commercial real estate supporting the CMBS. The simulated cash flows were then run through a financial model that
defined distributions of the RMBS/CMBS to determine the estimated cash flows to the PPIF.

Other Direct Loan and Equity Investment Programs

The Department initiated other programs intended to help unlock the flow of credit to consumers and small
businesses. The following programs were established to help accomplish this: the Term Asset-Backed Securities Loan
Facility (TALF) and the Community Development Capital Initiative (CDCI).

Term Asset-Backed Securities Loan Facility

The TALF was created by the FRB to provide low-cost funding to investors in certain classes of Asset Backed
Securities (ABS). The Department agreed to participate in the program by providing liquidity and credit protection to
the FRB. Under the TALF, the FRBNY, as implementer of the TALF program, originated loans on a non-recourse
basis to purchasers of certain AAA rated ABS secured by consumer and commercial loans and CMBS. The FRBNY
ceased issuing new loans in 2010. Approximately $101 million and $1.5 billion of loans due to the FRBNY remained
outstanding as of September 30, 2013 and 2012, respectively.

As part of the program, the FRBNY created the TALF, Limited Liability Corporation (LLC), an SPV that agreed to
purchase from the FRBNY any collateral it has seized due to borrower default. Upon its creation, the Department
disbursed a $100 million loan to fund the facility. The TALF, LLC would fund purchases from the accumulation of
monthly fees paid by FRBNY as compensation for the agreement. Only if the TALF, LLC had insufficient funds to
purchase the collateral did the Department commit to invest up to $20.0 billion in non-recourse subordinated notes
issued by the TALF, LLC. This commitment amount has been reduced periodically since 2010, and was terminated in
fiscal year 2013. In fiscal year 2013, a modification to the terms of the legal agreement resulted in $55 million is
subsidy income for the program. The modification allowed the Department to receive $100 million in repayments,
$13 million in interest and $570 million of contingent interest, recorded as proceeds in excess of cost, in fiscal year
2013 rather than in fiscal year 2015 as originally expected. As of September 30, 2013 and 2012, no TALF loans were
in default and consequently no collateral was purchased by the TALF, LLC.

In valuing the TALF loan, the Department model derives the cash flows to the SPV, and ultimately to the Department,
by simulating the performance of underlying collateral. Loss probabilities on the underlying collateral are calculated
based on analysis of historical loan loss and charge-off experience by credit sector and subsector. Impaired TALF-
eligible securities are projected to be purchased by the SPV, which could require additional Department funding.
Simulation outcomes consisting of a range of loss scenarios are probability-weighted to generate the expected net
present value of future cash flows.

Community Development Capital Initiative

In fiscal year 2010, the CDCI was created to provide additional low cost capital in Community Development Financial
Institutions (CDFIs) to encourage more lending to small businesses. Under the terms of the program, the
Department purchased senior preferred stock (or subordinated debt) from eligible CDFIs with an initial dividend rate
of 2.0 percent that will increase to 9.0 percent after eight years. The Department invested a total of $570 million in
84 institutions under the CDCI. In fiscal years 2013 and 2012, the Department received $86 million and $3 million in
repayments, respectively. The Department values the CDCI preferred stock investments in a manner broadly
analogous to the methodology used to value the preferred stock securities within the CPP program.


OTHER CREDIT PROGRAMS

Asset Guarantee Program

The Asset Guarantee Program (AGP) provided guarantees for assets held by systemically significant financial
institutions that faced a risk of losing market confidence due in large part to a portfolio of distressed or illiquid assets.
Section 102 of the EESA required the Secretary to establish the AGP to guarantee troubled assets originated or issued
prior to March 14, 2008, including MBS.

In January 2009, the Department entered into a guarantee agreement with Citigroup under which the Department’s
protection was limited to $5.0 billion. The Department, Federal Deposit Insurance Corporation (FDIC), and the
FRBNY provided protection against the possibility of large losses on a Citigroup asset pool of approximately $301.0
billion of loans and securities backed by residential and commercial real estate and other such assets. In fiscal year
2010, this guarantee agreement was terminated and, accordingly, FDIC agreed to transfer to the Department $800
million of Citigroup trust preferred securities (TruPS) holdings plus dividends by December 31, 2012, reduced by any
losses FDIC incurred on its Citigroup guaranteed debt. The Department recorded a TruPS-related receivable from the
FDIC valued at $967 million at September 30, 2012. The Department sold this investment in fiscal year 2013 for
$894 million. During fiscal year 2013, the Department also received $200 million of dividends on the TruPS. A
downward modification of $94 million and a closing downward re-estimate of $24 million were recorded in fiscal
year 2013. The Department valued the AGP preferred stock investments in a manner broadly analogous to the
methodology used to value the preferred stock securities within the CPP program. As of September 30, 2013, the
Department held no remaining holding in the AGP program.

FHA-Refinance Program

In fiscal year 2010, the Department entered into a loss-sharing agreement with the FHA to support a program in
which FHA guarantees refinancing of borrowers whose homes are worth less than the remaining amounts owed
under their mortgage loans. The Department established a $50 million account, held by a commercial bank as its
agent, from which any required reimbursements for losses will be paid to third-party claimants, including banks or
other investors. FHA disbursed $182 million and $234 million of loans during fiscal year 2013 and 2012,
respectively. At September 30, 2013 and 2012, 3,015 and 1,774 loans that FHA had guaranteed with a total value of
$489 million and $307 million, respectively, had been refinanced under the program. At September 30, 2013 and
2012, the Department’s maximum exposure related to the FHA guarantee totaled $59 million and $41 million,
respectively. The Department’s guarantee resulted in the Department incurring a $9 million and $7 million liability
as of September 30, 2013 and 2012, respectively, and reported as part of the Loan Guarantee Liabilities line on the
Balance Sheet.

Based on credit reform accounting, the liability was derived as the present value of the future cash outflows for the
Department’s share of losses incurred on any defaults of the disbursed loans. The budget subsidy rates for the
program, entirely for defaults, excluding modifications and re-estimates, were set at 2.5 percent and 4.0 percent for
loans guaranteed in fiscal years 2013 and 2012, respectively. As of September 30, 2013 and 2012, the Department
recorded subsidy cost of $5 million and $9 million, respectively, for projected losses due to defaults. The program
recorded a $3 million downward re-estimate for the year ended September 30, 2013 and 2012, due to a reduction in
market risks and lower than projected defaults.


HOUSING PROGRAMS UNDER TARP
Housing programs under TARP are designed to provide stability for both the housing market and homeowners.
These programs assist homeowners who are experiencing financial hardships to remain in their homes until their
financial position improves or they relocate to a more sustainable living situation. As of September 30, 2013 and
2012, the Department had committed up to $38.5 billion and $45.6 billion, respectively, for these programs. For
fiscal year 2013 and 2012, payments made on behalf of the housing programs under TARP totaled $3.9 billion and
$3.1 billion, respectively.



D. FR NOTES REPORT NOTE 22 – FUNDS FROM DEDICATED COLLECTIONS (TEXT DATA)

Bureau                      Fund Code                          Fund Title/Description
Exchange Stabilization Fund (ESF)
ESF                         20X4444                            Exchange Stabilization Fund

Public Enterprise/Revolving Funds
BEP                         20X4502                            Bureau of Engraving and Printing Fund
MNT                         20X4159                            Public Enterprise Fund
OCC                         20X8413                            Assessment Funds
IRS                         20X4413                            Federal Tax Lien Revolving Fund

Other FDC Funds
Fiscal Service                    20X5080                      Gifts to Reduce Public Debt
Fiscal Service                    20X5081                      Presidential Election Campaign
Fiscal Service                    20X8625                      Gulf Coast Restoration Trust Fund
Fiscal Service                    20X8902                      Esther Cattell Schmitt Gift Fund
Fiscal Service                    955585                       Travel Promotion Fund, Corp for Travel Promotion
Fiscal Service                    95X5585                      Travel Promotion Fund, Corp for Travel Promotion
Fiscal Service                    207/85445                    Debt Collection Special Fund
Fiscal Service                    208/95445                    Debt Collection Special Fund
Fiscal Service                    209/05445                    Debt Collection Special Fund
Fiscal Service                    200/15445                    Debt Collection Special Fund
Fiscal Service                    201/25445                    Debt Collection Special Fund
Fiscal Service                    202/35445                    Debt Collection Special Fund
Fiscal Service                    203/45445                    Debt Collection Special Fund
DO                                20X5816                      Confiscated and Vested Iraqi Property and Assets
DO                                20X8790                      Gifts and Bequests Trust Fund
IRS                               20X5510                      Private Collection Agency Program
IRS                               20X5433                      Informant Reimbursement
OFR                               20X5590                      Financial Research Fund
TFF                               20X5697                      Treasury Forfeiture Fund




Pursuant to the legal authority found in Section 10 of the Gold Reserve Act of 1934, as amended, the ESF may
purchase or sell foreign currencies, hold U.S. foreign exchange and SDR assets, and may provide financing to foreign
governments and foreign entities. The ESF accounts for and reports its holdings to the Fiscal Service on the Standard
Form 224, “Statement of Transactions,” and provides other reports to Congress. Interest on SDRs in the IMF,
investments in U.S. Treasury securities, and investments in foreign currency assets are ESF’s primary sources of
revenue. The ESF’s earnings and realized gains on foreign currency assets represent inflows of resources to the
government, and the interest revenues earned from U.S. Securities are the result of intra-Departmental flows.

The BEP, Mint, OCC, and IRS operate “public enterprise/revolving funds” to account for their respective revenues
and expenses. 31 USC § 5142 established the revolving fund for BEP to account for revenue and expenses related to
the currency printing activities. P.L. 104-52 (31 USC § 5136) established the Public Enterprise Fund for the Mint to
account for all revenue and expenses related to the production and sale of numismatic products and circulating
coinage. Revenues and other financing sources at the Mint are mainly from the sale of numismatic and bullion
products and the sale of circulating coins to the FRB system. These revenues represent inflows of resources to the
government. 12 USC § 481 established the Assessment Funds for OCC. Revenue and financing sources are from the
bank examinations and assessments for the oversight of the national banks, savings associations, and savings and
loan holding companies. These non-appropriated funds contribute to the inflows of resources to the government to
specifically fund these entity’s operations. 26 USC § 7810 established the Federal Tax Lien Revolving Fund to account
for revenue and expenses from the sale of property foreclosed upon by a holder of a lien. Such revenue represents
inflows of resources to the federal government. There are minimal transactions with other government agencies.

There are other FDCs at several Treasury bureaus, such as donations to the Presidential Election Campaign Fund,
gifts to reduce the public debt, and other enforcement related activities. Public laws and the U.S. Code established
and authorized the use of these funds. Sources of revenues and other financing sources include contributions, cash
and property forfeited in enforcement activities, and public donations, all which represent inflows to the government.

E. FR NOTES REPORT NOTE 26 - HERITAGE ASSETS (TEXT DATA)

The Department has a total of fifteen heritage assets, of which five are considered multi-use, for fiscal years 2013 and
2012. The Treasury Complex (Main Treasury Building and Annex), declared a national historical landmark in 1972, is
treated as a multi-use heritage asset and is expected to be preserved indefinitely. The buildings that house the Mint in
Denver, San Francisco, Fort Knox, and West Point are also considered multi-use heritage assets and included on the
National Register of Historic Places. Additionally, the Mint maintains heritage assets consisting of four coin
collections and six historical artifacts.



F. FR NOTES REPORT NOTE 27 - FIDUCIARY ACTIVITIES (TEXT DATA)

Bureau              Fund Code         Authority            Fund Title/Description
BEP                 20X6513.013       31 USC 5119          Mutilated Currency Claims Funds
Fiscal Service      20X6045           31 USC 3328          Proceeds, Payments of Unpaid Checks
Fiscal Service      20X6048           31 USC 3329, 3330    Proceeds of Withheld Foreign Checks
Fiscal Service      2015X6078         50 APP. USC 2012     War Claims Fund, Foreign Claims Settlement Commission
Fiscal Service      20X6092           31 USC 1321          Debt Management Operations
Fiscal Service      20X6104           22 USC 1627          Albanian Claims Fund, Treasury
Fiscal Service      20X6133           31 USC 1322          Payment of Unclaimed Moneys
Fiscal Service      20X6210           22 USC 1623          Iraq Claims Settlement Fund
Fiscal Service      20X6309           22 USC 1627(a)       Libyan Claims Settlement Fund
Fiscal Service      20X6310           22 USC 1627(a)       Libyan Claims Settlement Fund
Fiscal Service      20X6311           98 Stat. 1876        Kennedy Center Revenue Bond
Fiscal Service      20X6312           22 USC 1627          Iranian Claims Settlement Fund
Fiscal Service    20X6314           22 USC 1644g           German Democrat Settlement Fund
Fiscal Service    20X6315           22 USC 1645h           Vietnam Claims Settlement Fund
Fiscal Service    20X6501.018       31 USC 3513            Small Escrow Amounts
Fiscal Service    20X6720           31 USC 3513            SM DIF Account for Dep. & Check Adj.
Fiscal Service    20X6830           104 Stat. 1061         Net Interest Payments to/from State
Fiscal Service    20X6999           31 USC 3513            Accounts Payable, Check Issue UNDDR
IRS               20X6737           90 Stat. 269-270       Internal Revenue Collections for Northern Mariana Island
IRS               20X6738           31 USC 3513            Coverover Withholdings-U.S. Virgin Islands
IRS               20X6740           31 USC 3515            Coverover Withholdings-Guam
IRS               20X6741           31 USC 3513            Coverover Withholdings-American Samoa
OAS               20X6317.001       22 USC 2431            Belize Escrow, Debt Reduction



G. FR NOTES REPORT NOTE 28B – FINANCING AND HOUSING MARKET STABILIZATION - LIABILITIES
    TO   GOVERNMENT SPONSORED ENTERPRISES (GSES) (TEXT DATA)
Congress established Fannie Mae and Freddie Mac as GSEs to support the supply of mortgage loans. A key function
of the GSEs is to package purchased mortgages into securities, which are subsequently sold to investors.

Leading up to the financial crisis, increasingly difficult conditions in the housing market challenged the soundness
and profitability of the GSEs, thereby undermining the entire housing market. This led Congress to pass the Housing
and Economic Recovery Act (HERA) (P.L. 110-289) in July 2008. This act created FHFA, with enhanced regulatory
authority over the GSEs, and provided the Secretary with certain authorities intended to ensure the financial stability
of the GSEs, if necessary. In September 2008, FHFA placed the GSEs under conservatorship, and the Department
entered into a Senior Preferred Stock Purchase Agreement (SPSPA) with each GSE. These actions were taken to
preserve the GSEs’ assets, ensure a sound and solvent financial condition, and mitigate systemic risks that
contributed to current market instability. The SPSPAs were amended in August 2012 (the amended SPSPAs) which
changed, among other things, the basis for determining quarterly dividends that are paid by the GSEs to the U.S.
government. The dividend change in the amended SPSPAs became operationally effective commencing with the
quarter ending March 31, 2013.

The actions taken by the Department are intended to provide financial stability. The purpose of the Department’s
actions is to maintain the solvency of the GSEs so they can continue to fulfill their vital roles in the home mortgage
market while the Administration and Congress determine what structural changes should be made. The FHFA
director may terminate the conservatorship if safe and solvent conditions can be established. Draws under the
SPSPAs result in an increased investment in the GSEs as further discussed below.

Under the SPSPAs, the Department initially received from each GSE: (i) 1,000,000 shares of non-voting variable
liquidation preference senior preferred stock with a liquidation preference value of $1,000 per share, and (ii) a non-
transferrable warrant for the purchase, at a nominal cost, of 79.9 percent of common stock on a fully-diluted basis.
The warrants expire on September 7, 2028. Through December 31, 2012, the senior preferred stock accrued
dividends at 10.0 percent per year, payable quarterly. Under the amended SPSPAs, the quarterly dividend payment
changed from a 10.0 percent per annum fixed rate dividend to an amount equivalent to the GSE’s positive net worth
above a capital reserve amount. The capital reserve amount was initially set at $3.0 billion for calendar year 2013,
and declines by $600 million at the beginning of each calendar year thereafter until it reaches zero by calendar year
2018. The GSEs will not pay a quarterly dividend if their positive net worth is below the required capital reserve
threshold. Cash dividends of $95.7 billion and $18.4 billion were declared and received during fiscal years ended
September 30, 2013 and 2012, respectively. The significant increase in dividends received in fiscal year 2013
compared to 2012 was attributable to a federal income tax benefit that was recognized in the 2013 earnings of one of
the GSEs resulting in improved net worth and, thus, increased dividends remitted to the Department.

The SPSPAs, which have no expiration date, provide for the Department to disburse funds to the GSEs if, at the end of
any quarter, the FHFA determines that the liabilities of either GSE exceed its assets. Draws from the Department
under the SPSPAs are designed to ensure that the GSEs maintain positive net worth. The maximum amount available
to each GSE under this agreement was previously based on a formulaic cap that increased by the amount of actual
draws made for a three-year period which ended December 31, 2012, at which time, the maximum amount was
automatically adjusted downward by each GSE’s positive net worth as of December 31, 2012 and became fixed
effective December 31, 2012 (refer to the “Liabilities to GSEs” section below). Draws against the funding commitment
of the SPSPAs do not result in the issuance of additional shares of senior preferred stock; instead, the liquidation
preference of the initial 1,000,000 shares is increased by the amount of the draw. There were no payments to the
GSEs for the fiscal year ended September 30, 2013. Payments to the GSEs for fiscal year ended September 30, 2012
were $18.5 billion.


ACCOUNTING TREATMENT
The estimated contingent liability to the GSEs on the Department’s Balance Sheet is accrued pursuant to the SPSPAs
and funded through the Department’s direct appropriations. Therefore, the liability accrual is reflected at its gross
amount as reported within Non-Federal Gross Cost on the Department’s Statement of Net Cost.

As actual payments are made to the GSEs, they result in increases to the U.S. government’s liquidation preference in
the GSEs’ senior preferred stock, and thus represent General Fund exchange revenue reported on the Department’s
Statement of Net Cost as Non-Federal Earned Revenue. Changes in the fair valuation of the GSE preferred stock and
common stock warrants, and related dividends received, are General Fund-related costs and revenues that are
likewise reported as Non-Federal Earned Revenue.

SENIOR PREFERRED STOCK AND WARRANTS FOR COMMON STOCK

In determining the fair value of the senior preferred stock and warrants for common stock, the Department relied on
the GSEs’ public filings and press releases concerning their financial statements, as well as non-public, long-term
financial forecasts, monthly summaries, quarterly credit supplements, independent research regarding high-yield
bond and preferred stock trading, independent research regarding the GSEs’ common stock trading, discussions with
each of the GSEs and FHFA, and other information pertinent to the fair valuations. Because of the nature of the
instruments, which are not publicly traded and for which there is no comparable trading information available, the
fair valuations rely on significant unobservable inputs that reflect assumptions about the expectations that market
participants would use in pricing.

The fair value of the senior preferred stock considers the amount of forecasted dividend payments. The fair
valuations assume that a hypothetical buyer would acquire the discounted dividend stream as of the transaction date.
The fair value of the senior preferred stock increased at September 30, 2013 when compared to 2012 primarily due to
the GSEs’ improved financial performance as discussed below.

The fair value of the warrants is impacted by the nominal exercise price and the large number of potential exercise
shares, the market trading of the common stock that underlies the warrants as of September 30, the principal market,
and the market participants. Other factors impacting the fair value include, among other things, the holding period
risk related directly to the amount of time that it will take to sell the exercised shares without depressing the market.
The fair value of the warrants increased at the end of fiscal year 2013 when compared to 2012 primarily due to
increases in the market price of the underlying common stock of each GSE.


LIABILITIES TO GSES
As part of the annual process undertaken by the Department, a series of long-term financial forecasts are prepared to
assess the probability and magnitude of draws under the SPSPAs as of September 30. The Department used financial
forecasts prepared through year 2038 and 2025 in estimating the contingent liability as of September 30, 2013 and
2012, respectively. If future payments under the SPSPAs are deemed to be probable within the forecast horizon, the
Department will estimate and accrue a contingent liability to the GSEs to reflect the forecasted equity deficits of the
GSEs. This accrued contingent liability will be undiscounted and will not take into account any of the offsetting
dividends which would be received, as the dividends would be owed directly to the General Fund. Such recorded
accruals are adjusted as new information develops or circumstances change.

Based on the annual assessment of the Department’s estimated future contingent liability, as of September 30, 2013,
the Department estimated and accrued no contingent liability, compared to a $9.0 billion estimated contingent
liability accrued as of September 30, 2012. Accordingly, the Department reduced its estimated liability by $9.0
billion and $288.7 billion at the end of fiscal years 2013 and 2012, respectively, via a reduction in expense. The
reduction in the estimated liability in both years is primarily due to a decrease in the amount of estimated future
draws forecasted to be required by the GSEs within the forecast time horizon. The $288.7 billion reduction in 2012
resulted in a remaining contingent liability of $9.0 billion at the end of that fiscal year to reflect the Department’s
forecast of draws that may have been required by the GSEs for the quarter ended December 31, 2012 to meet the 10.0
percent per annum dividend payment requirement in accordance with the pre-amended SPSPAs. As a result of the
amended SPSPAs in which the new dividend payment requirement became operationally effective commencing with
the quarter ended March 31, 2013, coupled with the long-term financial forecasts of the GSEs, the Department
reduced by $9.0 billion the contingent liability as of September 30, 2013. The Department reported this expense
reduction in costs within the Statement of Net Cost.

At September 30, 2013, the maximum remaining contractual commitment to the GSEs for the remaining life of the
SPSPAs was $258.1 billion which, as discussed above, was established on December 31, 2012. At September 30, 2012,
the maximum remaining potential commitment to the GSEs for the remaining life of the SPSPAs was estimated at
$282.3 billion, which was based upon case scenario estimates ranging from $274.0 billion to $291.5 billion.

In determining the contingent liability estimates, the Department relied on the GSEs’ public filings and press releases
concerning their financial statements, monthly summaries, and quarterly credit supplements, as well as non-public,
long-term financial forecasts, the FHFA House Price Index, discussions with each of the GSEs and FHFA, and other
information pertinent to the liability estimates. The forecasts include three potential wind-down scenarios, with
varying assumptions regarding the timing as to when new guarantee mortgage-backed securities would cease being
underwritten by the GSEs. The forecasts also assume a continued gradual wind-down of the retained portfolios (and
corresponding net interest income) through 2018, as directed under the amended SPSPAs for each GSE to reduce the
maximum balance of its retained mortgage portfolio by 15.0 percent per annum beginning December 31, 2013 (a
change from the 10.0 percent per annum prior to the amended SPSPAs). The maximum balance of the GSEs’ retained
mortgage portfolio was initially set at $650 billion as of December 31, 2012, and is required under the amended
SPSPAs to be reduced to $250.0 billion by December 31, 2018.


FINANCIAL PERFORMANCE OF THE GSES
The improved financial performance of the GSEs in 2013 compared to 2012 was primarily attributable to a federal
income tax benefit that the GSEs recognized in their 2013 earnings. The GSEs’ improved financial performance in
2013 also reflects increased guarantee fees on single family mortgages and reduced credit losses due to improving
regional housing markets and a higher quality credit portfolio of mortgage loans originated after 2008, coupled with
the ongoing run-off of troubled loans that were originated during 2005 through 2008.

Under the amended SPSPAs, the Department’s forecasts indicate that neither GSE will fully utilize the amount of
funding available. The Department’s forecasts of future draws by the GSEs may differ from actual experience. Future
actual draw amounts will depend on numerous factors that are difficult to predict including, but not limited to,
changes in government policy with respect to the GSEs, the business cycle, inflation, home prices, unemployment
rates, interest rates, changes in housing preferences, home financing alternatives, availability of debt financing,
market rates of guarantee fees, outcomes of loan refinancings and modifications, new housing programs, and other
applicable factors.


REGULATORY ENVIRONMENT
Pursuant to a provision within the Dodd Frank Act, the Secretary conducted a study and developed recommendations
regarding the options for ending the conservatorship. In 2011, the President delivered to Congress a report from the
Secretary that provided recommendations regarding the options for ending the conservatorship and plans to wind
down the GSEs. To date, Congress has not approved a plan to address the future of the GSEs, thus the GSEs continue
to operate under the direction of their conservator, the FHFA, whose stated strategic goals for the GSEs are to: (i)
build a new infrastructure for the secondary mortgage market; (ii) contract the GSEs’ presence in the marketplace;
and (iii) maintain foreclosure prevention activities and credit availability.

In December 2011, Congress passed the Temporary Payroll Tax Cut Continuation Act of 2011 which was funded by an
increase of ten basis points in the GSEs’ guarantee fees (referred to as “the increased fees”) beginning April 1, 2012,
and is effective through October 1, 2021. The increased fees are to be remitted to the Department and not retained by
the GSEs. Accordingly, the increased fees do not affect the profitability of the GSEs. The Department received its first
remittance of the increased fees from the GSEs on September 28, 2012. For fiscal years 2013 and 2012, the GSEs
remitted to the Department the increased fees totaling $946 million and $35 million, respectively.



H. FR NOTES REPORT NOTE 1 – DEBT ISSUANCE SUSPENSION PERIOD MEASURES (TEXT DATA)
Congress provided the Department with statutory authority to take certain extraordinary measures during a debt
issuance suspension period (DISP) in the event that Treasury debt nears the statutory debt limit. These measures
authorize the Department to depart from its normal debt management practices and exercise legal authorities to
avoid exceeding the statutory debt limit.

The Secretary declared a DISP effective from December 31, 2012 through February 4, 2013. On February 4, 2013,
Congress enacted a law to temporary suspend the debt limit until May 18, 2013. As Congress did not suspend or
increase the debt limit prior to May 18, 2013, the Secretary declared another DISP effective from May 19, 2013
through October 16, 2013, on which date Congress enacted another law to suspend the debt limit through February 7,
2014.

In fiscal year 2013, the Department undertook the following extraordinary measures during the two DISPs: (i)
suspended investments in Treasury debt securities to the Government Securities Investment Fund of the Federal
Employees’ Retirement System Thrift Savings Plan (TSP), the Civil Service Retirement and Disability Trust Fund
(Civil Service Fund), and the Postal Service Retiree Health Benefits Fund (Postal Benefits Fund); (ii) redeemed early a
certain amount of Treasury debt securities held by the Civil Service Fund; (iii) suspended new issuances of State and
Local Government Series securities; and (iv) issued cash management bills to manage short-term financing needs.

When a DISP ends, the Department is required by statute to restore the TSP, Civil Service Fund and Postal Benefits
Fund with the accumulated principal balance of Treasury debt securities that bears such interest rates and maturity
dates necessary to replicate the investments the funds would have held had the DISP not occurred (the uninvested
principal). The Department is also required by statute to pay these funds the related lost interest (forgone interest)
on the uninvested principal. Following the DISP period that ended on February 4, 2013, the Department restored the
funds with the uninvested principal and interest totaling $31 billion and $20 million, respectively. Forgone interest
paid to the funds in connection with DISPs that occurred in fiscal years 2013 and 2012 totaling $20 million and $59
million, respectively, was reported on the Statement of Net Cost as an expense entitled Interest on Debt Held by the
Public, with an offsetting amount reported as Other Budgetary Financing Sources reported on the Statement of
Changes in Net Position.

Since the second DISP (which commenced on May 19, 2013) did not end until October 16, 2013, none of the
uninvested principal and foregone interest payable to the funds as a result of the extraordinary measures had been
restored to the three funds as of September 30, 2013. Uninvested principal owed to the three funds as of September
30, 2013 totaled $247.8 billion, and forgone interest payable to the funds for the period May 19, 2013 through
September 30, 2013 totaled $801 million. Accordingly, the Department recorded a liability for the uninvested
principal and foregone interest payable to the funds as of September 30, 2013. This liability, coupled with an
additional liability for the uninvested principal and foregone interest that was incurred during the DISP period
October 1, 2013 through October 16, 2013, as discussed below, was payable to the three funds subsequent to the
October 16, 2013 ending of the DISP.

The uninvested principal and foregone interest payable as of September 30, 2013 was reported on the Balance Sheet
as a liability, of which $128.3 billion was reported as a Federal Accounts Payable which represented a liability of
combined principal and interest payable to the Civil Service Fund and Postal Benefits Fund which are administered
by the OPM, and the remaining $120.3 billion was reported as a Non-Federal Other Liabilities which represented the
principal and interest payable to the TSP, a public liability. Corresponding amounts were reported as Other Assets
(Without Reciprocals) on the Balance Sheet for the $248.6 billion of uninvested principal and foregone interest owed
to the funds. Additionally, the accrued forgone interest expense of $801 million was reported as an expense on the
Statement of Net Cost, with an offsetting accrued amount on the Statement of Changes in Net Position.

DISP measures such as those discussed above continued from October 1 through October 16, 2013. when the DISP
ended and Congress enacted a law to suspend temporarily the debt limit. In addition to those activities previously
discussed, other types of extraordinary measures were taken during the DISP periods, including temporarily
suspending investments in Treasury debt securities by the ESF, and utilization of FFB to redeem outstanding
Treasury debt securities held by the Civil Service Fund (refer to Note 17). On October 17, 2013, the Department
discontinued its use of extraordinary actions and resumed normal debt management operations. On this date, the
Department restored uninvested principal of $173.9 billion to the TSP, and $117.7 billion and $4.6 billion to the Civil
Service Fund and Postal Benefits Fund, respectively. The Department restored forgone interest to the TSP on
October 18, 2013 in the amount of $653 million. Forgone interest payable to the Civil Service Fund and Postal
Benefits Fund will be restored on the next semi-annual interest payment date of December 31, 2013. As of October 17,
2013, these amounts totaled $562 million and $24 million, respectively. In addition, the Department authorized ESF
to resume investments in Treasury debt securities; however, the Department did not restore the ESF for lost interest
incurred during the DISP in accordance with statute.

On October 1, 2013, the Department, through FFB, exchanged $9.3 billion of Treasury debt securities held that do not
count against the debt limit for an equivalent amount of Treasury debt securities previously held by the Civil Service
Fund and that do count against the debt limit. FFB used the Treasury debt securities it had received from the Civil
Service Fund to repay $8.8 billion of outstanding principal borrowings, including interest, owed to the Fiscal Service.
The Fiscal Service then extinguished the Treasury debt securities it had received from FFB, thereby helping the
Department to remain below the statutory debt limit. The Department, FFB, and the Civil Service Fund took this
extraordinary measure to help prevent Treasury debt from exceeding the statutory debt limit. These transactions
resulted in an additional $9.3 billion outstanding debt obligation owed by FFB to the Civil Service Fund as of October
1, 2013..

I.   FR NOTES REPORT NOTE 4A – DIRECT LOANS RECEIVABLE AND MORTGAGE BACKED SECURITIES
     (TEXT DATA)
The Department administers a number of programs, in addition to the TARP programs, designed to stabilize the
nation’s financial system and restore the flow of credit to consumers, businesses, and homeowners.


STATE AND LOCAL HOUSING FINANCE AGENCY (HFA) INITIATIVE
Under HERA, the Department, together with the FHFA, Fannie Mae, and Freddie Mac, created an initiative in
October 2009 to provide support to HFAs. This initiative was designed to support low mortgage rates and expand
resources for low and middle income borrowers to purchase or rent homes, making them more affordable over the
long term. The HFA Initiative is comprised of two separate programs: (i) the New Issue Bond Program (NIBP) and
(ii) the Temporary Credit and Liquidity Program (TCLP). As of September 30, 2013 and 2012, the HFA net credit
program receivable of $8.4 billion and $12.6 billion, respectively, included a positive subsidy allowance of $915
million and $1.1 billion, respectively, which reflects the Department’s projection that the HFA program will result in a
net cost to the Department after accounting for repayments, interest, and fees.

Under the terms of the NIBP, the Department purchased securities of Fannie Mae and Freddie Mac backed by new
mortgage revenue bonds issued by HFAs. As of September 30, 2013 and 2012, the NIBP gross credit program
receivable was $9.3 billion and $13.7 billion, respectively. The Department performed a financial statement re-
estimate of the NIBP program’s cost as of September 30, 2013 and 2012. These re-estimates resulted in a downward
re-estimate, or a decrease in the cost of the program, of $74 million as of September 30, 2013, and an upward re-
estimate, or increase in cost of the program, of $588 million as of September 30, 2012. The downward re-estimate in
fiscal year 2013 was primarily driven by higher than estimated principal collections. The upward re-estimate in fiscal
year 2012 was primarily driven by lower forecasted prepayment rates and lower than expected market interest rates
which reduced coupon rates for the HFA bonds converted from escrow in fiscal year 2012. The drop in prepayment
rates increases the cost of the program since the HFA bonds carry a lower weighted average coupon than the funding
cost of the program.

Under the terms of the TCLP, the Department purchased participation certificates issued by Fannie Mae and Freddie
Mac, representing participating interests in credit and liquidity facilities that the GSEs are providing to certain HFAs
as part of the program. Fannie Mae and Freddie Mac provided replacement credit and liquidity facilities to HFAs to
help reduce the costs of maintaining existing financing and relieve financial strains on the HFAs. The Department
agreed to support the GSE replacement credit and liquidity facilities by purchasing from the GSEs interests in certain
HFA bonds in the event such bonds were tendered to the GSEs. As of September 30, 2013 and 2012, the liquidity
facilities covered $2.0 billion and $3.9 billion, respectively, of single-family and multi-family variable-rate demand
obligations (VRDOs). As of September 30, 2013 and 2012, none of these bonds had been tendered to the GSEs and,
accordingly, the Department had not disbursed any funds. As such, the Department did not perform September 30,
2013 or 2012 subsidy re-estimates for TCLP.


SMALL BUSINESS LENDING FUND
The Small Business Jobs Act of 2010 (P.L. 111-240) created the SBLF program. Pursuant to the Act, the Department
provided capital to qualified community banks, for purposes of encouraging bank lending to small businesses, by
purchasing qualifying non-cumulative preferred stock or equivalents in each bank. As an incentive to participating
banks to increase lending to small businesses, the dividend rate a bank pays to the Department for SBLF funding will
be reduced as the bank’s small business lending increases. For most banks, the initial dividend rate of 5.0 percent
may be reduced to as low as 1.0 percent. For institutions which did not increase lending by the end of the first two
years of the program, the rate will increase to 7.0 percent, effective for the quarter ending March 31, 2014. The
program provides an incentive for banks to repay loans within 4 ½ years. At that time, the rate will increase to 9.0
percent for banks remaining in the program. The Department treats these purchases of capital as direct loans in
accordance with the requirements of FCRA. The Department’s authority to provide new capital to SBLF participants
expired on September 27, 2011 and, accordingly, there were no new capital disbursements since that date.

As of September 30, 2013 and 2012, SBLF net credit program receivable was $3.6 billion and $3.9 billion,
respectively. These amounts include a positive subsidy allowance of $28 million and $50 million at September 30,
2013 and 2012, respectively, which reflects the Department’s projection that the SBLF program will result in a net
cost to the Department.

The Department performed financial statement re-estimates of the program’s cost as of September 30, 2013 and 2012
which resulted in an upward re-estimate, or an increase in the cost of the program, of $34 million and $105 million.
Both the 2013 and 2012 upward re-estimates were driven by changes in performance assumptions, actual
performance to-date, and actual program funding costs. The 2013 performance assumptions anticipate an overall
cost to the program due to lower dividend rates, both actual and projected, paid by participating institutions relative
to previously projected dividend rates. These lower dividend rates are the result of participating banks increasing
small business lending to qualify for lower dividend rates.


INTERNATIONAL MONETARY FUND
The Supplemental Appropriations Act of 2009 authorized an increase in the U.S. quota in the IMF, as well as an
increase in U.S. participation in the New Arrangements to Borrow (NAB), one of the IMF’s supplemental borrowing
arrangements. The legislation applied FCRA to both program increases and, thus, the program increases are treated
as direct loans to the IMF. For U.S. budget and accounting purposes, there are effectively two portions of the IMF
quota and NAB programs. As of September 30, 2013 and 2012, the U.S. quota in the IMF totaled $64.6 billion and
$65.0 billion, respectively, and comprised a FCRA and non-FCRA portion of $7.6 billion and $57.0 billion,
respectively, at September 30, 2013, and $7.7 billion and $57.3 billion, respectively, at September 30, 2012. As of
September 30, 2013 and 2012, the U.S. NAB arrangement with the IMF totaled $106.0 billion and $106.5 billion,
respectively, and comprised a FCRA and non-FCRA portion of $95.8 billion and $10.2 billion, respectively, at
September 30, 2013, and $96.3 billion and $10.2 billion, respectively, at September 30, 2012. These designations
only affect the manner in which the Department accounts for the use and repayment of these funds. The U.S.
commitments to the IMF are denominated in SDRs and, thus, the dollar amounts of these commitments fluctuate
with the SDR valuation rate. The following is a discussion of the FCRA portions of both the U.S. quota and NAB
programs.

United States Quota in the IMF
On March 25, 2011, the Department disbursed $2.0 billion (SDR 1.2 billion) to increase the reserve asset portion of
the U.S. quota. The undisbursed FCRA portion is reported as a letter of credit. At September 30, 2013 and 2012, the
FCRA portion of the U.S. quota in the IMF had a net credit program receivable of $1.9 billion, including positive
subsidy allowances of $99 million and $137 million, respectively, which reflect the Department’s projection that the
program will result in a net cost to the Department after accounting for repayments and net interest. The Department
performed financial statement re-estimates of the program’s cost as of September 30, 2013 and 2012. The re-
estimates resulted in an increase in program costs (or an upward re-estimate) of $5 million and $67 million for fiscal
years 2013 and 2012, respectively, primarily due to a fluctuation in the valuation of the SDR rate since the calculation
of the prior fiscal year’s re-estimate.

New Arrangements To Borrow

FCRA disbursements outstanding under the NAB for fiscal years ended 2013 and 2012 totaled $3.7 billion and $1.5
billion, respectively. The program had a negative subsidy allowance of $15 million and $21 million as of September
30, 2013 and 2012, respectively.

The Department performed a financial statement re-estimate of the program’s cost as of September 30, 2013 and
2012. The re-estimates as of September 30, 2013 and 2012 resulted in a decrease in the projected cost of the program
(or a downward re-estimate) of $1 million and $25 million, respectively, due to, among other factors, the fluctuation
in the valuation of the SDR rate since the prior year’s re-estimate.
                                                             U.S.Department of the Treasury                              12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2013-SEPTEMBER        2012-SEPTEMBER
 BS              Accounts Receivable                              A                   D                        433                   525
                                                                                 Variance:                          0                     0

Trading          Name                           Status 2013-SEPTEMBER      2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      9                        13                   13                     0
 1400 Department of the Interior                                    24                        19                   19                     0
 2800 Social Security Administration                                 4                         5                    5                     0
 3600 DEPARTMENT OF VETERANS                                         1                         5                    5                     0
        AFFAIRS
 4700 General Services Administration                              171                       177                  177                     0
 7000 Department of Homeland Security                                1                         0                    0                     0
 7500 Department of Health and Human                                87                        81                   81                     0
        Services
 8900 Department of Energy                                           8                         0                    0                     0
 9500 Independent and Other Agencies                                62                        60                   60                     0
 DE00 Department of Defense                                         66                       165                  165                     0
                                  Total                            433                       525                  525                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                              12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2013-SEPTEMBER        2012-SEPTEMBER
 BS              Advances to Others and Prepayments               A                   D                         2                     2
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2013-SEPTEMBER      2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1800 United States Postal Service                                  2                          2                    2                     0
                                  Total                             2                          2                    2                     0


Agency FS Status CP Line Description                              Account Type        NB           2013-SEPTEMBER        2012-SEPTEMBER
 BS              Federal Investments                              A                   D                         0                    968
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2013-SEPTEMBER      2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 5100 Federal Deposit Insurance Corporation                         0                        968                  968                     0
                                  Total                             0                        968                  968                     0




                                                                          -2-
                                                             U.S.Department of the Treasury                                 12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2013-SEPTEMBER        2012-SEPTEMBER
 BS              Interest Receivable                              A                   D                           282                   531
                                                                                 Variance:                             0                     0

Trading        Name                             Status 2013-SEPTEMBER      2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     22                         342                   342                     0
 1601 Department of Labor                                           49                           0                     0                     0
 1800 United States Postal Service                                  49                          48                    48                     0
 2500 National Credit Union Administration                           2                           2                     2                     0
 4700 General Services Administration                               30                          32                    32                     0
 6000 Railroad Retirement Board                                     42                          44                    44                     0
 8900 Department of Energy                                          79                          55                    55                     0
 9100 Department of Education                                        8                           6                     6                     0
 9500 Independent and Other Agencies                                 1                           2                     2                     0
                                   Total                           282                         531                   531                     0

Agency FS Status CP Line Description                              Account Type        NB              2013-SEPTEMBER        2012-SEPTEMBER
 BS              Loans Receivable                                 A                   D                        1,122,973              946,705
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2013-SEPTEMBER      2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                102,415                       93,537                93,537                    0
 1300 Department of Commerce                                       576                          554                   554                    0
 1400 Department of the Interior                                    97                           94                    94                    0
 1601 Department of Labor                                       35,673                       38,997                38,997                    0

                                                                          -3-
                                                            U.S.Department of the Treasury                             12-16-2013 15:10:43
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                           Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2013-SEPTEMBER       2012-SEPTEMBER         Previously Reported    Line item Changes
Partner
 1800 United States Postal Service                              15,000                 15,000                 15,000                    0
 1900 Department of State                                            3                      3                      3                    0
 2500 National Credit Union Administration                       4,725                  3,200                  3,200                    0
 3600 DEPARTMENT OF VETERANS                                       756                    843                    843                    0
        AFFAIRS
 4700 General Services Administration                            1,733                  1,819                  1,819                    0
 6000 Railroad Retirement Board                                  3,587                  3,402                  3,402                    0
 6800 Environmental Protection Agency                                0                      1                      1                    0
 6900 Department of Transportation                               6,959                  5,194                  5,194                    0
 7000 Department of Homeland Security                           24,076                 18,073                 18,073                    0
 7200 Agency for International Development                         481                    478                    478                    0
 7300 Small Business Administration                              8,088                  7,920                  7,920                    0
 7500 Department of Health and Human                               539                    151                    151                    0
        Services
 8300 Export-Import Bank of the United States                   18,102                 11,301                 11,301                    0
 8600 Department of Housing and Urban                           26,079                 11,568                 11,568                    0
        Development
 8900 Department of Energy                                      18,001                 15,786                15,786                     0
 9100 Department of Education                                  852,429                715,297               715,297                     0
 9500 Independent and Other Agencies                             2,479                  2,534                 2,534                     0
 DE00 Department of Defense                                      1,175                    953                   953                     0
                                  Total                      1,122,973                946,705               946,705                     0




                                                                          -4-
                                                             U.S.Department of the Treasury                               12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2013                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB           2013-SEPTEMBER        2012-SEPTEMBER
 BS              Other Assets (without reciprocals)                A                   D                    17,123,357            16,202,179
                                                                                  Variance:                           0                    0

Trading        Name                             Status 2013-SEPTEMBER       2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                  17,123,357                16,202,179            16,202,179                    0
                                  Total                      17,123,357                16,202,179            16,202,179                    0


Agency FS Status CP Line Description                               Account Type        NB           2013-SEPTEMBER        2012-SEPTEMBER
 BS              Accounts Payable                                  L                   C                      128,489                 256
                                                                                  Variance:                           0                    0

Trading         Name                            Status 2013-SEPTEMBER       2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     25                        30                    30                     0
 1400 Department of the Interior                                     4                        10                    10                     0
 1500 Department of Justice                                         19                         6                     6                     0
 1601 Department of Labor                                            1                        20                    20                     0
 1800 United States Postal Service                                   9                        14                    14                     0
 1900 Department of State                                            1                         0                     0                     0
 2400 Office of Personnel Management                           128,274                         4                     4                     0
 3600 DEPARTMENT OF VETERANS                                         3                         3                     3                     0
        AFFAIRS
 4700 General Services Administration                                1                         6                      6                    0
 6900 Department of Transportation                                   0                         2                      2                    0
 7000 Department of Homeland Security                               10                         1                      1                    0

                                                                           -5-
                                                             U.S.Department of the Treasury                                 12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2013                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2013-SEPTEMBER         2012-SEPTEMBER            Previously Reported    Line item Changes
Partner
 7200 Agency for International Development                         3                             4                     4                     0
 7300 Small Business Administration                                2                             2                     2                     0
 7500 Department of Health and Human                              13                            16                    16                     0
        Services
 8300 Export-Import Bank of the United States                     64                            67                    67                     0
 9100 Department of Education                                      4                             6                     6                     0
 9500 Independent and Other Agencies                               5                            13                    13                     0
 9999 Unidentified                                                 9                            11                    11                     0
 DE00 Department of Defense                                       42                            41                    41                     0
                                  Total                        (128,489)                      (256)                 (256)                    0

Agency FS Status CP Line Description                               Account Type        NB             2013-SEPTEMBER        2012-SEPTEMBER
 BS              Advances from Others and Deferred Credits         L                   C                           47                    57
                                                                                  Variance:                            0                     0

Trading        Name                             Status 2013-SEPTEMBER       2012-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                          3                          8                     8                     0
 1500 Department of Justice                                           1                          2                     2                     0
 1601 Department of Labor                                             4                         10                    10                     0
 1900 Department of State                                            18                         13                    13                     0
 7000 Department of Homeland Security                                 2                          1                     1                     0
 7200 Agency for International Development                            8                          9                     9                     0
 7300 Small Business Administration                                   1                          1                     1                     0


                                                                           -6-
                                                             U.S.Department of the Treasury                                12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER            Previously Reported    Line item Changes
Partner
 8600 Department of Housing and Urban                                6                          8                     8                     0
        Development
 9500 Independent and Other Agencies                                 4                          5                     5                     0
                                  Total                            (47)                       (57)                  (57)                    0




Agency FS Status CP Line Description                              Account Type        NB             2013-SEPTEMBER        2012-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                          181                   247
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          129                       124                    124                     0
 2400 Office of Personnel Management                                41                        96                     96                     0
 9900 Treasury General Fund                                         11                        27                     27                     0
                                  Total                           (181)                      (247)                 (247)                    0




                                                                          -7-
                                                             U.S.Department of the Treasury                                 12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2013                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB             2013-SEPTEMBER        2012-SEPTEMBER
 BS              Federal Debt                                     L                    C                       4,800,041             4,822,607
                                                                                 Variance:                             0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    138                          142                   142                    0
 1400 Department of the Interior                                 7,508                        6,595                 6,595                    0
 1500 Department of Justice                                      5,172                        4,589                 4,589                    0
 1601 Department of Labor                                       29,554                       20,730                20,730                    0
 1602 PENSION BENEFIT GUARANTY                                  23,918                       22,533                22,533                    0
        CORPORATION
 1800 United States Postal Service                                2,860                    2,590                    2,590                    0
 1900 Department of State                                        17,408                   16,928                   16,928                    0
 2400 Office of Personnel Management                            828,067                  934,905                  934,905                    0
 2500 National Credit Union Administration                       11,411                   13,020                   13,020                    0
 2700 Federal Communications Commission                           7,194                    6,540                    6,540                    0
 2800 Social Security Administration                          2,756,390                2,719,042                2,719,042                    0
 3600 DEPARTMENT OF VETERANS                                      8,493                    9,196                    9,196                    0
        AFFAIRS
 5000 Securities and Exchange Commission                           434                          451                   451                    0
 5100 Federal Deposit Insurance Corporation                     38,833                       41,676                41,676                    0
 6000 Railroad Retirement Board                                  2,307                        2,340                 2,340                    0
 6400 Tennessee Valley Authority                                    25                           25                    25                    0
 6800 Environmental Protection Agency                            4,571                        4,613                 4,613                    0
 6900 Department of Transportation                              15,765                       22,271                22,271                    0
 7000 Department of Homeland Security                            5,136                        4,537                 4,537                    0


                                                                           -8-
                                                             U.S.Department of the Treasury                                  12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2013                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2013-SEPTEMBER       2012-SEPTEMBER            Previously Reported     Line item Changes
Partner
 7500 Department of Health and Human                           278,915                   303,152                 303,152                      0
        Services
 7802 Farm Credit System Insurance                                3,298                       3,187                 3,187                     0
        Corporation
 8000 National Aeronautics and Space                                 17                         17                     17                     0
        Administration
 8600 Department of Housing and Urban                             1,814                       4,889                 4,889                     0
        Development
 8900 Department of Energy                                      36,708                    34,846                  34,846                      0
 9500 Independent and Other Agencies                             8,536                     7,833                   7,833                      0
 DE00 Department of Defense                                    705,569                   635,960                 635,960                      0
                                  Total                      (4,800,041)               (4,822,607)             (4,822,607)                    0

Agency FS Status CP Line Description                               Account Type        NB             2013-SEPTEMBER         2012-SEPTEMBER
 BS              Interest Payable                                  L                   C                        43,157                 45,592
                                                                                  Variance:                             0                     0

Trading         Name                            Status 2013-SEPTEMBER       2012-SEPTEMBER            Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      1                           1                     1                      0
 1400 Department of the Interior                                    17                          20                    20                      0
 1601 Department of Labor                                          130                         111                   111                      0
 1602 PENSION BENEFIT GUARANTY                                     133                         162                   162                      0
        CORPORATION
 1900 Department of State                                           163                         170                   170                     0
 2400 Office of Personnel Management                              8,184                       8,903                 8,903                     0

                                                                           -9-
                                                             U.S.Department of the Treasury                              12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2013-SEPTEMBER      2012-SEPTEMBER         Previously Reported     Line item Changes
Partner
 2500 National Credit Union Administration                          63                     81                      81                     0
 2700 Federal Communications Commission                              7                      8                       8                     0
 2800 Social Security Administration                            25,071                 26,482                  26,482                     0
 3600 DEPARTMENT OF VETERANS                                        99                    113                     113                     0
        AFFAIRS
 5000 Securities and Exchange Commission                             0                      1                       1                     0
 5100 Federal Deposit Insurance Corporation                        302                    314                     314                     0
 6000 Railroad Retirement Board                                      4                      4                       4                     0
 6800 Environmental Protection Agency                                6                      7                       7                     0
 6900 Department of Transportation                                  56                     60                      60                     0
 7000 Department of Homeland Security                               11                     14                      14                     0
 7500 Department of Health and Human                             2,808                  3,230                   3,230                     0
        Services
 7802 Farm Credit System Insurance                                  19                     16                      16                     0
        Corporation
 8600 Department of Housing and Urban                               11                     10                      10                     0
        Development
 8900 Department of Energy                                          99                    120                     120                     0
 9500 Independent and Other Agencies                                44                     58                      58                     0
 DE00 Department of Defense                                      5,929                  5,707                   5,707                     0
                                  Total                        (43,157)               (45,592)                (45,592)                    0




                                                                          - 10 -
                                                                  U.S.Department of the Treasury                                   12-16-2013 15:10:43
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                 Fiscal Year: 2013                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                             Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                     Account Type         NB            2013-SEPTEMBER         2012-SEPTEMBER
 BS              Liability to the General Fund for custodial and other   L                    C                      1,417,423              1,257,752
                 non-entity assets
                                                                                         Variance:                            0                     0

Trading                                                    2013-SEPTEMBER         2012-SEPTEMBER            Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                        1,417,423                   1,257,752              1,257,752                     0
                                  Total                           (1,417,423)                 (1,257,752)            (1,257,752)                    0


Agency FS Status CP Line Description                                     Account Type         NB            2013-SEPTEMBER         2012-SEPTEMBER
 BS              Other Liabilities (without reciprocals)                 L                    C                          3                     (19)
                                                                                         Variance:                            0                     0

Trading          Name                           Status 2013-SEPTEMBER             2012-SEPTEMBER            Previously Reported     Line item Changes
Partner
 1400 Department of the Interior                                           3                           1                      1                     0
 2400 Office of Personnel Management                                       0                          (2)                    (2)                    0
 4700 General Services Administration                                      0                          (5)                    (5)                    0
 7000 Department of Homeland Security                                      0                          (7)                    (7)                    0
 7500 Department of Health and Human                                       0                          (2)                    (2)                    0
        Services
 9500 Independent and Other Agencies                                       0                          (4)                    (4)                    0
                                  Total                                   (3)                         19                     19                     0




                                                                                - 11 -
                                                             U.S.Department of the Treasury                              12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2013                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB         2013-SEPTEMBER        2012-SEPTEMBER
 BS              Transfers Payable                                L                     C                       28                    0
                                                                                   Variance:                        0                     0

Trading       Name                              Status 2013-SEPTEMBER      2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1500 Department of Justice                                          1                         0                    0                     0
 7000 Department of Homeland Security                               27                         0                    0                     0
                                  Total                            (28)                        0                    0                     0




                                                                          - 12 -
                                                             U.S.Department of the Treasury                                   12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2013                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB              2013-SEPTEMBER        2012-SEPTEMBER
 NCS             Borrowing and Other Interest Revenue (Exchange)   ER                   C                         37,614                35,511
                                                                                   Variance:                             0                     0

Trading          Name                         Status 2013-SEPTEMBER         2012-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 4,161                          4,166                  4,166                    0
 1300 Department of Commerce                                       25                             28                     28                    0
 1400 Department of the Interior                                    3                              3                      3                    0
 1601 Department of Labor                                       1,196                          1,475                  1,475                    0
 1800 United States Postal Service                                189                            187                    187                    0
 2500 National Credit Union Administration                          9                              5                      5                    0
 2700 Federal Communications Commission                             0                              2                      2                    0
 3600 DEPARTMENT OF VETERANS                                       41                            116                    116                    0
        AFFAIRS
 4700 General Services Administration                             118                            124                   124                     0
 6000 Railroad Retirement Board                                   104                            117                   117                     0
 6900 Department of Transportation                                287                            217                   217                     0
 7000 Department of Homeland Security                             120                            104                   104                     0
 7200 Agency for International Development                         25                             24                    24                     0
 7300 Small Business Administration                               363                            436                   436                     0
 7500 Department of Health and Human                               22                              4                     4                     0
        Services
 8300 Export-Import Bank of the United States                     667                            524                   524                     0
 8600 Department of Housing and Urban                             928                            465                   465                     0
        Development
 8900 Department of Energy                                        723                             709                   709                    0
 9100 Department of Education                                  28,454                          26,643                26,643                    0

                                                                          - 13 -
                                                             U.S.Department of the Treasury                                  12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2013                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2013-SEPTEMBER      2012-SEPTEMBER             Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                               123                         118                   118                      0
 DE00 Department of Defense                                         56                          44                    44                      0
                                  Total                        (37,614)                    (35,511)               (35,511)                    0




Agency FS Status CP Line Description                              Account Type          NB            2013-SEPTEMBER         2012-SEPTEMBER
 NCS             Borrowings Gains                                 ER                    C                          32                     46
                                                                                   Variance:                            0                     0

Trading       Name                              Status 2013-SEPTEMBER      2012-SEPTEMBER             Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                     18                          45                     45                     0
 8900 Department of Energy                                          14                           1                      1                     0
                                  Total                            (32)                        (46)                   (46)                    0




                                                                          - 14 -
                                                             U.S.Department of the Treasury                               12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2013                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2013-SEPTEMBER        2012-SEPTEMBER
 NCS             Buy/Sell Revenue                                 ER                   C                       1,039                 1,083
                                                                                  Variance:                          0                     0

Trading          Name                           Status 2013-SEPTEMBER      2012-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      9                          9                    9                     0
 1300 Department of Commerce                                         8                          4                    4                     0
 1500 Department of Justice                                          3                          3                    3                     0
 1601 Department of Labor                                           81                         87                   87                     0
 1900 Department of State                                            8                          6                    6                     0
 2400 Office of Personnel Management                                 1                          1                    1                     0
 2800 Social Security Administration                               683                        722                  722                     0
 3600 DEPARTMENT OF VETERANS                                        11                         11                   11                     0
        AFFAIRS
 4700 General Services Administration                                3                          3                    3                     0
 5100 Federal Deposit Insurance Corporation                          1                          0                    0                     0
 6900 Department of Transportation                                   1                          0                    0                     0
 7000 Department of Homeland Security                               18                          7                    7                     0
 7200 Agency for International Development                           4                          7                    7                     0
 7300 Small Business Administration                                  1                          0                    0                     0
 7500 Department of Health and Human                               133                        150                  150                     0
        Services
 8000 National Aeronautics and Space                                 1                          1                    1                     0
        Administration
 8600 Department of Housing and Urban                               15                          7                    7                     0
        Development
 9100 Department of Education                                        1                          1                    1                     0


                                                                         - 15 -
                                                             U.S.Department of the Treasury                                     12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2013                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2013-SEPTEMBER      2012-SEPTEMBER                Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                                55                             61                     61                     0
 DE00 Department of Defense                                          2                              3                      3                     0
                                  Total                         (1,039)                        (1,083)                (1,083)                    0




Agency FS Status CP Line Description                              Account Type          NB               2013-SEPTEMBER         2012-SEPTEMBER
 NCS             Benefit Program Costs                            GC                    D                           1,734                  1,756
                                                                                   Variance:                               0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER                Previously Reported     Line item Changes
Partner
 1601 Department of Labor                                           71                           120                     120                     0
 2400 Office of Personnel Management                             1,650                         1,636                   1,636                     0
 2800 Social Security Administration                                13                             0                       0                     0
                                  Total                          1,734                         1,756                   1,756                     0




                                                                          - 16 -
                                                            U.S.Department of the Treasury                                 12-16-2013 15:10:43
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                 Fiscal Year: 2013                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                     Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                             Account Type         NB             2013-SEPTEMBER        2012-SEPTEMBER
 NCS             Borrowing and Other Interest Expense            GC                   D                         8,211                 8,746
                                                                                 Variance:                             0                    0

Trading          Name                         Status 2013-SEPTEMBER       2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                   586                         505                   505                     0
 1300 Department of Commerce                                        2                           2                     2                     0
 1400 Department of the Interior                                    3                           2                     2                     0
 1900 Department of State                                           0                           1                     1                     0
 2700 Federal Communications Commission                             0                           2                     2                     0
 3600 DEPARTMENT OF VETERANS                                      154                         216                   216                     0
        AFFAIRS
 6900 Department of Transportation                                 43                          29                    29                     0
 7000 Department of Homeland Security                               7                           0                     0                     0
 7200 Agency for International Development                        127                         112                   112                     0
 7300 Small Business Administration                               167                         258                   258                     0
 7500 Department of Health and Human                               23                           7                     7                     0
        Services
 8300 Export-Import Bank of the United States                     224                          179                   179                    0
 8600 Department of Housing and Urban                           2,662                        1,917                 1,917                    0
        Development
 8900 Department of Energy                                        107                          205                   205                    0
 9100 Department of Education                                   4,052                        5,271                 5,271                    0
 9500 Independent and Other Agencies                               51                           38                    38                    0
 DE00 Department of Defense                                         3                            2                     2                    0
                                  Total                         8,211                        8,746                 8,746                    0


                                                                        - 17 -
                                                           U.S.Department of the Treasury                                 12-16-2013 15:10:43
                                                           Financial Management Service
                                                       Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2013                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                             Account Type          NB           2013-SEPTEMBER        2012-SEPTEMBER
 NCS             Buy/Sell Costs                                  GC                    D                       3,798                 2,044
                                                                                  Variance:                          0                     0

Trading          Name                         Status 2013-SEPTEMBER       2012-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    18                          49                   49                     0
 1300 Department of Commerce                                        5                           6                    6                     0
 1400 Department of the Interior                                1,915                          15                   15                     0
 1500 Department of Justice                                        20                          15                   15                     0
 1601 Department of Labor                                           6                           6                    6                     0
 1800 United States Postal Service                                209                         248                  248                     0
 1900 Department of State                                          19                          19                   19                     0
 2400 Office of Personnel Management                              344                          23                   23                     0
 2800 Social Security Administration                                1                           0                    0                     0
 4700 General Services Administration                             809                         831                  831                     0
 5100 Federal Deposit Insurance Corporation                         7                           6                    6                     0
 6400 Tennessee Valley Authority                                    0                           3                    3                     0
 6800 Environmental Protection Agency                               2                          21                   21                     0
 6900 Department of Transportation                                 79                         339                  339                     0
 7000 Department of Homeland Security                             195                         178                  178                     0
 7200 Agency for International Development                         28                          43                   43                     0
 7500 Department of Health and Human                               44                          47                   47                     0
        Services
 8300 Export-Import Bank of the United States                      (3)                         66                   66                     0
 8600 Department of Housing and Urban                               1                           0                    0                     0
        Development


                                                                         - 18 -
                                                              U.S.Department of the Treasury                                 12-16-2013 15:10:43
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2013                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2013-SEPTEMBER       2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 8900 Department of Energy                                            7                          10                    10                     0
 9500 Independent and Other Agencies                                 84                          96                    96                     0
 DE00 Department of Defense                                           8                          23                    23                     0
                                  Total                           3,798                        2,044                 2,044                    0



Agency FS Status CP Line Description                               Account Type         NB             2013-SEPTEMBER        2012-SEPTEMBER
 NCS             Federal Securities Interest Expense               GC                   D                        177,831               187,285
                                                                                   Variance:                             0                    0

Trading         Name                            Status 2013-SEPTEMBER       2012-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                       5                            5                     5                    0
 1400 Department of the Interior                                    106                          114                   114                    0
 1500 Department of Justice                                           6                            4                     4                    0
 1601 Department of Labor                                           619                          462                   462                    0
 1602 PENSION BENEFIT GUARANTY                                    1,207                        1,008                 1,008                    0
        CORPORATION
 1800 United States Postal Service                                    0                         1                       1                     0
 1900 Department of State                                           676                       715                     715                     0
 2400 Office of Personnel Management                             33,922                    37,035                  37,035                     0
 2500 National Credit Union Administration                          200                       214                     214                     0
 2700 Federal Communications Commission                              22                        27                      27                     0
 2800 Social Security Administration                            104,239                   110,788                 110,788                     0

                                                                          - 19 -
                                                             U.S.Department of the Treasury                             12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2013                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2013-SEPTEMBER     2012-SEPTEMBER          Previously Reported    Line item Changes
Partner
 3600 DEPARTMENT OF VETERANS                                       425                    482                    482                     0
        AFFAIRS
 5000 Securities and Exchange Commission                             1                      1                       1                    0
 5100 Federal Deposit Insurance Corporation                        146                    131                     131                    0
 6000 Railroad Retirement Board                                     52                     46                      46                    0
 6800 Environmental Protection Agency                               29                    155                     155                    0
 6900 Department of Transportation                                 254                    252                     252                    0
 7000 Department of Homeland Security                               23                     26                      26                    0
 7500 Department of Health and Human                            12,054                 13,892                  13,892                    0
        Services
 7802 Farm Credit System Insurance                                  34                     49                     49                     0
        Corporation
 8000 National Aeronautics and Space                                 1                      1                       1                    0
        Administration
 8600 Department of Housing and Urban                               54                  1,293                   1,293                    0
        Development
 8900 Department of Energy                                       1,440                  1,415                   1,415                    0
 9500 Independent and Other Agencies                               186                    201                     201                    0
 DE00 Department of Defense                                     22,130                 18,968                  18,968                    0
                                  Total                        177,831                187,285                187,285                     0




                                                                         - 20 -
                                                               U.S.Department of the Treasury                               12-16-2013 15:10:43
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2013                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                        Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type         NB           2013-SEPTEMBER        2012-SEPTEMBER
 NCS             Imputed Costs                                      GC                   D                        776                   813
                                                                                    Variance:                          0                     0

Trading         Name                            Status 2013-SEPTEMBER        2012-SEPTEMBER           Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 771                        807                  807                     0
 7000 Department of Homeland Security                                  5                          6                    6                     0
                                  Total                              776                        813                  813                     0

Agency FS Status CP Line Description                                Account Type         NB           2013-SEPTEMBER        2012-SEPTEMBER
 NCS             Other Expenses (without reciprocals)               GC                   D                        469                   489
                                                                                    Variance:                          0                     0

Trading        Name                             Status 2013-SEPTEMBER        2012-SEPTEMBER           Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                          469                        489                  489                     0
                                  Total                              469                        489                  489                     0




                                                                           - 21 -
                                                                U.S.Department of the Treasury                                     12-16-2013 15:10:43
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2013                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type           NB               2013-SEPTEMBER         2012-SEPTEMBER
 SCNP            Accrual for Non-entity Amounts to be Collected and CF                     D                          (2,204)                (2,139)
                 Transferred to the General Fund
                                                                                      Variance:                               0                     0

Trading                                                  2013-SEPTEMBER       2012-SEPTEMBER                Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                        (2,204)                        (2,139)                (2,139)                    0
                                  Total                            (2,204)                        (2,139)                (2,139)                    0


Agency FS Status CP Line Description                                 Account Type          NB               2013-SEPTEMBER         2012-SEPTEMBER
 SCNP            Expenditure Transfers-out of financing sources      CF                    D                             30                     0
                                                                                      Variance:                               0                     0

Trading       Name                              Status 2013-SEPTEMBER         2012-SEPTEMBER                Previously Reported     Line item Changes
Partner
 1500 Department of Justice                                             1                              0                      0                     0
 7000 Department of Homeland Security                                  29                              0                      0                     0
                                  Total                                30                              0                      0                     0




                                                                             - 22 -
                                                                U.S.Department of the Treasury                                     12-16-2013 15:10:43
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                         Fiscal Year: 2013                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                            Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                    Account Type         NB              2013-SEPTEMBER        2012-SEPTEMBER
 SCNP            Non-Entity Collections Transferred to the General      CF                   D                         180,345               48,601
                 Fund
                                                                                        Variance:                             0                     0

Trading                                                  2013-SEPTEMBER          2012-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                          180,345                        48,601                48,601                    0
                                  Total                              180,345                        48,601                48,601                    0


Agency FS Status CP Line Description                                    Account Type         NB              2013-SEPTEMBER        2012-SEPTEMBER
 SCNP            Nonexpenditure Transfers-out of unexpended             CF                   D                            0                     43
                 appropriations and financing sources
                                                                                        Variance:                             0                     0

Trading                                                  2013-SEPTEMBER          2012-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 6900 Department of Transportation                                        0                            40                    40                     0
 7200 Agency for International Development                                0                             3                     3                     0
                                  Total                                   0                            43                    43                     0




                                                                               - 23 -
                                                             U.S.Department of the Treasury                                  12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2013                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB             2013-SEPTEMBER        2012-SEPTEMBER
 SCNP            Transfers-out Without Reimbursement              CF                    D                           42                    47
                                                                                   Variance:                            0                     0

Trading       Name                              Status 2013-SEPTEMBER      2012-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                         0                            1                     1                     0
 1500 Department of Justice                                          3                            2                     2                     0
 7000 Department of Homeland Security                               39                           44                    44                     0
                                  Total                             42                           47                    47                     0

Agency FS Status CP Line Description                              Account Type          NB             2013-SEPTEMBER        2012-SEPTEMBER
 SCNP            Imputed Financing Source                         F                     C                          776                   812
                                                                                   Variance:                            0                     0

Trading         Name                            Status 2013-SEPTEMBER      2012-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                               771                         806                    806                     0
 7000 Department of Homeland Security                                5                           6                      6                     0
                                  Total                           (776)                        (812)                 (812)                    0




                                                                          - 24 -
                                                                U.S.Department of the Treasury                                  12-16-2013 15:10:43
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2013                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB             2013-SEPTEMBER        2012-SEPTEMBER
 SCNP            Nonexpenditure transfers-in of unexpended           F                     C                           25                   185
                 appropriations and financing sources
                                                                                      Variance:                            0                     0

Trading                                                  2013-SEPTEMBER       2012-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 6900 Department of Transportation                                      0                          40                     40                     0
 7200 Agency for International Development                             25                         145                    145                     0
                                  Total                               (25)                        (185)                 (185)                    0

Agency FS Status CP Line Description                                 Account Type          NB             2013-SEPTEMBER        2012-SEPTEMBER
 SCNP            Other budgetary financing sources                   F                     C                        11,903                96,366
                                                                                      Variance:                            0                     0

Trading          Name                           Status 2013-SEPTEMBER         2012-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                         2                            3                     3                     0
 1400 Department of the Interior                                        1                            0                     0                     0
 1500 Department of Justice                                             3                            1                     1                     0
 1601 Department of Labor                                               1                            0                     0                     0
 3600 DEPARTMENT OF VETERANS                                            2                            7                     7                     0
        AFFAIRS
 4700 General Services Administration                                   0                          19                     19                     0
 6900 Department of Transportation                                     19                          24                     24                     0
 7000 Department of Homeland Security                                 130                         121                    121                     0
 7500 Department of Health and Human                                    2                          20                     20                     0
        Services
 8900 Department of Energy                                              8                            1                     1                     0

                                                                             - 25 -
                                                                U.S.Department of the Treasury                                    12-16-2013 15:10:43
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2013                                  Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                       Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2013-SEPTEMBER         2012-SEPTEMBER               Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                                    3                             34                    34                     0
 9900 Treasury General Fund                                        11,699                         95,995                95,995                     0
 DE00 Department of Defense                                            33                            141                   141                     0
                                  Total                           (11,903)                    (96,366)                 (96,366)                    0



Agency FS Status CP Line Description                                Account Type           NB              2013-SEPTEMBER         2012-SEPTEMBER
 CUST            Accrual for Non-entity Amounts to be Collected and CF                     D                          (653)                  4,111
                 Transferred to the General Fund
                                                                                      Variance:                              0                     0

Trading                                                  2013-SEPTEMBER       2012-SEPTEMBER               Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                          (653)                        4,111                  4,111                     0
                                  Total                              (653)                        4,111                  4,111                     0




                                                                             - 26 -
                                                                U.S.Department of the Treasury                                 12-16-2013 15:10:43
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                        Fiscal Year: 2013                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                           Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                  Account Type          NB           2013-SEPTEMBER        2012-SEPTEMBER
 CUST            Expenditure Transfers-out of financing sources       CF                    D                         53                   128
                                                                                       Variance:                          0                     0

Trading        Name                             Status 2013-SEPTEMBER          2012-SEPTEMBER            Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                             53                         128                  128                     0
                                  Total                                 53                         128                  128                     0


Agency FS Status CP Line Description                                  Account Type          NB           2013-SEPTEMBER        2012-SEPTEMBER
 CUST            Non-Entity Collections Transferred to the General    CF                    D                     2,590,415             2,259,932
                 Fund
                                                                                       Variance:                          0                     0

Trading                                                  2013-SEPTEMBER        2012-SEPTEMBER            Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                       2,590,415                  2,259,932             2,259,932                    0
                                  Total                           2,590,415                  2,259,932             2,259,932                    0




                                                                              - 27 -
                                                             U.S.Department of the Treasury                                  12-16-2013 15:10:43
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2013                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB             2013-SEPTEMBER        2012-SEPTEMBER
 CUST            Other budgetary financing sources                F                     C                           19                  (487)
                                                                                   Variance:                            0                     0

Trading        Name                             Status 2013-SEPTEMBER      2012-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                     0                         (487)                 (487)                    0
 9900 Treasury General Fund                                         19                            0                     0                     0
                                   Total                           (19)                        487                    487                     0

Agency FS Status CP Line Description                              Account Type          NB             2013-SEPTEMBER        2012-SEPTEMBER
 CUST            Other non-budgetary financing sources            F                     C                         (763)                   0
                                                                                   Variance:                            0                     0

Trading       Name                              Status 2013-SEPTEMBER      2012-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                  (763)                           0                     0                     0
                                   Total                           763                            0                     0                     0




                                                                          - 28 -
                                                                                                                                                                           12/16/2013 15:09:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 01             Taxes                                                                                         Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                        Agency Notes:        OI - Appendix A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                                                Line Attributes: Dollars
                                                                                                                        Rounding Method: Millions                    Decimal: Zero
Line Status   Line Description        NB      2013 - SEPTEMBER         2012 - SEPTEMBER              Previously Rptd       Line Item Changes
 1            Estimated realized      Debit                 85,000                 87,000                      87,000                          0
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit                  4,300                 11,400                      11,400                          0
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit                130,000                125,000                     125,000                          0
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 1 -
                                                                                                                                                                                                    12/16/2013 15:09:59

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 01                Taxes                                                                                                            Fiscal Year: 2013                  Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                            Agency Notes:        OI - Appendix A
        Status: Complete                                                                                    I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Provide the following amount if a range is estimable               No Data: YES                 Line Attributes: Dollars
                                               and not included in Sec. A (SFFAS No. 7 par 67-69)                                            Rounding Method: User-Defined                   Decimal: User-Defined


Line Status     Line Description          NB                      CY Low                          CY High                       PY Low                      PY High
 1              Estimated realizable     Debit
                value of pre-
                assessment work-
                in-progress
 2              Changes in line 1        Debit
                above
 3              Management's best        Debit
                estimate of
                unasserted claims for
                refunds
 4              Changes in line 3        Debit
                above

     Tab: Other Text Data

        Section: A                 Section Name: Taxes (SSFAS No.7, par. 67-69)

 Line         Question                                                                                                           Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.                                 The tax gap is the difference between the amount of tax imposed by law and what taxpayers
                                                                                                                                actually pay on time. The tax gap arises from the three types of noncompliance: not filing
                                                                                                                                required tax returns on time or at all (the nonfiling gap), underreporting the correct amount of
                                                                                                                                tax on timely filed returns (the underreporting gap), and not paying on time the full amount
                                                                                                                                reported on timely filed returns (the underpayment gap). Of these three components, only
                                                                                                                                the underpayment gap is observed; the nonfiling gap and the underreporting gap must be
                                                                                                                                estimated. The tax gap, estimated to be about $450 billion for tax year 2006 (the most
                                                                                                                                recent estimate made), represents the net amount of noncompliance with the tax laws.
                                                                                                                                Underreporting of tax liability accounts for 84 percent of the gap, with the remainder almost
                                                                                                                                evenly divided between nonfiling (6 percent) and underpaying (10 percent). Part of the
                                                                                                                                estimate is based on data from a study of individual returns filed for tax year 2006. It does
                                                                                                                                not include any taxes that should have been paid on income from illegal activities. Each
                                                                                                                                instance of noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS
                                                                                                                                detects it, and whether or not the taxpayer is even aware of the noncompliance. Some of the
                                                                                                                                tax gap arises from intentional (willful) noncompliance, and some of it arises from
                                                                                                                                unintentional mistakes.
                                                                                                                                The collection gap is the cumulative amount of tax, penalties, and interest assessed over
                                                                                                                                many years, but not paid by a certain point in time, which the IRS expects will remain
                                                                                                                                uncollectible. In essence, it represents the difference between the total balance of unpaid
                                                                                                                                assessments and the net taxes receivable reported on the balance sheet of the IRS. The tax
                                                                                                                                gap and the collection gap are related and overlapping concepts, but they have significant



                                                                                                                 - 2 -
                                                                                                                                                                                                    12/16/2013 15:09:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

Other Data: 01               Taxes                                                                                                            Fiscal Year: 2013                    Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                            Agency Notes:        OI - Appendix A
       Status: Complete                                                                                  I = Inactive Line



    Tab: Other Text Data

       Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)

Line        Question                                                                                                          Answer
                                                                                                                             differences. The collection gap is a cumulative balance sheet concept for a particular point in
                                                                                                                             time, while the tax gap is like an income statement item for a single year. Moreover, the tax
                                                                                                                             gap estimates include all noncompliance, while the collection gap includes only amounts that
                                                                                                                             have been assessed (a small portion of all noncompliance) and have not yet reached their
                                                                                                                             statutory collection expiration date. Also, the tax gap includes only tax, while the collection
                                                                                                                             gap includes tax, penalties, and interest.

2           Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax           The Internal Revenue Service developed the concept of the tax gap as a way to gauge
            gap.                                                                                                             taxpayer's compliance with their federal tax obligations. The tax gap is the difference
                                                                                                                             between the amount of tax imposed by law and what taxpayers actually pay on time.
                                                                                                                             Previous estimates of the tax gap relied on detailed research that was conducted for tax
                                                                                                                             years 1988 and earlier. To update this research and reflect a changing economy, revisions to
                                                                                                                             the tax code and more subtle shifts in individual behavior, the IRS launched the National
                                                                                                                             Research Program (NRP) in 2001.
                                                                                                                             The current estimates based on the NRP are preliminary, so they are shown as ranges. As
                                                                                                                             refinements are made to the tax gap analysis, some of these estimates may change. It is
                                                                                                                             unlikely, but possible, that the final estimates of the tax gap will fall outside of the established
                                                                                                                             range.

3           Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers                   N/A
            and importers.
4           Provide the estimates of the annual tax gap (amounts should specifically define whether it                       The tax gap figure does not include taxes that should have been paid on income from the
            includes or excludes estimates of tax due on illegally earned revenue).                                          illegal sector of the economy.
5           Disclose the amounts by which trust funds may be over- or under-funded in comparison with the                    N/A
            requirements of law, if reasonable estimable.




                                                                                                               - 3 -
                                                                                                                                                        12/16/2013 15:09:59

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 02           Annual Revenues and Expenditures                                                         Fiscal Year: 2013         Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                  Agency Notes:    N/A
     Status: Complete                                                                  I = Inactive Line


  Tab: Other Data Info.
    Section: A              Section Name: Revenues from the Public                           No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




    Section: B              Section Name: Expenditures to the Public                         No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




                                                                                            - 4 -
                                                                                                                                                          12/16/2013 15:09:59

                                                                          U.S. Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System
                                                                             GF007 - Other Data Report

 Other Data: 02           Annual Revenues and Expenditures                                                           Fiscal Year: 2013         Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                    Agency Notes:    N/A
     Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
    Section: C              Section Name: Revenue from Other Government Accounts               No Data: YES          Line Attributes:


Line Status   Line Description     NB                        HI                    SMI                       OASDI




    Section: D              Section Name: Net Result (Trust Fund)                              No Data: YES          Line Attributes:


Line Status   Line Description     NB                        HI                    SMI                       OASDI




                                                                                              - 5 -
                                                                                                                                                                       12/16/2013 15:09:59

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:      N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: Millions             Decimal: Zero


Line Status   Line Description      NB                   FY 2013                   FY 2012                       FY 2011                 FY 2010                FY 2009
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2013                   FY 2012                       FY 2011                 FY 2010                FY 2009
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 6 -
                                                                                                                                                                       12/16/2013 15:09:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2013                    FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2013                    FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 7 -
                                                                                                                                                                                  12/16/2013 15:09:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 08                Stewardship Investments                                                                                  Fiscal Year: 2013             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES              Line Attributes: Dollars
                                               Research (SFFAS No. 8, par 100)                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                    FY 2013                       FY 2012                       FY 2011                FY 2010                 FY 2009
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS             No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                      Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal physical
              property used in the "Other Data Info" tab. (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                        No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line         Question                                                                                                      Answer
 1            Provide a description of the major programs of Federal investments in development used in the
              "Other Data Info" tab. (SFFAS No. 8, par. 100)
 2            Provide a description of the progress of major developmental projects including the results with
              respect to
              projects completed or otherwise terminated during the year and the status of projects that will
              continue (SFFAS No. 8,
              par. 99).




                                                                                                             - 8 -
                                                                                                                                                                      12/16/2013 15:09:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 08              Stewardship Investments                                                                              Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 100)             No Data: YES

Line         Question                                                                                                   Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human
            capital used in the "Other Data Info" tab (SFFAS No. 8, par. 94).
    Tab: Other Text Data

       Section: D               Section Name: Research and Development: Investment in Basic                  No Data: YES
                                              Research (SFFAS No. 8, par.99 & 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in basic research used in the
            "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E               Section Name: Research and Development: Investment in Applied                No Data: YES
                                              Research (SFFAS No. 8, par 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in applied research used in
            the "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                         - 9 -
                                                                                                                                                                      12/16/2013 15:09:59

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 09             Deferred Maintenance                                                                       Fiscal Year: 2013               Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                     Agency Notes:       FSI - Deferred Maintenance
      Status: Complete                                                                I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                                No Data: YES               Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined              Decimal: User-Defined
Line Status   Line Description         NB                CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D               PY- High     D PY - Critical Maintenance
                                                                                                                 D                                                                                D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                          - 10 -
                                                                                                                                                                     12/16/2013 15:09:59

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 11           Tax Burden                                                                                 Fiscal Year: 2013               Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                     Agency Notes:        OI- APPENDIX A
      Status: Complete                                                                         I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxable Returnes-Individual Income Tax Returns for                       Line Attributes: Units
                                            Tax Year 2011 for the following AGI levels


Line Status   Line Description       NB                        AGI
 1            Under $15,000          N/A            38,456,000.0000
 2            $15,000 under          N/A            31,078,000.0000
              $30,000
 3            $30,000 under          N/A            25,504,000.0000
              $50,000
 4            $50,000 under          N/A            30,876,000.0000
              $100,000
 5            $100,000 under         N/A            14,756,000.0000
              $200,000
 6            $200,000 under         N/A               3,802,000.0000
              $500,000
 7            $500,000 or more       N/A                898,000.0000
     Section: B               Section Name: Individual AGI and Income Tax information -                              Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2011                        Rounding Method: Millions                   Decimal: Zero


Line Status   Line Description       NB                        AGI          Total income tax
 1            Under $15,000         Debit                     87,540                     2,304
 2            $15,000 under         Debit                    682,619                    19,113
              $30,000
 3            $30,000 under         Debit                    996,783                    55,287
              $50,000
 4            $50,000 under         Debit                   2,197,423                  189,342
              $100,000
 5            $100,000 under        Debit                   1,977,406                  248,968
              $200,000
 6            $200,000 under        Debit                   1,080,932                  212,403
              $500,000
 7            $500,000 or more       N/A                    1,351,440                  318,094




                                                                                                   - 11 -
                                                                                                                                                                 12/16/2013 15:09:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 11           Tax Burden                                                                                Fiscal Year: 2013              Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:     OI- APPENDIX A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: C               Section Name: Individual AGI and Average Income Tax Information-                      Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2011                       Rounding Method: Whole-Dollars           Decimal: Zero


Line Status   Line Description       NB      Avg. AGI per return      D Avg. income tax per return
                                                                                                 D
 1            Under $15,000          N/A                      2,276                          60
 2            $15,000 under          N/A                     21,965                         615
              $30,000
 3            $30,000 under          N/A                     39,083                        2,168
              $50,000
 4            $50,000 under          N/A                     71,169                        6,132
              $100,000
 5            $100,000 under         N/A                    134,007                      16,872
              $200,000
 6            $200,000 under         N/A                    284,306                      55,866
              $500,000
 7            $500,000 or more       N/A                  1,504,944                     354,225
     Section: D               Section Name: Income Tax as a Percentage of AGI-Indvidual Income                      Line Attributes: Percent
                                            Tax Returns for Tax Year 2011


Line Status   Line Description       NB                       AGI
 1            Under $15,000          N/A                     2.6000
 2            $15,000 under          N/A                     2.8000
              $30,000
 3            $30,000 under          N/A                     5.5000
              $50,000
 4            $50,000 under          N/A                     8.6000
              $100,000
 5            $100,000 under         N/A                    12.6000
              $200,000
 6            $200,000 under         N/A                    19.6000
              $500,000
 7            $500,000 or more       N/A                    23.5000




                                                                                                     - 12 -
                                                                                                                                                                     12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 11              Tax Burden                                                                                Fiscal Year: 2013             Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                    Agency Notes:      OI- APPENDIX A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: E               Section Name: Income Subject to Tax & Total Income Tax After                            Line Attributes: Dollars
                                             Credits:Corp. Income for Tax Year 2010                                  Rounding Method: Millions                 Decimal: Zero


Line Status    Line Description       NB      Income subject to tax         Total income tax after
                                                                                       credits
 1             Zero Assets           Debit                    15,068                      4,789
 2             $1 under $500         Debit                     6,167                      1,178
 3             $500 under $1,000     Debit                     3,231                          741
 4             $1,000 under $5,000   Debit                    10,274                      2,970
 5             $5,000 under          Debit                     6,890                      2,162
               $10,000
 6             $10,000 under         Debit                    10,312                      3,358
               $25,000
 7             $25,000 under         Debit                     9,900                      3,175
               $50,000
 8             $50,000 under         Debit                    12,955                      4,150
               $100,000
 9             $100,000 under        Debit                    23,640                      7,143
               $250,000
 10            $250,000 under        Debit                    29,057                      8,732
               $500,000
 11            $500,000 under         N/A                    109,072                     30,770
               $2,500,000
 12            $2,500,000 or more     N/A                    785,609                    153,801
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                         Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2010


Line Status    Line Description       NB     Income Subject to Tax
 1             Zero Assets            N/A                    31.8000
 2             $1 under $500          N/A                    19.1000
 3             $500 under $1,000      N/A                    22.9000
 4             $1,000 under $5,000    N/A                    28.9000
 5             $5,000 under           N/A                    31.4000
               $10,000
 6             $10,000 under          N/A                    32.6000
               $25,000



                                                                                                     - 13 -
                                                                                                                                                             12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 11            Tax Burden                                                                                Fiscal Year: 2013            Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                   Agency Notes:      OI- APPENDIX A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                       Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2010


Line Status    Line Description       NB     Income Subject to Tax
 7             $25,000 under          N/A                    32.1000
               $50,000
 8             $50,000 under          N/A                    32.0000
               $100,000
 9             $100,000 under         N/A                    30.2000
               $250,000
 10            $250,000 under         N/A                    30.1000
               $500,000
 11            $500,000 under         N/A                    28.2000
               $2,500,000
 12            $2,500,000 or more     N/A                    19.6000




                                                                                                     - 14 -
                                                                                                                                                                         12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12             Other information                                                                                 Fiscal Year: 2013              Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:        RSI
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Estimated amounts that may be paid out as other                                   Line Attributes: Dollars
                                            claims for tax refunds                                                          Rounding Method: Millions              Decimal: Zero


Line Status   Line Description         NB       2013 - SEPTEMBER          2012 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Estimated payout         Debit                     803                     6,088                      6,088                          0
              (including principal
              and interest) for
              claims pending
              judicial review by the
              Federal Courts
 2            Claims under appeal      Debit                   3,551                     5,331                      5,331                          0



     Section: B               Section Name: Other information related to taxes                                                Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions              Decimal: Zero
Line Status   Line Description         NB       2013 - SEPTEMBER          2012 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Payroll taxes paid by    Debit                                             2,353                      2,353                          0
              Federal agencies
              included in individual
              and FICA taxes
 2            Refundable portion       Debit                  21,608                    22,106                     22,106                          0
              of child care tax
              credits issued
 3            Amount of EITC           Debit                  57,513                    54,890                     54,890                          0
              refunds
 4            Amount of EITC           Debit
              refunds applied to
              reduce taxpayer
              liability




                                                                                                  - 15 -
                                                                                                                                                                              12/16/2013 15:09:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 14               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)             Fiscal Year: 2013             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                Agency Notes:    N/A
        Status: Complete                                                                            I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                 No Data: YES             Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined         Decimal: User-Defined
Line Status      Line Description        NB       2013 - SEPTEMBER            2012 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1               Present value of       Debit
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed                                              No Data: YES

 Line          Question                                                                                                 Answer
 1            Provide the indicators of the range of uncertainty around Federal insurance and guarantee
              programs related estimates and sensitivity of the estimates to changes in major assumptions
              (SFFAS No.5, par.114)
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
              losses (SFFAS No. 5. par. 114)
 3            Provide a listing of the Federal insurance and guarantee programs (SFFAS No. 5, par. 105).




                                                                                                        - 16 -
                                                                                                                                                                               12/16/2013 15:09:59

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report

 Other Data: 15              Budget Deficit Reconciliation                                                                          Fiscal Year: 2013            Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                Agency Notes:       N/A
      Status: Complete                                                                           I = Inactive Line


  Tab: Other Data Info.
     Section: A                Section Name: Operating Revenue to Budget Receipts                                                  Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions               Decimal: Zero
Line Status   Line Description         NB          Budget Receipts       D   Operating Revenue       C    Diff Budget Receipts vs Cust Collections Trans to Cust Collections Received Adj Diff Between Budget
                                                                                                           Operating Revenue        GF or Rec Agency      D   from Collecting Agency Rec vs Operating Rev
                                                                                                                                                                                    C
 1            Individual income tax    N/A                   1,316,441                  2,128,111                     -811,670                 2,128,111                                             1,316,441
              and tax withholdings
 2            Corporation income       N/A                    273,505                     270,425                        3,080                   270,425                                              273,505
              taxes
 3            Unemployment taxes       N/A                       -152                       7,749                       -7,901                     7,749                                                 -152
 4            Excise taxes             N/A                     30,365                      82,449                      -52,084                    82,449                                               30,365
 5            Estate and gift taxes    N/A                     18,912                      18,783                          129                    18,783                                               18,912
 6            Customs duties           N/A                     21,943                            0                      21,943                                                                         21,943
 7            Other taxes and          N/A                     79,369                      84,968                       -5,599                    83,737                                               78,138
              receipts
 8            Earned revenue - to      N/A
              be completed by
              OPM only
 9            Total                    N/A                   1,740,383                 -2,592,485                     -852,102                 2,591,254                                             1,739,152
     Section: B                Section Name: Net Outlays to SBR                                                                    Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions               Decimal: Zero
Line Status   Line Description         NB         CY - MTS Net Outlays        CY - SBR Net Outlays         CY - DIFFERENCE
                                                                     D                           C
 1            Net Outlays              N/A                    432,660                     286,858                      145,802




                                                                                                         - 17 -
                                                                                                                                                                 12/16/2013 15:09:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 15           Budget Deficit Reconciliation                                                                     Fiscal Year: 2013         Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                           Agency Notes:    N/A
     Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
    Section: C              Section Name: Earned Revenue to Undistributed Offsetting Receipts    No Data: YES               Line Attributes:
                                          - Employer Share, Employee Retirement (DOS, DOD
                                          and OPM only)


Line Status   Line Description      NB         CY - MTS Receipts        CY - PAR Amount               CY - Difference




    Section: D              Section Name: Earned Revenue to Undistributed Offsetting Receipts    No Data: YES               Line Attributes:
                                          - Interest Rec by Trust Funds (DOS, DOD, DOL, SSA,
                                          HHS and OPM only)


Line Status   Line Description      NB      CY - MTS Undistributed        CY - Earned Revenue                  Difference
                                          Offsetting Receipts, Tble 5 Rejported on agency PAR




                                                                                                - 18 -
                                                                                                                                                                                              12/16/2013 15:09:59

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

 Other Data: 15                Budget Deficit Reconciliation                                                                                  Fiscal Year: 2013                  Period: SEPTEMBER
         Entity: 2000          Department of the Treasury                                                                                          Agency Notes:       N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Operating Revenue to Undistributed Offsetting                   No Data: YES                   Line Attributes:
                                               Receipts (DOI only)


Line Status      Line Description        NB             MTS Undistributed          Miscellaneous Earned                     Difference
                                                Offsetting Receipts, Tble 5         Revenue reported on
                                                                                               SCNP




     Tab: Other Text Data

        Section: A                  Section Name: Operating Revenue to Budget Receipts

 Line         Question                                                                                                        Answer
 1            Note: The normal balance for net outlays is not supported by the USSGL. The MTS Net Outlays                     N/A
              are assigned a normal debit balance and the SBR Net Outlays a normal credit balance in GFRS.
              Please enter net outlays into both columns as normal, that is as a positive number. MTS Net
              Outlays will appear as a debit and SBR Net Outlays will appear as a credit in GFRS reports.
              This set-up was required for the difference column to calculate correctly.
 2            Collecting agencies provide the Closing Package line in which the custodial transfer-out                        5.7 Collections for others - non-Federal for Puerto Rico - $358
              (disposition of collection) was recorded and the trading partner code.                                          7.7 Expenditure Transfers-Out of Financing Sources - $53 (F99)
                                                                                                                              8.6 Other Non-Budgetary Financing Sources - $763 (F14)
                                                                                                                              8.4 Non-Entity Collections Transferred to the General Fund - $2,590,438 (F99)
 3            Receiving agencies provide the Closing Package line in which the custodial transfer-in/revenue                  N/A
              was recorded and the trading partner code.
 4            Provide a detailed description of the difference and whether this difference will be resolved next              IRS only reports the revenue collected. They do not report the movement of monies done by
              FY.                                                                                                             Fiscal Service to the trust funds (ALC 20550098).
                                                                                                                              Timing differences between IRS and MTS.
                                                                                                                              Presentation differences between IRS and Fiscal Service in the handling of revenues (58XX).
                                                                                                                               IRS is reflecting all the revenue in 20X0903; however, the outlays/refunds are spreadout
                                                                                                                              across the tax credit fund symbols.

                                                                                                                              The differences are valid due to different presentations.




                                                                                                             - 19 -
                                                                                                                                                                                               12/16/2013 15:09:59

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

Other Data: 15               Budget Deficit Reconciliation                                                                                 Fiscal Year: 2013                  Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                        Agency Notes:        N/A
       Status: Complete                                                                               I = Inactive Line



    Tab: Other Text Data

       Section: B                Section Name: Net Outlays to SBR

Line        Question                                                                                                      Answer
1           Provide a detailed description of the difference and whether this difference will be resolved next            Treasury does not include the Revenue (Tax Credits) on the SBR.
            FY.                                                                                                           MTS including allocation (child) activity that is on the Parent's SBR.
                                                                                                                          Treasury's SBR includes EOP (11) and Independent Agency (95) activity.
                                                                                                                          TAS 20X1807 on the SBR as outlays not receipts.
                                                                                                                          Distributed offsetting receipts includes activities from other agencies that are not on
                                                                                                                          Treasury's financial statements.
                                                                                                                          SBR includes outlays for credit reforms; however, on a different MTS table.

                                                                                                                          The differences are valid due to different presentations.
    Tab: Other Text Data

       Section: C                Section Name: Earned Revenue to Undistributed Offsetting Receipts               No Data: YES
                                               - Employer Share, Employee Retirement (DOS, DOD
                                               and OPM only)

Line        Question                                                                                                      Answer
1           Provide a cross-reference to intragovernmental earned revenue reported in PAR in the "Agency
            Notes" field.
2           Provide a detailed description fo the difference and whether this difference will be resolved next
            FY.
    Tab: Other Text Data

       Section: D                Section Name: Earned Revenue to Undistributed Offsetting Receipts               No Data: YES
                                               - Interest Rec by Trust Funds (DOS, DOD, DOL, SSA,
                                               HHS and OPM only)

Line        Question                                                                                                      Answer
1           Provide a cross-reference to intragovernmental earned revenue reported in PAR in the "Agency
            Notes" field.
2           Provide a detailed description fo the difference and whether this difference will be resolved next
            FY.
    Tab: Other Text Data

       Section: E                Section Name: Operating Revenue to Undistributed Offsetting                     No Data: YES
                                               Receipts (DOI only)

Line        Question                                                                                                      Answer
1           Provide a detailed description fo the difference and whether this difference will be resolved next
            FY.



                                                                                                           - 20 -
                                                                                                                                                                                12/16/2013 15:09:59

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                         Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                             Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Components of Direct Loans Receivable, Gross -                                     Line Attributes: Dollars
                                            Current Year                                                                     Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB      CY-Federal Direct Student   CY-Electric Loans       CY-Rural Housing Service         CY-Federal Family               CY-Water and           CY-Farm Loans
                                                              Loans                                                                Education Loan         Environmental Loans
 1            Direct Loans            Debit
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans            N/A
              receivable, gross-
              end of the year

Line Status   Line Description        NB        CY-Export-Import Bank        CY-U.S. Agency for      CY-Housing and Urban CY-GSE Mortgage Backed                CY-All other loans               CY-Total
                                                             Loans    International Development           Development          Securities Purchase                  receivable
                                                                                                                                       Program
 1            Direct Loans            Debit                                                                                                                                31,670                     31,670
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit                                                                                                                                 2,738                      2,738
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                                                                                                                                -5,539                     -5,539
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            Direct Loans             N/A                                                                                                                                 28,869                     28,869
              receivable, gross-



                                                                                                  - 21 -
                                                                                                                                                                                  12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16              Components of Loans and Equity Investments                                                          Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: A                 Section Name: Components of Direct Loans Receivable, Gross -                                     Line Attributes: Dollars
                                              Current Year                                                                     Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description         NB       CY-Export-Import Bank        CY-U.S. Agency for        CY-Housing and Urban CY-GSE Mortgage Backed                CY-All other loans               CY-Total
                                                             Loans    International Development             Development          Securities Purchase                  receivable
                                                                                                                                         Program
              end of the year




     Section: B                 Section Name: Components of Direct Loans Receivable, Gross -                                     Line Attributes: Dollars
                                              Prior Year                                                                       Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description         NB     PY-Federal Direct Student     PY-Electric Loans       PY-Rural Housing Service         PY-Federal Family               PY-Water and           PY-Farm Loans
                                                              Loans                                                                  Education Loan         Environmental Loans
 1            Direct Loans            Debit
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans             N/A
              receivable, gross-
              end of the year

Line Status   Line Description         NB       PY-Export-Import Bank        PY-U.S. Agency for        PY-Housing and Urban PY-GSE Mortgage Backed                PY-All other loans               PY-Total
                                                             Loans    International Development             Development          Securities Purchase                  receivable
                                                                                                                                         Program
 1            Direct Loans            Debit                                                                                                     70,586                       27,466                     27,466



                                                                                                    - 22 -
                                                                                                                                                                              12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                       Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                           Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: B               Section Name: Components of Direct Loans Receivable, Gross -                                   Line Attributes: Dollars
                                            Prior Year                                                                     Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB      PY-Export-Import Bank        PY-U.S. Agency for       PY-Housing and Urban PY-GSE Mortgage Backed               PY-All other loans               PY-Total
                                                           Loans    International Development            Development          Securities Purchase                 receivable
                                                                                                                                      Program
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit                                                                                                                               5,643                      5,643
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                                                                                                -70,586                       -1,520                     -1,520
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit                                                                                                                                  81                           81
 8            Direct Loans            N/A                                                                                                        0                       31,670                     31,670
              receivable, gross-
              end of the year
     Section: C               Section Name: Components of Loan Guarantees, Gross - Current                                   Line Attributes: Dollars
                                            Year                                                                           Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB           CY-Federal Family        CY-Federal Housing       CY-Veterans Housing    CY-Export-Import Bank CY-Small Business Loans CY-Israeli Loan Guarantee
                                                  Education Loans        Administration Loans         Benefit Program                    Loans                                          Program
 1            Guaranteed Loans,       Debit
              gross-beginning of
              the year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year




                                                                                                 - 23 -
                                                                                                                                                                             12/16/2013 15:09:59

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16            Components of Loans and Equity Investments                                                       Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                           Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Components of Loan Guarantees, Gross - Current                                   Line Attributes: Dollars
                                           Year                                                                           Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description      NB      CY-OPIC Credit Program CY-Rural Housing Service CY-Business and Industry            CY-Export Credit       CY-All other Guaranteed                CY-Total
                                                                                                           Loans           Guarantee Programs                         loans
 1            Guaranteed Loans,     Debit                                                                                                                                    7                           7
              gross-beginning of
              the year
 2            Disbursements         Debit
              (loans
              made/securities
              purchased)
 3            Repayments            Debit
 4            Other                 Debit                                                                                                                                    2                           2
 5            Guaranteed Loans,       N/A                                                                                                                                    9                           9
              gross-end of the
              year
     Section: D               Section Name: Components of Loan Guarantees, Gross - Prior Year                               Line Attributes: Dollars
                                                                                                                          Rounding Method: Millions                    Decimal: Zero
Line Status   Line Description      NB            PY-Federal Family        PY-Federal Housing       PY-Veterans Housing    PY-Export-Import Bank PY-Small Business Loans PY-Israeli Loan Guarantee
                                                 Education Loans        Administration Loans         Benefit Program                    Loans                                          Program
 1             Guaranteed Loans,    Debit
               gross-beginning of
               the year
 2             Disbursements        Debit
               (loans
               made/securities
               purchased)
 3             Repayments           Debit
 4             Other                Debit
 5             Guaranteed Loans,    N/A
               gross-end of the
               year

Line Status   Line Description      NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry             PY-Export Credit      PY-All other Guaranteed                PY-Total
                                                                                                           Loans           Guarantee Programs                         loans
 1            Guaranteed Loans,     Debit
              gross-beginning of
              the year



                                                                                                - 24 -
                                                                                                                                                                                 12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: D                 Section Name: Components of Loan Guarantees, Gross - Prior Year                                 Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                    Decimal: Zero
Line Status   Line Description         NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry              PY-Export Credit      PY-All other Guaranteed                PY-Total
                                                                                                              Loans            Guarantee Programs                         loans
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit                                                                                                                                      7                           7
 5            Guaranteed Loans,       N/A                                                                                                                                        7                           7
              gross-end of the
              year
     Section: E               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description         NB         CY-Capital Purchase    CY-AIG, Inc., Investment    CY-Targeted Investment    CY-Automotive Industry            CY-Consumer and            CY-Public-Private
                                                          Program                     Program                   Program         Financing Program                 Business Lending     Investment Program
                                                                                                                                                                       Initiative
 1            TARP loans and          Debit                    8,664                      6,727                                                37,252                                                   9,763
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                   -4,752                     -5,022                                               -12,015                                                  -9,763
 4            Losses                  Debit                     -769                     -1,705                                                -5,359
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and           N/A                     3,143                            0                                              19,878                                                        0
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description         NB           CY-All Other TARP                CY-Total
                                                         Programs


                                                                                                    - 25 -
                                                                                                                                                                                 12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: E               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB           CY-All Other TARP                 CY-Total
                                                        Programs
 1            TARP loans and          Debit                     667                      63,073
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                    -186                     -31,738
 4            Losses                  Debit                      -6                      -7,839
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and          N/A                      475                    23,496
              equity investments
              receivable, gross-
              end of year
     Section: F               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB         PY-Capital Purchase     PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry            PY-Consumer and            PY-Public-Private
                                                         Program                      Program                   Program         Financing Program                Business Lending      Investment Program
                                                                                                                                                                      Initiative
 1            TARP loans and          Debit                  17,299                      51,087                                                37,278                                                  15,943
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit                                                                                                                                                             1,048
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                  -8,223                     -34,294                                                   -26                                                  -7,228
 4            Losses                  Debit                   -412                       -9,862



                                                                                                    - 26 -
                                                                                                                                                                                 12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: F               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB         PY-Capital Purchase     PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry            PY-Consumer and            PY-Public-Private
                                                         Program                      Program                   Program         Financing Program                Business Lending      Investment Program
                                                                                                                                                                      Initiative
 5            Capitalized interest    Debit                                                -204
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and          N/A                     8,664                       6,727                                                37,252                                                  9,763
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description        NB           PY-All Other TARP                 PY-Total
                                                         Programs
 1            TARP loans and          Debit                     798                     122,405
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit                                               1,048
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                    -128                     -49,899
 4            Losses                  Debit                      -3                     -10,277
 5            Capitalized interest    Debit                                                -204
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and           N/A                      667                      63,073
              equity investments
              receivable, gross-
              end of year




                                                                                                    - 27 -
                                                                                                                                                                                        12/16/2013 15:09:59

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 16              Components of Loans and Equity Investments                                                                 Fiscal Year: 2013                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                                     Agency Notes:       1, 7, 11, and 12
       Status: Complete                                                                            I = Inactive Line



    Tab: Other Text Data

       Section: A               Section Name: Components of Direct Loans Receivable, Gross -
                                              Current Year

Line        Question                                                                                                    Answer
1           Provide details regarding the programs reported in Sections A and B that comprise amounts                  There are regular direct loans and loans and equity investment that are accounted for under
            reported in the "all other Loans Receivable" column.                                                       the Federal Credit Reform Act of 1990 (FCRA). See FR Notes (GF006) Note 04A Direct
                                                                                                                       Loans Receivable and Mortgage Backed Securities for amounts in "Other"
2           Provide a detailed description of the amounts reported in Sections A and B that comprose the               See FR Notes (GF006) Note 04A Direct Loans Receivable and Mortgage Backed Securities
            "Other" line.                                                                                              for amounts in "Other"

                                                                                                                       Amounts in the "Total" column do not include GSE Mortgaged Backed Securities Purchase
                                                                                                                       Program. See below for recap of Section B:

                                                                                                                       Section B - Components of Direct Loans Receivable, Gross - Prior Year
                                                                                                                       Prior FY/E 2012
                                                                                                                       (In Millions)
                                                                                                                       Column One - GSE Mortgaged Backed Securities Purchase Program
                                                                                                                       Column Two - All Other Loans Receivable
                                                                                                                       Column Three - Total

                                                                                                                       1 Direct Loans Receivable, gross - beginning of year $70,586 $27,466 $98,052
                                                                                                                       2 Disbursements (loans made/securities purchased) $0 $5,643 $5,643
                                                                                                                       3 Repayments ($70,586) ($1,520) ($72,106)
                                                                                                                       4 Losses $0 $0 $0
                                                                                                                       5 Capitalized interest $0 $0 $0
                                                                                                                       6 Capitalized dividends $0 $0 $0
                                                                                                                       7 Other $0 $81 $81
                                                                                                                       8 Direct Loans receivable, gross-end of the year $0 $31,670 $31,670

3           Provide details regarding the programs reported in Sections C and D that comprose the "Other"              There is only one program from Troubled Asset Relief Program (TARP) called FHA-
            line in the "all other Guaranteed Loans" column.                                                           Refinance Program
4           Provide a detailed description of the amounts reported in Sections C and D that comprose the               The amount is from the results of subsidy expense. See FR Notes (GF006) Note 04B Loan
            "Other" line.                                                                                              Guarantees.
5           Provide details regarding the programs reported in Sections E and F that comprise amounts                  For fiscal year 2013, the Programs include CDCI and TALF. For fiscal year 2012, the
            reported in the "all other TARP Programs" column.                                                          Programs include CDCI, TALF, and SBA. See FR Notes (GF006) Note 20 Troubled Asset
                                                                                                                       Relief Program (TARP) Direct Loans and Equity Investments.
6           Provide a detailed description of the amounts reported in Sections E and F that comprise the               N/A
            "Other" line.




                                                                                                           - 28 -
                                                                                                                                                               12/16/2013 15:09:59

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 17               Federal Oil and Gas Resources                                                          Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                     Agency Notes:    N/A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A                Section Name: Asset Value for Oil and Gas Proved Resources -         No Data: YES     Line Attributes: Dollars
                                             Offshore                                                              Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER      D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A
     Section: B                Section Name: Asset Value for Oil and Gas Proved Reserves -          No Data: YES     Line Attributes: Dollars
                                             Onshore                                                               Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER      D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A




                                                                                                  - 29 -
                                                                                                                                                          12/16/2013 15:09:59

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 17           Federal Oil and Gas Resources                                                         Fiscal Year: 2013              Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                               Agency Notes:         N/A
      Status: Complete                                                                     I = Inactive Line


  Tab: Other Data Info.
     Section: C             Section Name: Quantity of Oil and Gas Proved Reserves - Offshore     No Data: YES   Line Attributes: Units


Line Status   Line Description     NB       2013 - SEPTEMBER
 1            Oil and Lease        N/A
              Condensate
 2            Natural Gas, Wet     N/A
              After Lease
              Separation
 3                                 N/A
 4                                 N/A
 5                                 N/A

     Section: D             Section Name: Quantity of Oil and Gas Proved Reserves - Onshore      No Data: YES   Line Attributes: Units


Line Status   Line Description     NB       2013 - SEPTEMBER
 1            Oil and Lease        N/A
              Condensate
 2            Natural Gas, Wet     N/A
              After Lease
              Separation
 3                                 N/A
 4                                 N/A
 5                                 N/A




                                                                                               - 30 -
                                                                                                                                                                   12/16/2013 15:09:59

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 17               Federal Oil and Gas Resources                                                              Fiscal Year: 2013             Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                         Agency Notes:    N/A
      Status: Complete                                                                            I = Inactive Line


  Tab: Other Data Info.
     Section: E                Section Name: Average of the Regional Average Prices for Oil and         No Data: YES     Line Attributes: Dollars
                                             Gas Proved Reserves - Offshore                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER       D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A
     Section: F                Section Name: Average of the Regional Average Prices for Oil and         No Data: YES     Line Attributes: Dollars
                                             Gas Proved Reserves - Onshore                                             Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description         NB     2013 - SEPTEMBER       D
 1            Oil and Lease            N/A
              Condensate
 2            Natural Gas, Wet         N/A
              After Lease
              Separation
 3                                     N/A
 4                                     N/A
 5                                     N/A




                                                                                                      - 31 -
                                                                                                                                                                          12/16/2013 15:09:59

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 17                  Federal Oil and Gas Resources                                                                     Fiscal Year: 2013           Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                              Agency Notes:      N/A
        Status: Complete                                                                              I = Inactive Line


     Tab: Other Data Info.
      Section: G                  Section Name: Average Royalty Rate for Oil and Gas Proved                  No Data: YES          Line Attributes: Percent
                                                Reserves - Offshore


Line Status      Line Description         NB       2013 - SEPTEMBER
 1               Oil and Lease            N/A
                 Condensate
 2               Natural Gas, Wet         N/A
                 After Lease
                 Separation
 3                                        N/A
 4                                        N/A
 5                                        N/A
      Section: H                  Section Name: Average Royalty Rate for Oil and Gas Proved                  No Data: YES          Line Attributes: Percent
                                                Reserves - Onshore


Line Status      Line Description         NB       2013 - SEPTEMBER
 1               Oil and Lease            N/A
                 Condensate
 2               Natural Gas, Wet         N/A
                 After Lease
                 Separation
 3                                        N/A
 4                                        N/A
 5                                        N/A

     Tab: Other Text Data

        Section: A                  Section Name: Asset Value for Oil and Gas Proved Resources -               No Data: YES
                                                  Offshore

 Line         Question                                                                                                    Answer
 1            Provide a concise statement explaining the nature and valuation (for example, measurement
              method, significant assumptions, etc.) of federal oil and gas resources.
 2            Describe any significant changes in the estimation methodology, including the underlying
              assumptions.
 3            Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
              significant accounting policies pertaining to this note.




                                                                                                           - 32 -
                                                                                                                                                                      12/16/2013 15:09:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

Other Data: 17              Federal Oil and Gas Resources                                                                        Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: B               Section Name: Asset Value for Oil and Gas Proved Reserves -                  No Data: YES
                                              Onshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: C               Section Name: Quantity of Oil and Gas Proved Reserves - Offshore             No Data: YES

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: D               Section Name: Quantity of Oil and Gas Proved Reserves - Onshore              No Data: YES

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: E               Section Name: Average of the Regional Average Prices for Oil and             No Data: YES
                                              Gas Proved Reserves - Offshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying



                                                                                                         - 33 -
                                                                                                                                                                      12/16/2013 15:09:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

Other Data: 17              Federal Oil and Gas Resources                                                                        Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: E               Section Name: Average of the Regional Average Prices for Oil and             No Data: YES
                                              Gas Proved Reserves - Offshore

Line        Question                                                                                                    Answer
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: F               Section Name: Average of the Regional Average Prices for Oil and             No Data: YES
                                              Gas Proved Reserves - Onshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: G               Section Name: Average Royalty Rate for Oil and Gas Proved                    No Data: YES
                                              Reserves - Offshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.
    Tab: Other Text Data

       Section: H               Section Name: Average Royalty Rate for Oil and Gas Proved                    No Data: YES
                                              Reserves - Onshore

Line        Question                                                                                                    Answer
1           Provide a concise statement explaining the nature and valuation (for example, measurement
            method, significant assumptions, etc.) of federal oil and gas resources.
2           Describe any significant changes in the estimation methodology, including the underlying
            assumptions.



                                                                                                         - 34 -
                                                                                                                                                                      12/16/2013 15:09:59

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

Other Data: 17              Federal Oil and Gas Resources                                                                        Fiscal Year: 2013         Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



 Tab: Other Text Data

       Section: H               Section Name: Average Royalty Rate for Oil and Gas Proved                    No Data: YES
                                              Reserves - Onshore

Line        Question                                                                                                    Answer
3           Provide any other relevant information pertaining to this note. At a minumum, describe briefly the
            significant accounting policies pertaining to this note.




                                                                                                         - 35 -
                                                                U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 3   Fund Balance                                                                       A      D      F                  367,820                 344,346
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Fund Balance with Treasury                              F                367,820                 344,346                  344,346                     0
Total:                                                                   367,820                 344,346                  344,346                     0

Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 4   Loans and Interest Receivable                                                      A      D      F                 1,093,559                914,304
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Interest Receivable                                     F                     233                    531                      531                     0
Loans Receivable                                        F               1,093,326                913,773                  913,773                     0
Total:                                                                  1,093,559                914,304                  914,304                     0
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 5   Advances to the Unemployment Trust Fund                                            A      D      F                    29,696                 32,932
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Interest Receivable                                     F                    49                       0                         0                     0
Loans Receivable                                        F                29,647                  32,932                    32,932                     0
Total:                                                                   29,696                  32,932                    32,932                     0



                                                                               -1-
                                                                U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 6   Due From the General Fund                                                          A      D      F                17,123,357             16,202,179
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Other Assets (without reciprocals)                      F              17,123,357              16,202,179              16,202,179                     0
Total:                                                                 17,123,357              16,202,179              16,202,179                     0

Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 7   Other Intra-governmental Assets                                                    A      D      F                      435                   1,495
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Receivable                                     F                  433                      525                       525                     0
Advances to Others and Prepayments                      F                    2                        2                         2                     0
Federal Investments                                     F                    0                      968                       968                     0
Total:                                                                     435                    1,495                     1,495                     0
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 10 Cash, Foreign Currency, and Other Monetary Assets                                   A      D      N                  148,506                 145,551
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                148,506                 145,551                  145,551                     0
Total:                                                                   148,506                 145,551                  145,551                     0



                                                                               -2-
                                                                U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 11 Gold and Silver Reserves                                                           A      D       N                    11,062                 11,062
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                11,062                 11,062                     11,062                     0
Total:                                                                   11,062                 11,062                     11,062                     0

Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 12 Troubled Asset Relief Program (TARP) - Credit Program Receivables, Net             A      D       N                    17,869                 40,231
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
TARP Direct Loans and Equity Investments                N                17,869                 40,231                     40,231                     0
Total:                                                                   17,869                 40,231                     40,231                     0

Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 13 Investments in Government Sponsored Enterprises (GSE)                              A      D       N                  140,221                 109,342
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Investment in Government sponsored                      N                140,221                109,342                   109,342                     0
enterprises (GSEs)
Total:                                                                   140,221                  109,342                109,342                          0




                                                                              -3-
                                                                U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 14 Investments in International Financial Institutions                                A      D       N                     6,396                  6,043
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                 6,396                  6,043                      6,043                     0
Total:                                                                    6,396                  6,043                      6,043                     0

Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 15 Non-TARP Investments in American International Group, Inc.                         A      D       N                        0                   2,611
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                              N                   0                    2,611                      2,611                     0
Total:                                                                      0                    2,611                      2,611                     0

Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 16 Other Investments and Related Interest                                             A      D       N                    14,114                 15,436
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                              N                14,114                 15,436                     15,436                     0
Total:                                                                   14,114                 15,436                     15,436                     0




                                                                              -4-
                                                                U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 17 Other Credit Program Receivables, Net                                              A      D       N                    17,628                 19,888
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                17,628                 19,888                     19,888                     0
securities
Total:                                                                    17,628                  19,888                  19,888                          0
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 18 Loans and Interest Receivable                                                      A      D       N                    10,042                 10,334
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                10,042                 10,334                     10,334                     0
securities
Total:                                                                    10,042                  10,334                  10,334                          0
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                     Type
 19 Reserve Position in International Monetary Fund                                    A      D       N                    17,915                 21,573
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                17,915                 21,573                     21,573                     0
Total:                                                                   17,915                 21,573                     21,573                     0




                                                                              -5-
                                                                 U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 20 Taxes, Interest and Other Receivables, Net                                          A      D       N                    38,602                 41,463
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                            N                38,602                 41,463                     41,463                     0
Total:                                                                    38,602                 41,463                     41,463                     0

Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 21 Property, Plant, and Equipment, Net                                                 A      D       N                     2,646                  2,435
                                                                                     Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                            N                 2,646                  2,435                      2,435                     0
Total:                                                                     2,646                  2,435                      2,435                     0

Line Agency Line Description                                                  Status Account NB       F/N      2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 22 Other Assets                                                                        A      D       N                      756                     637
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER         2012-SEPTEMBER          Previously Reported      Line Item Changes
Inventory and Related Property                           N                  750                    630                        630                      0
Other Assets                                             N                    6                      7                           7                     0
Total:                                                                      756                    637                        637                      0




                                                                               -6-
                                                                 U.S. Department of the Treasury                                       12/16/2013 15:10:33
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                         Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                    Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                     Status Account NB       F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                         Type
 27 Federal Debt and Interest Payable                                                      L      C      F                4,837,436                4,861,005
                                                                                        Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N        2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Interest Payable                                        F                     43,090                  45,509                 45,509                      0
Federal Debt                                            F                  4,794,346               4,815,496              4,815,496                      0
Total:                                                                    (4,837,436)             (4,861,005)            (4,861,005)                     0
Line Agency Line Description                                                     Status Account NB       F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                         Type
 28 Liability for Restoration of Federal Debt Principal and Interest                       L      C      F                  128,272                          0
                                                                                        Variance:                                 0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N        2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Accounts Payable                                        F                   128,272                    0                          0                      0
Total:                                                                     (128,272)                   0                          0                      0

Line Agency Line Description                                                     Status Account NB       F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                         Type
 29 Other Debt and Interest Payable                                                        L      C      F                    5,761                   7,194
                                                                                        Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N        2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Interest Payable                                        F                       66                      83                       83                      0
Federal Debt                                            F                    5,695                   7,111                    7,111                      0
Total:                                                                      (5,761)                 (7,194)                  (7,194)                     0



                                                                                  -7-
                                                                U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 30 Due to the General Fund                                                             L      C      F                 1,417,423               1,257,752
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Liability to the General Fund for custodial and         F               1,417,423               1,257,752               1,257,752                     0
other non-entity assets
Total:                                                                 (1,417,423)             (1,257,752)            (1,257,752)                         0
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                      Type
 31 Other Intra-governmental Liabilities                                                L      C      F                      477                     541
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                        F                  217                     256                       256                      0
Interest Payable                                        F                    1                       0                          0                     0
Transfers Payable                                       F                   28                       0                          0                     0
Benefit Program Contributions Payable                   F                  181                     247                       247                      0
Advances from Others and Deferred Credits               F                   47                      57                        57                      0
Other Liabilities (without reciprocals)                 F                    3                     (19)                      (19)                     0
Total:                                                                    (477)                   (541)                     (541)                     0




                                                                               -8-
                                                                 U.S. Department of the Treasury                                       12/16/2013 15:10:33
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                         Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                    Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                      Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                          Type
 34 Federal Debt and Interest Payable                                                       L      C     N               12,003,030              11,307,583
                                                                                         Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Federal Debt Securities Held by the Public               N                12,003,030              11,307,583             11,307,583                      0
Total:                                                                   (12,003,030)            (11,307,583)           (11,307,583)                     0

Line Agency Line Description                                                      Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                          Type
 35 Liability for Restoration of Federal Debt Principal and Interest                        L      C     N                  120,356                          0
                                                                                         Variance:                                0                          0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                        N                  120,356                    0                          0                      0
Total:                                                                     (120,356)                   0                          0                      0

Line Agency Line Description                                                      Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                          Type
 36 Certificates Issued to the Federal Reserve                                              L      C     N                    5,200                   5,200
                                                                                         Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                        N                   5,200                   5,200                    5,200                      0
Total:                                                                      (5,200)                 (5,200)                  (5,200)                     0




                                                                                  -9-
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 37 Allocation of Special Drawing Rights                                                L      C      N                    54,177                  54,463
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 54,177                  54,463                   54,463                      0
Total:                                                                   (54,177)                (54,463)                 (54,463)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 38 Gold Certificates Issued to the Federal Reserve                                     L      C      N                    11,037                  11,037
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 11,037                  11,037                   11,037                      0
Total:                                                                   (11,037)                (11,037)                 (11,037)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 39 Refunds Payables                                                                    L      C      N                     2,914                   3,255
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                 2,914                   3,255                     3,255                      0
Total:                                                                   (2,914)                 (3,255)                   (3,255)                     0




                                                                              - 10 -
                                                                  U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                       Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 40 D.C. Pension and Judicial Retirement Actuarial Liability                             L      C       N                    9,164                  10,059
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Liabilities                                       N                   9,164                   10,059                  10,059                      0
Total:                                                                     (9,164)                 (10,059)                (10,059)                     0

Line Agency Line Description                                                   Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 41 Liability to Government Sponsored Enterprises                                        L      C       N                        0                   9,003
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Liabilities to Government Sponsored                     N                     0                     9,003                    9,003                      0
Enterprises
Total:                                                                           0                   (9,003)                (9,003)                         0
Line Agency Line Description                                                   Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 42 Other Liabilities                                                                    L      C       N                    4,234                   5,374
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Accounts Payable                                        N                    983                    1,667                    1,667                      0
Federal Employee and Veteran Benefits                   N                    685                      655                      655                      0
Payable
Loan Guarantee Liabilities                             N                         9                         7                     7                          0
Other Liabilities                                      N                     2,557                     3,045                 3,045                          0

                                                                                - 11 -
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB    F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                        Type
 42 Other Liabilities                                                                     L    C       N                     4,234                  5,374
Total:                                                                    (4,234)                   (5,374)                (5,374)                      0




Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 47 Funds from Dedicated Collections                                                    E      C      B                       200                     200
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Net Position- Funds From Dedicated                      B                  200                      200                      200                       0
Collections
Total:                                                                      (200)                    (200)                   (200)                         0
Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 48 Other Funds                                                                         E      C      B                   361,095                 317,309
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Net Position-All Other Funds                            B                361,095                  317,309                 317,309                      0
Total:                                                                  (361,095)                (317,309)               (317,309)                     0




                                                                              - 12 -
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 51 Funds from Dedicated Collections                                                    E      C      B                    48,477                  49,047
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Net Position- Funds From Dedicated                      B                48,477                  49,047                    43,023                   6,024
Collections
Total:                                                                   (48,477)                  (49,047)               (43,023)                  6,024
Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 52 Other Funds                                                                         E      C      B                    31,371                  22,840
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-All Other Funds                            B                 31,371                  22,840                   28,864                  (6,024)
Total:                                                                   (31,371)                (22,840)                 (28,864)                 (6,024)




                                                                              - 13 -
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF NET COST                                             Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 35 Total Gross Costs                                                                 GC      D       B                   456,714                 185,643
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Interest on Debt Held by the Public                     N                247,582                 245,707                  245,707                      0
Imputed Costs                                           F                    776                     813                      813                      0
Buy/Sell Costs                                          F                  3,798                   2,044                    2,044                      0
Benefit Program Costs                                   F                  1,734                   1,756                    1,756                      0
Federal Securities Interest Expense                     F                177,831                 187,285                  187,285                      0
Borrowing and Other Interest Expense                    F                  8,211                   8,746                    8,746                      0
Non-Federal Gross Cost                                  N                 16,313                (261,197)                (261,197)                     0
Other Expenses (without reciprocals)                    F                    469                     489                      489                      0
Gain/Loss from changes in actuarial                     N                      0                       0                        0                      0
assumptions
Total:                                                                   456,714                  185,643                185,643                           0
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 36 Total Earned Revenues                                                             ER      C       B                   173,090                  40,462
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Buy/Sell Revenue                                        F                 1,039                   1,083                     1,083                      0
Borrowings Gains                                        F                    32                      46                        46                      0
Borrowing and Other Interest Revenue                    F                37,614                  35,511                    35,511                      0
(Exchange)
Non-Federal Earned Revenue                             N                 134,405                    3,822                   3,822                          0
Total:                                                                  (173,090)                 (40,462)                (40,462)                         0


                                                                              - 14 -
                                                             U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                           Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                             Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 2   Beginning Balance                                                              BN      C      B                    71,887                (262,840)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B                 71,887                (262,840)                (262,840)                     0
Total:                                                                (71,887)                262,840                  262,840                      0

Line Agency Line Description                                               Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 4   Appropriations Used                                                             F      C      B                   455,216                 428,479
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                    F                455,216                 428,479                  428,479                      0
Total:                                                               (455,216)               (428,479)                (428,479)                     0

Line Agency Line Description                                               Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 5   Non-Exchange Revenue                                                            F      C      B                       695                     620
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                             N                  508                     271                       271                       0
Other budgetary financing sources                    F                  187                     349                       349                       0
Total:                                                                 (695)                   (620)                     (620)                      0




                                                                           - 15 -
                                                               U.S. Department of the Treasury                                    12/16/2013 15:10:33
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                             Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                               Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                    Type
 6   Donations and Forfeitures of Cash/Equivalent                                     F      C       N                    1,093                    186
                                                                                   Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N      2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported      Line Item Changes
Other Taxes and Receipts                              N                  1,093                    186                      186                      0
Total:                                                                  (1,093)                  (186)                    (186)                     0

Line Agency Line Description                                                Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                    Type
 7   Transfers In/Out Without Reimbursement                                           F      C       F                     (30)                         0
                                                                                   Variance:                                 0                          0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N     2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported      Line Item Changes
Expenditure Transfers-out of financing sources         F                   30                      0                          0                     0
Total:                                                                     30                      0                          0                     0

Line Agency Line Description                                                Status Account NB       F/N     2013-SEPTEMBER          2012-SEPTEMBER
                                                                                    Type
 8   Other                                                                            F      C       B                      12                     148
                                                                                   Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N      2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported      Line Item Changes
Other budgetary financing sources                     F                    12                     148                      148                      0
Total:                                                                    (12)                   (148)                    (148)                     0




                                                                             - 16 -
                                                               U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2013                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 10 Donations/Forfeiture of Property                                                     F      C     N                      135                     174
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N        2013-SEPTEMBER          2012-SEPTEMBER       Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                     135                     174                     174                       0
Total:                                                                     (135)                   (174)                   (174)                      0

Line Agency Line Description                                                   Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 11 Accrued Interest and Discount on Debt                                                F      C     F                   10,905                  95,877
                                                                                      Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N        2013-SEPTEMBER          2012-SEPTEMBER       Previously Reported       Line Item Changes
Other budgetary financing sources                     F                    10,905                  95,877                 95,877                      0
Total:                                                                    (10,905)                (95,877)               (95,877)                     0

Line Agency Line Description                                                   Status Account NB      F/N    2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 12 Accrued Interest on Restoration of Federal Debt Principal                            F      C     F                      801                          0
                                                                                      Variance:                                0                          0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N        2013-SEPTEMBER          2012-SEPTEMBER       Previously Reported       Line Item Changes
Other budgetary financing sources                     F                     801                      0                         0                      0
Total:                                                                     (801)                     0                         0                      0




                                                                               - 17 -
                                                              U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 13 Transfers In/Out Without Reimbursement                                           F      C       F                       (42)                    (47)
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Transfers-out Without Reimbursement                   F                   42                      47                        47                       0
Total:                                                                    42                      47                        47                       0

Line Agency Line Description                                               Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 14 Imputed Financing Sources                                                        F      C       F                       776                     812
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Imputed Financing Source                              F                  776                     812                       812                       0
Total:                                                                  (776)                   (812)                     (812)                      0

Line Agency Line Description                                               Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                   Type
 15 Transfers to the General Fund and Other                                          F      C       B                  (177,976)                (46,341)
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                   167                     129                       129                      0
Other budgetary financing sources                     F                    (2)                     (8)                       (8)                     0
Accrual for Non-entity Amounts to be                  F                (2,204)                 (2,139)                   (2,139)                     0
Collected and Transferred to the General Fund
Non-Entity Collections Transferred to the             F                180,345                  48,601                   48,601                          0


                                                                            - 18 -
                                                                 U.S. Department of the Treasury                                        12/16/2013 15:10:33
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2013                                      Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                            Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                            Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                         Type
 15 Transfers to the General Fund and Other                                                F    C        B                  (177,976)                (46,341)
General Fund
Total:                                                                    177,976                      46,341                 46,341                          0




Line Agency Line Description                                                   Status Account NB        F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 22 Beginning Balance                                                                   BN      C        B                   317,509                 342,978
                                                                                      Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2013-SEPTEMBER           2012-SEPTEMBER          Previously Reported       Line Item Changes
Beginning Net Position                                 B                  317,509                  342,978                   342,978                      0
Total:                                                                   (317,509)                (342,978)                 (342,978)                     0

Line Agency Line Description                                                   Status Account NB        F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 24 Appropriations Received                                                              F      C        B                   508,448                 419,130
                                                                                      Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER           2012-SEPTEMBER          Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                508,448                  419,130                   419,130                      0
and other adjustments)
Total:                                                                   (508,448)                   (419,130)              (419,130)                         0




                                                                               - 19 -
                                                                 U.S. Department of the Treasury                                     12/16/2013 15:10:33
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 25 Appropriations Transferred In/Out                                                    F      C      B                       25                     142
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Nonexpenditure transfers-in of unexpended              F                     25                     185                      185                       0
appropriations and financing sources
Nonexpenditure Transfers-out of unexpended              F                       0                       43                     43                          0
appropriations and financing sources
Total:                                                                        (25)                    (142)                  (142)                         0
Line Agency Line Description                                                   Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 26 Other Adjustments                                                                    F      C      B                   (9,471)                (16,262)
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                (9,471)                 (16,262)                (16,262)                     0
and other adjustments)
Total:                                                                      9,471                   16,262                 16,262                          0
Line Agency Line Description                                                   Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 27 Appropriations Used                                                                  F      C      B                 (455,216)               (428,479)
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2013-SEPTEMBER          2012-SEPTEMBER        Previously Reported       Line Item Changes
Other budgetary financing sources                      F                 (455,216)               (428,479)               (428,479)                     0
Total:                                                                    455,216                 428,479                 428,479                      0


                                                                               - 20 -
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 2   Individual Income and FICA Taxes                                                   F      C      N                 2,448,546                2,159,990
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               2,448,546                2,159,990              2,159,990                      0
Total:                                                                 (2,448,546)              (2,159,990)            (2,159,990)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 3   Corporate Income Taxes                                                             F      C      N                   311,994                 281,462
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Corporation Income Taxes                                N                311,994                  281,462                 281,462                      0
Total:                                                                  (311,994)                (281,462)               (281,462)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 4   Estate and Gift Taxes                                                              F      C      N                    19,830                  14,450
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Estate and Gift Taxes                                   N                 19,830                   14,450                  14,450                      0
Total:                                                                   (19,830)                 (14,450)                (14,450)                     0




                                                                               - 21 -
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 5   Excise Taxes                                                                       F      C      N                    83,970                  79,554
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Excise Taxes                                            N                 83,970                  79,554                   79,554                      0
Total:                                                                   (83,970)                (79,554)                 (79,554)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 6   Railroad Retirement Taxes                                                          F      C      N                     5,511                   4,773
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 5,511                   4,773                     4,773                      0
Total:                                                                   (5,511)                 (4,773)                   (4,773)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 7   Unemployment Taxes                                                                 F      C      N                     7,896                   7,159
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER          2012-SEPTEMBER         Previously Reported       Line Item Changes
Unemployment Taxes                                      N                 7,896                   7,159                     7,159                      0
Total:                                                                   (7,896)                 (7,159)                   (7,159)                     0




                                                                              - 22 -
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 8   Deposit of Earnings, Federal Reserve System                                        F      C      N                    75,767                  81,957
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 75,767                   81,957                  81,957                      0
Total:                                                                   (75,767)                 (81,957)                (81,957)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 9   Fines, Penalties, Interest, and Other Revenue                                      F      C      B                     2,886                     623
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N       2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                   3,173                     710                      710                       0
Other budgetary financing sources                     F                      19                      24                       24                       0
Accrual for Non-entity Amounts to be                  F                     306                     111                      111                       0
Collected and Transferred to the General Fund
Total:                                                                     (2,886)                    (623)                  (623)                         0
Line Agency Line Description                                                  Status Account NB       F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                      Type
 11 Less Refunds                                                                        F      C      N                  (364,788)               (373,752)
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               (320,435)                (327,675)               (327,675)                     0
Other Taxes and Receipts                                N                    (72)                      (9)                     (9)                     0


                                                                               - 23 -
                                                                U.S. Department of the Treasury                                       12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2013                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                           Account NB     F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                        Type
 11 Less Refunds                                                                          F    C        N                 (364,788)               (373,752)
Corporation Income Taxes                               N                 (41,569)                   (43,970)               (43,970)                      0
Excise Taxes                                           N                  (1,518)                    (1,487)                (1,487)                      0
Estate and Gift Taxes                                  N                  (1,047)                      (505)                  (505)                      0
Unemployment Taxes                                     N                    (147)                      (106)                  (106)                      0
Total:                                                                   364,788                    373,752               373,752                        0



Line Agency Line Description                                                 Status Account NB        F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 13 Non-Cash Accrual Adjustment                                                        F      C        N                      (959)                  5,543
                                                                                    Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                    0                     4,000                     4,000                      0
Other Taxes and Receipts                                N                 (956)                    1,552                     1,552                      0
Excise Taxes                                            N                   (3)                       (9)                       (9)                     0
Total:                                                                     959                    (5,543)                   (5,543)                     0
Line Agency Line Description                                                 Status Account NB        F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 15 Cash Proceeds from Sale of Stock                                                   F      C        N                     2,588                  12,992
                                                                                    Variance:                                    0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER         Previously Reported       Line Item Changes
Miscellaneous Earned Revenue                            N                 2,588                    12,992                   12,992                      0
Total:                                                                   (2,588)                  (12,992)                 (12,992)                     0



                                                                              - 24 -
                                                                U.S. Department of the Treasury                                      12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2013                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 16 Non-Cash Market Adjustments                                                          F      C     N                    (2,611)                  (8,251)
                                                                                      Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Miscellaneous Earned Revenue                            N                (2,611)                  (8,251)                  (8,251)                     0
Total:                                                                    2,611                    8,251                    8,251                      0

Line Agency Line Description                                                   Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 20 Amounts Provided to Fund Non-Federal Entities                                       CF      D      B                      358                     386
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 (358)                    (386)                    (386)                      0
Total:                                                                     358                      386                      386                       0

Line Agency Line Description                                                   Status Account NB      F/N     2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 21 Amounts Provided to Fund the Federal Government                                     CF      D      B                2,591,254                2,255,830
                                                                                      Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N      2013-SEPTEMBER           2012-SEPTEMBER        Previously Reported       Line Item Changes
Expenditure Transfers-out of financing sources         F                       53                      128                    128                      0
Other non-budgetary financing sources                  F                     (763)                       0                      0                      0
Other budgetary financing sources                      F                        0                     (511)                  (511)                     0
Non-Entity Collections Transferred to the              F                2,590,438                2,255,191              2,255,191                      0
General Fund

                                                                               - 25 -
                                                               U.S. Department of the Treasury                                       12/16/2013 15:10:33
                                                                 Financial Management Service
                                                            Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                               Fiscal Year: 2013                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                               Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                          Account NB     F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                       Type
 21 Amounts Provided to Fund the Federal Government                                     CF    D       B                 2,591,254                2,255,830
Total:                                                                 2,591,254                2,255,830               2,255,830                        0




Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 23 Amounts to be Provided to the General Fund and Others                             CF      D       F                      (618)                  4,000
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N      2013-SEPTEMBER            2012-SEPTEMBER        Previously Reported       Line Item Changes
Accrual for Non-entity Amounts to be                  F                  (618)                     4,000                    4,000                      0
Collected and Transferred to the General Fund
Total:                                                                     (618)                    4,000                   4,000                          0
Line Agency Line Description                                                 Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                     Type
 24 Accrual Adjustment                                                                CF      D      B                       (341)                  1,543
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N      2013-SEPTEMBER            2012-SEPTEMBER        Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                     0                     (1,552)                  (1,552)                     0
Excise Taxes                                          N                     0                          9                        9                      0
Accrual for Non-entity Amounts to be                  F                  (341)                         0                        0                      0
Collected and Transferred to the General Fund
Total:                                                                     (341)                    1,543                   1,543                          0

                                                                             - 26 -
                                                                U.S. Department of the Treasury                                         12/16/2013 15:10:33
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                   Fiscal Year: 2013                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                   Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                              Account NB    F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                           Type
 24 Accrual Adjustment                                                                      CF    D      B                      (341)                  1,543




Line Agency Line Description                                                    Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                        Type
 26 Cash Proceeds from Stock Sales Provided to Fund the Federal Government               CF      D       N                     2,588                  12,992
                                                                                       Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER              2012-SEPTEMBER        Previously Reported       Line Item Changes
Non-Entity Collections Transferred to the               F                 2,588                      12,992                   12,992                      0
General Fund
Total:                                                                       2,588                     12,992                 12,992                          0
Line Agency Line Description                                                    Status Account NB       F/N      2013-SEPTEMBER           2012-SEPTEMBER
                                                                                        Type
 27 Non-Cash Market Adjustment                                                           CF      D       N                    (2,611)                  (8,251)
                                                                                       Variance:                                   0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2013-SEPTEMBER              2012-SEPTEMBER        Previously Reported       Line Item Changes
Non-Entity Collections Transferred to the               F                (2,611)                     (8,251)                  (8,251)                     0
General Fund
Total:                                                                       (2,611)                   (8,251)                (8,251)                         0




                                                                                 - 27 -
